<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                       WEDNESDAY, MARCH 15, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard and Durbin.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF EMILY REYNOLDS, SECRETARY OF THE SENATE
ACCOMPANIED BY:
        MARY SUIT JONES, ASSISTANT SECRETARY OF THE SENATE
        CHRIS DOBY, FINANCIAL CLERK

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order. Good 
morning everybody. We meet today to take testimony on the 
fiscal year 2007 budget request for the Secretary of the Senate 
and the Architect of the Capitol, and review progress of the 
Capitol Visitor Center (CVC) construction. The legislative 
branch budget request totals roughly $4.2 billion, an increase 
of $460 million or 12 percent over the current year.
    While most agencies in the President's budget would be 
frozen at current levels, a number of the agencies before this 
subcommittee have proposed very substantial increases and we 
will need to scrutinize these requests very carefully. We will 
have three separate panels today. Secretary Emily Reynolds will 
testify first, she's accompanied by Assistant Secretary of the 
Senate Mary Suit Jones, and the new Financial Clerk of the 
Senate Chris Doby.
    Our second panel will be the Architect of the Capitol, Alan 
Hantman, and our third panel to discuss progress of the Capitol 
Visitor Center construction will include Mr. Hantman, CVC 
Project Executive Bob Hixon, and GAO representatives Bernie 
Ungar and Terrell Dorn.
    I extend a welcome to our witnesses this morning. Ms. 
Reynolds, your office is requesting a budget of about $24 
million, an increase of roughly $1 million, or just above 5 
percent over fiscal year 2006. This budget would support the 26 
departments that are part of the Office of the Secretary and 
would accommodate cost of living and merit increases. And we'll 
now proceed to the first panel. Welcome Ms. Reynolds. You may 
proceed with your testimony. It's good to see you.
    Ms. Reynolds. Thank you Mr. Chairman, it's an honor to be 
with you. We're, of course, very grateful for your leadership 
as our subcommittee chairman, and we appreciate this 
opportunity to talk about the work of the Secretary's office. 
I'd like to ask that my full statement, which, of course, 
includes our complete department reports, be submitted for the 
record.
    Today I would just like to give you a brief overview of the 
Secretary's operation and most importantly that budget request 
for fiscal year 2007 that you mentioned. As you said, we've 
requested about $24 million; $22 million of that is in salary 
cost and $1.9 million for operating expenses. That slight 
increase as you've referenced is in cost of living allowance 
(COLA) and merit increases so that we can continue to attract 
and retain the talent that the Senate requires and deserves for 
the critical day to day operations that we provide.
    And I'd like to take a couple of minutes today and just 
highlight some of the work of the past year, since we were all 
last together at this hearing. There are three key words that 
come to mind in reflecting on the Secretary's operation. And 
those are continuity, creativity and collaboration. That's how 
our office functions and I want to mention in particular in 
terms of continuity, because in so many respects we are the 
institutional memory of the Senate. We take very seriously the 
responsibility of passing that knowledge along from generation 
to generation, incoming class to incoming class, office to 
office. Our legislative department, the great folks that you 
see on the floor of the Senate each and every day, continue to 
cross train among their various specialties, and about half of 
that staff is cross trained.
    We're also blessed in that a large number of people come to 
serve the Senate for an extended period of time, but it makes 
it all the more important when you begin to lose that 
institutional memory in retirements that we try to anticipate 
those changes and work toward an appropriate line of 
succession. And at all times, we strive to attract and retain 
the best talent possible. Individuals for whom coming to the 
Senate to serve this body as their career is a high priority.
    And, of course, on a much broader scale, it's our 
responsibility to prepare daily so that you and your colleagues 
can carry out your constitutional responsibilities under any 
circumstance. So for us that continuity has both a daily impact 
and a much broader view as well.
    I mention creativity as well and I hope that we bring a 
certain level of creativity in each of our 26 departments. And 
I'd like to just highlight five things today that we're doing.
    A perfect example of that creativity is the Senate's 
website. And our new home page in particular which we're very 
proud to have the chance to show off and talk about a little 
bit. All of our lives have been changed dramatically by the 
worldwide web, and the Senate is no exception. Senate.gov now 
celebrates a decade of service to the Senate community and the 
general public and received an astonishing 50 million visits 
last year. That's five times as many as just 5 years ago, so 
remarkable growth in terms of the public's access to 
senate.gov. And with that, thanks to the support of this 
subcommittee we unveiled a handsome new home page in January. 
There's more content on the front page, the site also provides 
site wide searches from every page, and, of course, most 
importantly those direct links to the Members' home pages.
    I'm really delighted that U.S. News took note of the new 
homepage, and described it as a rich new website and one that's 
much easier to research. I also mentioned to you when we were 
here last year, that our historical office had underway a 
project of a pictorial directory, with the images of all 
Senators who have served since 1789, by State and by class. 
That book ``Faces of the Senate'' was completed in November and 
it really is a treasure. It was a monumental effort on the part 
of our Senate photo historian. And it was interesting in that 
as she reached out to historical societies, museums and other 
organizations in trying to locate as many images as possible, 
the project attracted the attention of a National Guardsman 
from Vermont who was stationed in Iraq. He was working on a 
historical project for his unit, and he e-mailed our photo 
historian saying I don't have a lot of time to assist, but with 
my own project I'm finding resources out there I never knew 
existed. And amazingly enough, he helped us locate six images 
of former Members for whom we had no previous record.
    The gift shop I want to mention, a tremendous presence here 
in the Senate. And we've enhanced the gift shop operation by 
adding an online presence to our intranet Webster so that our 
Senate community can more easily see the vast array of products 
that we have available.
    I'm also proud that in this bicentennial year of 
Constantino Brumidi's birth, the artist of the Capitol, we've 
added a product line with Brumidi featured merchandise so that 
our merchandise reflects the rich history of the Capitol and 
hopefully for people it has some educational value as well.
    You may also recall, that 2 years ago we completed the 
publication of the Senate's fine arts catalogue. A beautiful 
volume, the companion volume, a catalogue of our graphics art 
collection will be available later this year. And just like the 
fine arts publication, it will be a magnificent presentation of 
the 900 historic engravings and lithographs in the Senate 
collection.
    I had the opportunity to speak last week with a member of 
our curatorial advisory board, and she said that she believed 
that this publication will be very well received in the arts 
community, the academic community, as a first ever glance if 
you will at this tremendous collection of the Senate's and it's 
an excellent research tool. So we'll have that to you later 
this year. I'm excited about it.
    In the Senate reception room, thanks to the leadership of 
Senator Dodd, we will add an important representation from the 
18th century. And that's the addition of a mural that will 
commemorate the two authors of the Great or Connecticut 
Compromise. That mural will depict the authors of that 
compromise, Roger Sherman, and Oliver Ellsworth and will be 
unveiled later this year.
    And finally in terms of collaboration, so much of what we 
do each and every day is dependent on a team approach, among 
our departments working with the Architect of the Capitol, 
working with members of the Senate community and especially 
with our Sergeant at Arms. And once again I'd love to give 
three quick examples. I want to publicly thank and commend the 
Sergeant at Arms, and this subcommittee without whose support 
the project would not have been possible for the completion of 
the new Senate support facility. From our gift shop, 
stationery, the curator, library, our disbursing operation, 
having that state-of-the-art storage space will make a 
difference each and every day in terms of the level of support 
we provide our Senate community. The facility is a welcome 
addition and should serve our needs for years to come.
    One of the most important services that you and your 
colleagues offer the folks at home is providing flags that are 
flown over the Capitol, and we have an exciting pilot project 
underway with 26 offices and I believe your office is one, to 
streamline that process of the purchase of pre-flown flags. 
It's become cumbersome at times, and again thanks to this 
pilot, we should have real success and report back to you on 
that along the way.
    And finally our legislative information system, another 
project generously funded by this subcommittee, we've made 
tremendous progress again this year. Again a team effort 
between our LIS Office and most especially the Senate 
Legislative Counsel. Already this year, over 95 percent of the 
bills introduced in this session of the 109th Congress have 
been written and formatted through the XML authoring 
application known as LEXA. So we're very proud of that 
milestone.
    I often marvel that the first Secretary of the Senate 
carried out his responsibilities alone, in the first years of 
the Senate's existence. By the time he died in office in 1814, 
he had convinced his appropriators to allow him to hire two 
clerks. As much as things have changed and as our 
responsibilities have grown through the years, the three 
fundamental responsibilities of our office, to provide the 
legislative, financial, and administrative support to this 
institution remain at the heart of what we do, each and every 
day. It's our duty and our honor to carry out these functions 
for the Senate.

                           PREPARED STATEMENT

    On behalf of our entire team, we thank this subcommittee 
Mr. Chairman, for your support and I look forward to questions. 
Thank you.
    [The statement follows:]

                Prepared Statement of Emily J. Reynolds
 
   Mr. Chairman, Senator Durbin, and Members of the Subcommittee, 
thank you for your invitation to present testimony in support of the 
budget request of the Office of the Secretary of the Senate for fiscal 
year 2007.
    Detailed information about the work of the 26 departments of the 
Office of the Secretary is provided in the annual reports which follow. 
I am pleased to provide this statement to highlight the achievements of 
the Office and the outstanding work of our dedicated employees.
    My statement includes: Presenting the fiscal year 2007 budget 
request; implementing mandated systems: financial management 
information system (FMIS) and legislative information system (LIS); 
Capitol Visitor Center; continuity of operations planning; and 
maintaining and improving current and historic legislative, financial 
and administrative services.

             PRESENTING THE FISCAL YEAR 2007 BUDGET REQUEST

    I am requesting a total fiscal year 2007 budget of $24,066,000. The 
fiscal year 2007 budget request is comprised of $22,166,000 in salary 
costs and $1,900,000 for the operating budget of the Office of the 
Secretary. The salary budget represents an increase over the fiscal 
year 2006 budget as a result of (1) the costs associated with the 
annual Cost of Living Adjustment in the amount of $654,000 and (2) an 
additional $646,000 for merit increases and other staffing. The 
operating budget represents a decrease of $80,000 from fiscal year 
2006. The funding for the study on employment compensation, hiring and 
benefits practices, included in last year's funding, is a non-
reoccurring expense.
    The net effect of my total budget request for fiscal year 2007 is 
an increase of $1,220,000.
    Our request in the operating budget is a sound one, enabling us to 
meet our operating needs and provide the necessary services to the 
United State Senate through our legislative, financial and 
administrative offices.
    In reference to the salary budget, first and foremost, this request 
will enable us to continue to attract and retain talented and dedicated 
individuals to serve the needs of the United States Senate.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount
                                                                     available        Budget
                              Item                                  fiscal year      estimate       Difference
                                                                   2006, Public     fiscal year
                                                                    Law 109-55         2007
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................        $630,000        $550,000         -80,000
    Administrative services.....................................       1,290,000       1,290,000  ..............
    Legislative services........................................          60,000          60,000  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................       1,980,000       1,900,000         -80,000
----------------------------------------------------------------------------------------------------------------

                     IMPLEMENTING MANDATED SYSTEMS

    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 140 offices. Consistent with the five year strategic 
plan, the Disbursing Office continues to modernize processes and 
applications to meet the continued demand by Senate offices for 
efficiency, accountability and ease of use. The goal is to move to a 
paperless voucher system, improve the Web FMIS system, and make payroll 
and accounting system improvements.
    Over the last two years work has been underway to update and 
simplify the underlying technology of Web FMIS, basically replacing all 
Visual Basic Client/Server and Cold Fusion Web technology with 
WebSphere web pages thereby creating a ``thin client'' application that 
can be accessed via an intranet browser. In August 2004 Web FMIS r9.0 
for pilot offices, which was a complete rewriting of the Web FMIS 
functionality using all intranet based pages, was implemented. By the 
end of April, all Web FMIS users were using the intranet version of Web 
FMIS.
    During fiscal year 2005 and the first half of fiscal year 2006, 
improvements to Web FMIS were as follows:
  --In the November 2004 release, additional functionality identified 
        by the pilot offices was addressed. This new release was 
        provided to new offices of the 109th Congress. In the February 
        2005 release, a security certificate was added to the Web FMIS 
        web site (i.e., adding the ``S'' to https://webfmis.senate.gov) 
        and changed the extracts for the nightly Web FMIS reporting 
        cycle to use table-driven parameters rather than hard-coded 
        ones. In April 2005, report and document printing was provided 
        via Adobe, standard Senate software, rather than Web FMIS-
        specific files. This completed moving Web FMIS to the ``zero-
        client'' platform, an important milestone in providing critical 
        systems in a disaster situation. With this change, the Rules 
        Committee Audit staff moved from client-server based screens to 
        intranet-based pages for their functions, Disbursing staff 
        began to use ``standard notepad text'' in documenting 
        corrections made to vouchers. In July 2005, the focus was on 
        additional functionality for Disbursing, including new pages 
        for the Inbox and Document Review functions, enhancements to 
        the Advice of Change process and streamlining the document 
        approval process. Technology was updated and provided more 
        functionality on the Inbox pages and the travel reimbursement 
        mileage rate maintenance page. Additional functionality was 
        added to the Documents/Create page and the Budget page, and 
        bugs were fixed.
  --In May 2005, the SAVI system was upgraded, which enables Senate 
        staff to check the status of reimbursements, whether via check 
        or direct deposit, to enable its use by Macintosh computer 
        users.
  --The Disbursing Office makes payments via direct deposit and via 
        check using the Checkwriter software. In 2006, Checkwriter 
        release 6, which rewrites the security component, will be 
        tested with implementation tentatively scheduled for summer 
        2006.
  --On Saturday, December 3, 2005, the Sergeant at Arms technical staff 
        conducted a disaster recovery test of the Senate's computing 
        facilities, including the financial management information 
        system (FMIS) functions. The test involved switching the 
        Senate's network from accessing systems at the Primary 
        Computing Facility (PCF) to the backup facility, and powering 
        down the PCF.
      The SAA's primary purpose was to test the technical process of 
        switching to our backup facility, and only a limited amount of 
        time was available for functional testing. The SAA staff wanted 
        to complete the exercise within a 12-hour window, including the 
        time needed to switch us to the backup facility and back to the 
        PCF. A two-hour functional testing window was expected. In the 
        scenario, FMIS systems and data would be ``failed-over'' to the 
        backup facility, and made available for testing during the 
        functional testing window. The systems would then be ``failed 
        back'' to the PCF, but the data would not be ``failed back''. 
        Consequently, any changes made while testing at the backup 
        facility would not be made to production data.
      Within the limited scope of what we were able to test, most of 
        the critical components of FMIS were successfully tested. A 
        request has been made to the SAA that disaster recovery tests 
        be conducted twice a year and that additional system components 
        be tested at each successive event.
  --The computing infrastructure for FMIS is provided by the Sergeant 
        at Arms. Each year upgrades are made to the infrastructure 
        software. The major upgrade this year was the implementation of 
        a new version of the mainframe operating system software, ``Z/
        OS.'' This upgrade required FMIS testing, both before 
        implementation to identify and resolve any incompatibilities, 
        and after implementation to verify that all functions are 
        working properly.
    During 2005 work continued with Bearing Point to define the 
requirements for additional functionality required for the two Web FMIS 
releases planned for 2006:
  --Web FMIS r11 B.--Planned for Summer 2006, this release will add the 
        ability to ``import'' invoice data from an outside vendor in 
        order to create a voucher with minimal re-typing. (This process 
        is similar to the ``import'' process by which data from an 
        online ESR, created via SAVI, is used to create a travel 
        voucher).
  --Web FMIS r12 B.--Planned for late Fall 2006, this release will be a 
        pilot of paperless voucher processing, which requires adding 
        electronic signature and documentation imaging functionality.
    In addition, during fiscal year 2006 the following FMIS activities 
are anticipated:
  --Developing requirements for integrating the Funds Advance Tracking 
        System (FATS) into FMIS. FATS, a stand-alone PC-based system, 
        tracks election cycle information used in the voucher review 
        process, and tracks travel advances and petty cash advances 
        against dollar maximum and total allocation rules.
  --Implementing DB2 vs. 8 in compatibility mode.
  --Researching the implementation of online distribution of system 
        reports.
  --Completing fiscal year 2004 Financial Statements in Hyperion and 
        start working on fiscal year 2005.
  --Performing some minor enhancements to the FAMIS vendor file.
    A more detailed report on FMIS is included in the department report 
of the Disbursing Office which follows.

Legislative Information System (LIS)
    The LISAP project team continues to enhance the Senate's 
legislative editing XML application (LEXA). The Office of the Senate 
Legislative Counsel (SLC) used LEXA throughout 2005 and 80 percent of 
introduced and reported measures for the first session of the 109th 
Congress were created as XML documents. As modifications and features 
were developed for LEXA, the SLC's use continues to increase. Thus far 
in the second session of the 109th Congress, approximately 96 percent 
of the introduced and reported bills have been created as XML 
documents. Additional document types, such as conference reports and 
engrossed and enrolled bills, were added to LEXA.
    The LISAP project team continues to work with the Senate offices, 
the Clerk of the House, the Government Printing Office and the Library 
of Congress to develop standards and tools to create, print and 
exchange legislative documents in XML. The Government Printing Office 
(GPO) uses LEXA to update and print Senate XML documents as requested. 
GPO also provides support for LEXA, as directed in the 2004 Legislative 
Branch Appropriations Act, by maintaining the printing software in LEXA 
that converts an XML document to locators for printing through 
Microcomp. GPO is also in the process of reworking the software that 
creates and prints tables. These tools will be incorporated into both 
the Senate and House XML authoring applications.
    A joint project to convert the compilations of current law to an 
XML format was completed last year. Joint projects for this year 
include completion of the new table tool and development of standards 
for drafting appropriations amendments in XML. The Document Management 
System (DMS) for the SLC will be implemented once the SLC has completed 
the transition from XyWrite to LEXA. The SLC's DMS will be integrated 
with LEXA and will provide a powerful tracking, management and delivery 
tool.

                         CAPITOL VISITOR CENTER

    While the Architect of the Capitol directly oversees this massive 
and impressive project, I would like to briefly mention the ongoing 
involvement of the Secretary's office in this endeavor. My colleague, 
the Clerk of the House, and I continue to facilitate weekly meetings 
with senior staff of the joint leadership of Congress to address and 
hopefully quickly resolve issues that might impact the status of the 
project or the operation of Congress in general.
    In addition, I also facilitate weekly meetings with the Architect's 
office for the senior staff of the Senate Sergeant at Arms, Capitol 
Police, Rules Committee and Appropriations Committee in order to 
address the expansion space plans for the Senate and any issues with 
regard to the Capitol Visitor Center's (CVC's) construction that may 
directly impact Senate operations.
    Although the construction creates numerous temporary inconveniences 
to Senators, staff and visitors, completion of the CVC will bring 
substantial improvements in enhanced security and visitor amenities, 
and its educational benefits for our visitors will be tremendous.

      CONTINUITY OF OPERATIONS AND EMERGENCY PREPAREDNESS PLANNING

    The Office of the Secretary maintains a Continuity of Operations 
(COOP) program to ensure that the Senate can fulfill its constitutional 
obligations under any circumstances. Plans are in place to support 
Senate floor operations both on and off Capitol Hill, and to permit 
each department within the Office of the Secretary to perform its 
essential functions during and after an emergency.
    COOP planning in the Office of the Secretary began in late 2000. 
Since that time, COOP plans were successfully implemented during the 
anthrax and ricin incidents, and more than twenty drills and exercises 
to test and refine our plans have been conducted. In conjunction with 
the Sergeant at Arms, Capitol Police, the Office of the Attending 
Physician and the Architect of the Capitol, Emergency Operations 
Centers, Briefing Centers and Alternate Senate Chambers, have been 
exercised both on and off campus.
    In addition, equipment, supplies and other items critical to the 
conduct of essential functions have been identified and assembled as 
``fly-away kits'' for the Senate Chamber and for each department of the 
Office of the Secretary. Multiple copies of each fly-away kit have been 
produced; some are stored in our offices, and back-up kits are stored 
nearby but off the main campus, as well as at other sites outside the 
District of Columbia. This approach will enable the Office of the 
Secretary to resume essential operations within 12 to 24 hours, even if 
there is no opportunity to retrieve anything from our offices.
    Today, the Office of the Secretary is prepared to do the following 
in the event of emergency:
  --support Senate Floor operations in an Alternate Senate Chamber 
        within 12 hours on campus, and within 24 to 72 hours off 
        campus, depending upon location;
  --support an emergency legislative session at a Briefing Center, if 
        required;
  --support Briefing Center Operations at any of three designated 
        locations within 1 hour;
  --activate an Emergency Operations Center at Postal Square or another 
        near-campus site within 1 hour; and
  --activate an Emergency Operations Center at another site within the 
        National Capital region within 3 hours.
Activities in the Past Year
    During the past year, the Office of the Secretary continued to 
update, refine and exercise emergency preparedness plans and 
operations. Specific activities included the following:
  --Updated plans for use of an Alternate Senate Chamber, Briefing 
        Center and Emergency Operations Center;
  --Working with the Capitol Police and the Office of the Sergeant at 
        Arms, refined response plans for air threat incidents;
  --Updated fly-away kits for use at an Alternate Chamber; and
  --Conducted and participated in ten emergency preparedness drills and 
        exercises.
    The central mission of the Office of the Secretary is to provide 
the legislative, financial and administrative support required for the 
conduct of Senate business. Our emergency preparedness programs are 
designed to ensure that the Senate can carry out its Constitutional 
functions under any circumstances. These programs are critical to our 
mission, and they are a permanent, integral part of the Secretary's 
ongoing operation.

 MAINTAINING AND IMPROVING CURRENT AND HISTORIC LEGISLATIVE, FINANCIAL 
                      AND ADMINISTRATIVE SERVICES
                          LEGISLATIVE OFFICES

    The Legislative Department of the Office of the Secretary of the 
Senate provides the support essential to Senators to carry out their 
daily chamber activities as well as the constitutional responsibilities 
of the Senate. The department consists of eight offices--the Bill 
Clerk, Captioning Services, Daily Digest, Enrolling Clerk, Executive 
Clerk, Journal Clerk, Legislative Clerk, and the Official Reporters of 
Debates, which are supervised by the Secretary through the Legislative 
Clerk. The Parliamentarian's office is also part of the Legislative 
Department of the Secretary of the Senate.
    Each of the nine offices within the Legislative Department is 
supervised by experienced veterans of the Secretary's office. The 
average length of service of legislative supervisors in the Office of 
the Secretary of the Senate is 20 years. The experience of this senior 
professional staff is a great asset for the Senate. In order to ensure 
well-rounded expertise, the legislative team cross-trains extensively 
among their specialties.

                             1. BILL CLERK

    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices via the Legislative Information System 
(LIS). The Bill Clerk records actions of the Senate with regard to 
bills, resolutions, reports, amendments, co-sponsors, public law 
numbers, and recorded votes. The Bill Clerk is responsible for 
preparing for print all measures introduced, received, submitted, and 
reported in the Senate. The Bill Clerk also assigns numbers to all 
Senate bills and resolutions. All the information received in this 
office comes directly from the Senate floor in written form. The Bill 
Clerk's office is generally regarded as the most timely and most 
accurate source of legislative information.

Legislative Activity
    The Bill Clerk's office processed into the database more than 2,000 
additional legislative items and 150 additional roll call votes than 
the previous session. For comparative purposes, below is a summary of 
the 108th Congress, broken down into 1st and 2nd sessions, as compared 
to the first session of the 109th Congress:

----------------------------------------------------------------------------------------------------------------
                                                              108th         109th         108th         109th
                                                            Congress,     Congress,     Congress,     Congress,
                                                           1st Session   1st Session   2nd Session   1st Session
----------------------------------------------------------------------------------------------------------------
Senate Bills............................................         2,003         2,169         1,032         2,169
Senate Joint Resolutions................................            26            27            16            27
Senate Concurrent Resolutions...........................            86            75            66            75
Senate Resolutions......................................           283           347           204           347
Amendments Submitted....................................         2,231         2,695         1,857         2,695
House Bills.............................................           282           286           322           286
House Joint Resolutions.................................            20            11            12            11
House Concurrent Resolutions............................            78            88            87            88
Measures Reported.......................................           352           286           317           286
Written Reports.........................................           220           212           208           212
                                                         -------------------------------------------------------
      Total Legislation.................................         5,571         6,196         4,121         6,196
                                                         =======================================================
Roll Call Votes.........................................           459           366           216           366
----------------------------------------------------------------------------------------------------------------

Assistance from the Government Printing Office (GPO)
    The Bill Clerk's office maintains a good working relationship with 
the Government Printing Office with the common goal of providing the 
best service possible to meet the needs of the Senate. Toward this end, 
GPO continues to respond in a timely manner to the Secretary's request 
through the Bill Clerk's office for the printing of bills and reports, 
including the expedited printing of priority matters for the Senate 
chamber. For example, the Secretary requested, through the Bill Clerk, 
that GPO expedite the printing of roughly 60 measures for consideration 
by the Senate.

Projects
    Amendment Tracking System (ATS).--In the fall of 2001, the Rules 
Committee staff approached the Secretary's office with the task of 
scanning submitted amendments onto the Amendment Tracking System on 
LIS. The Rules Committee identified a need for Senate staff to have all 
amendments submitted in the Senate made available to them online 
shortly after being submitted, especially during cloture. Rules 
Committee also requested that the Secretary assess the feasibility of 
lifting the page limitation for scanning amendments onto the ATS 
Indexer.
    In September 2005, the Secretary of the Senate, through the Bill 
Clerk's office, began scanning submitted amendments to the ATS Indexer. 
The Technology Development division of the Sergeant at Arms office has 
been quick and responsive, making the ATS Indexer a dynamic, usable 
tool available to the Senate community. The Bill Clerks were able to 
implement this new requirement seamlessly. With the added function of 
the ATS Indexer, the Secretary has made available to the Senate 
community all amendments, submitted and proposed, and in doing so, 
lifted the page limit from 25 to 50. Initial response from users is 
both positive and constructive.
    Electronic Ledger System.--Shortly after the September 2001 attacks 
and the subsequent anthrax attacks in the Capitol complex, the Bill 
Clerk identified the need to have available an electronic version of 
the official Senate ledgers in order to ensure the integrity of the 
information recorded in the books. It is anticipated that the 
electronic version will be available for use during possible emergency 
scenarios, either via remote access or portable device. The Technology 
Development division of the Sergeant-at-Arms is working to develop two 
separate functions of this ledger system. One is an electronic data 
entry system, which will mimic the layout of the current Senate ledgers 
printed by the Government Printing Office. The other, a search 
function, has already been developed and is currently in use in select 
clerical offices of the legislative staff and is routinely enhanced and 
modified by the excellent ELS project team at Postal Square. Both of 
these programs will be housed on a separate server to maintain the 
integrity of the ledger data. This search system offers an invaluable 
tool capable of utilizing more complex search requirements.

                    2. OFFICE OF CAPTIONING SERVICES

    The Office of Captioning Services provides realtime captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate floor proceedings to Senate 
offices via the Senate intranet.

General Overview
    Accuracy continues to be the top priority of this Office. Overall 
caption quality is monitored through daily Translation Data Reports, 
monitoring of captions in realtime, and review of caption files on the 
Senate intranet. Dedication to this process has produced an overall 
captioning accuracy average above 99 percent this past year.
    A major event of 2005 for the Office of Captioning Services was 
realtime captioning the 55th Annual Presidential Inauguration. The 
Office's captions of the historic event appeared on six jumbotrons 
located on the West Front of the Capitol and the National Mall.
    Continuity of operations planning and preparation during 2005 
continued to be a priority to ensure staff is prepared and confident 
about the Office's ability to relocate and successfully caption from a 
remote location in the event of an emergency. Participation in a 
Continuity of Operations template review project with the Sergeant at 
Arms Continuity of Operations Program Manager provided an excellent 
opportunity for an in-depth review of the Office of Captioning 
Service's Plan.

Technology Update
    The Office received a major upgrade of software and hardware in 
2004 and thus continues to work with vendors to provide enhancements 
and correct deficiencies in the new realtime captioning software.

2006 Objectives
    The Office of Captioning Services constantly strives to maintain 
and improve the high level of caption accuracy that has been 
established. The Office is committed to this goal and will strive to 
find new and innovative ways to accomplish this objective.
    Another priority of the Office of Captioning Services will be to 
prepare and plan for the procurement and installation of equipment and 
relocation of the Office of Captioning Services to the Senate expansion 
space in the Capitol Visitor Center.

                         3. SENATE DAILY DIGEST

    The Senate Daily Digest serves seven principal functions:
  --To render a brief, concise and easy-to-read accounting of all 
        official actions taken by the Senate in the Congressional 
        Record section known as the Daily Digest.
  --To compile an accounting of all meetings of Senate committees, 
        subcommittees, joint committees and committees of conference.
  --To enter all Senate and Joint committee scheduling data into the 
        Senate's web-based scheduling application system. Committee 
        scheduling information is also prepared for publication in the 
        Daily Digest in three formats: Day-Ahead Schedule; 
        Congressional Program for the Week Ahead; and the extended 
        schedule which actually appears in the Extensions of Remarks 
        section of the Congressional Record.
  --To enter into the Senate's Legislative Information System all 
        official actions taken by Senate committees on legislation, 
        nominations, and treaties.
  --To publish in the Daily Digest a listing of all legislation which 
        have become public law.
  --To publish on the first legislative day of each month in the Daily 
        Digest a ``Resume of Congressional Activity'' which includes 
        all Congressional statistical information, including days and 
        time in session; measures introduced, reported and passed; and 
        roll call votes. (See Resume of Congressional Activity which 
        follows).
  --To assist the House Daily Digest Editor in the preparation at the 
        end of each session of Congress a history of public bills 
        enacted into law and a final resume of congressional 
        statistical activity.

Committee Activity
    Senate committees held a total of 874 meetings during the first 
session of the 109th Congress, as contrasted with 838 meetings during 
the first session of the 108th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest and are published in the Congressional Record and entered in the 
Legislative Information System. Meeting outcomes are also published by 
the Daily Digest in the Congressional Record each day.

Chamber Activity
    The Senate was in session a total of 159 days, for a total of 1,222 
hours and 26 minutes. There were 3 live quorum calls and 366 record 
votes. (See Chart depicting a 20-Year Comparison of Senate Legislative 
Activity which follows).

                                                                        20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1986          1987          1988          1989          1990          1991          1992          1993          1994          1995
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................          1/21           1/6          1/25           1/3          1/23           1/3           1/3           1/5          1/25           1/4
Senate Adjourned....................................         10/18         12/22         10/21         11/21         10/28        1/3/92          10/9         11/26         12/01        1/3/96
Days in Session.....................................           143           170           137           136           138           158           129           153           138           211
Hours in Session....................................      1,27815"      1,21452"      1,12648"      1,00319"      1,25014"      1,20044"      1,09109"      1,26941"      1,24333"      1,83910"
Average Hours per Day...............................           8.9           7.1           8.2           7.4           9.1           7.6           8.5           8.3           9.0           8.7
Total Measures Passed...............................           747           616           814           605           716           626           651           473           465           346
Roll Call Votes.....................................           359           420           379           312           326           280           270           395           329           613
Quorum Calls........................................            16            36            26            11             3             3             5             2             6             3
Public Laws.........................................           424           240           473           240           244           243           347           210           255            88
Treaties Ratified...................................            12             3            15             9            15            15            32            20             8            10
Nominations Confirmed...............................        39,893        46,404        42,317        45,585        42,493        45,369        30,619        38,676        37,446        40,535
Average Voting Attendance...........................         95.72         94.03         91.58          98.0         97.47         97.16          95.4          97.6         97.02         98.07
Sessions Convened Before 12 Noon....................           117           131           120            95           116           126           112           128           120           184
Sessions Convened at 12 Noon........................            25            12            12            14             4             9  ............             6             9             2
Sessions Convened after 12 Noon.....................             1            25             5            27            17            23            10            15            17            12
Sessions Continued after 6 p.m......................            92            97            37            88           100           102            91           100           100           158
Sessions Continued after 12 Midnight................            15             6             7             9            13             6             4             9             7             3
Saturday Sessions...................................             2             3  ............             1             3             2             2             2             3             5
Sunday Sessions.....................................  ............             1  ............  ............             2  ............  ............  ............  ............             3
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1996          1997          1998          1999          2000          2001          2002          2003          2004          2005
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/3           1/3          1/27           1/6          1/24           1/3          1/23           1/7          1/20           1/4
Senate Adjourned....................................          10/4         11/13         10/21         11/19         12/15         12/20         11/20          12/9          12/8         12/22
Days in Session.....................................           132           153           143           162           141           173           149           167           133           159
Hours in Session....................................      1,03645"      1,09307"      1,09505"      1,18357"      1,01751"      1,23615"      1,04223"      1,45405"      1,03131"      1,22226"
Average Hours per Day...............................           7.8           7.1           7.7           7.3           7.2           7.1           7.0           8.7           7.7           7.7
Total Measures Passed...............................           476           386           506           549           696           425           523           590           663           624
Roll Call Votes.....................................           306           298           314           374           298           380           253           459           216           366
Quorum Calls........................................             2             6             4             7             6             3             2             3             1             3
Public Laws.........................................           245           153           241           170           410           136           241           198           300           170
Treaties Ratified...................................            28            15            53            13            39             3            17            11            15             6
Nominations Confirmed...............................        33,176        25,576        20,302        22,468        22,512        25,091        23,633        21,580        24,420        25,942
Average Voting Attendance...........................         98.22         98.68         97.47         98.02         96.99         98.29         96.36         96.07         95.54         97.41
Sessions Convened Before 12 Noon....................           113           115           109           118           107           140           119           133           104           121
Sessions Convened at 12 Noon........................            15            12            31            17            25            10            12             4             9             1
Sessions Convened after 12 Noon.....................             7             7             2            19            24            21            23            23            21            36
Sessions Continued after 6 p.m......................            88            96            93           113            94           108           103           134           129           120
Sessions Continued after 12 Midnight................             1  ............  ............  ............  ............             2             3             8             2             3
Saturday Sessions...................................             1             1             1             3             1             3  ............             1             2             2
Sunday Sessions.....................................  ............             1  ............  ............             1  ............  ............             1             1             2
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

Computer Activities
    The Daily Digest continues to send the complete publication at the 
end of each day to the Government Printing Office electronically. The 
Editor, Assistant Editor, and Committee Scheduling Coordinator function 
solely within the framework of adaptability to prepare Digest copy on 
computers, storing and sharing information, permitting prompt editing, 
and the final transfer to floppy disc. The Digest continues the 
practice of sending a disc along with a duplicate hard copy to GPO, 
even though GPO receives the Digest copy by electronic transfer long 
before hand delivery is completed adding to the timeliness of 
publishing the Congressional Record. The Digest office continues to 
feel comfortable with this procedure, both to allow the Digest Editor 
to physically view what is being transmitted to GPO, and to allow GPO 
staff to have a comparable final product to cross reference.
    The Digest office continues to work closely with Senate computer 
staff to refine the LIS/DMS system, including further refinements to 
the Senate committee scheduling application which will improve the data 
entry process. The committee scheduling application was developed in 
1999 as a server-based web-enabled application that is browser 
accessible to all Senate offices. It was designed to replace the 
committee scheduling functions and reports that were supported by the 
mainframe-based Senate Legis System.

Government Printing Office (GPO)
    The Daily Digest continues to discuss with the Government Printing 
Office problems encountered with the printing of the Digest, and are 
pleased to report that with the onset of electronic transfer of the 
Digest copy, occurrences of editing corrections, especially the 
insertion of page reference numbers, or transcript errors are 
infrequent. Discussions with GPO continue regarding the inclusion of 
on-line corrections.

Office Summation
    The Daily Digest continues to consult on a daily basis with the 
Senate Parliamentarians, Legislative, Executive, Journal, and Bill 
Clerks, the Official Reporters of Debates, as well as the staffs of the 
Policy Committees and other committee staffs, and is grateful for the 
continued support from these offices.

                           4. ENROLLING CLERK

    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House.
    During 2005, 50 enrolled bills (transmitted to the President) and 
11 concurrent resolutions (transmitted to Archives) were prepared, 
printed, proofread, corrected, and printed on parchment.
    A total of 624 additional pieces of legislation in one form or 
another, were passed or agreed to by the Senate, requiring processing 
from this office.

                           5. EXECUTIVE CLERK

    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares daily the Executive Calendar as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the Executive Clerk's office processes all executive 
communications, presidential messages and petitions and memorials.

Nominations
    During the first session of the 109th Congress, there were 1,201 
nomination messages sent to the Senate by the President, transmitting 
27,686 nominations to positions requiring Senate confirmation and 18 
messages withdrawing nominations sent to the Senate during the first 
session of the 109th Congress. Of the total nominations transmitted, 
511 were for civilian positions other than lists in the Foreign 
Service, Coast Guard, NOAA, and Public Health Service. In addition, 
there were 2,740 nominees in the ``civilian list'' categories named 
above. Military nominations received this session totaled 24,435 
(9,860--Air Force; 8,586--Army; 4,607--Navy and 1,382--Marine Corps). 
The Senate confirmed 25,942 nominations this session. Pursuant to the 
provisions of paragraph six of Senate Rule XXXI, 67 nominations were 
returned to the President during the first session of the 109th 
Congress.

Treaties
    There were 8 treaties transmitted to the Senate by the President 
during the first session of the 109th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 109-1 through 109-8). The Senate 
gave its advice and consent to 6 treaties with various conditions, 
declarations, understandings and provisos to the resolutions of advice 
and consent to ratification.

Executive Reports and Roll Call Votes
    There were 8 executive reports relating to treaties and a 
nomination ordered printed for the use of the Senate during the first 
session of the 109th Congress (Executive Report 109-1 through 109-8). 
The Senate conducted 27 roll call votes in executive session, all on or 
in relation to nominations and treaties.
    During the year, the Sergeant at Arms' Systems Development Services 
Branch worked with the Executive Clerk to make the Executive Calendar 
more ``user friendly'' and also to further ongoing improvements to the 
Legislative Information System pertaining to the processing of 
nominations, treaties, executive communications, presidential messages 
and petitions and memorials. Additionally, the SAA worked closely with 
the Executive Clerk in the development of the new program for writing 
and publishing the Journal of Executive Proceedings of the Senate each 
session. The new program, now in use for the second session of the 
109th Congress, will greatly improve the pace at which the Journal can 
be developed and published each year.

Executive Communications
    For the first session of the 109th Congress, 5,119 executive 
communications, 253 petitions and memorials and 34 Presidential 
messages were received and processed.

                            6. JOURNAL CLERK

    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, Section V of the 
Constitution. The Senate Journal is published each calendar year. In 
2005, the Journal Clerk completed the production of the 867 page 2004 
Senate Journal.
    The Journal staff each take 90 minute turns at the rostrum in the 
Senate Chamber, noting by hand for inclusion in the Minute Book (i) all 
orders (entered into by the Senate through unanimous consent 
agreements), (ii) legislative messages received from the President of 
the United States, (iii) messages from the House of Representatives, 
(iv) legislative actions as taken by the Senate (including motions made 
by Senators, points of order raised, and roll call votes taken), (v) 
amendments submitted and proposed for consideration, (vi) bills and 
joint resolutions introduced, and (vii) concurrent and Senate 
resolutions as submitted. These notes of the proceedings are then 
compiled in electronic form for eventual publication at the end of each 
calendar year in the Senate Journal.
    The LIS Senate Journal Authoring System, first utilized by the 
Journal Clerk to successfully compile the 2004 Journal (from start to 
finish), continues to be updated as needed to further assist in the 
efficiency of production; the 2005 Journal is expected to be sent to 
the Government Printing Office for printing at the end of March.

                          7. LEGISLATIVE CLERK

    The Legislative Clerk sits at the Secretary's desk in the Senate 
Chamber and reads aloud bills, amendments, the Senate Journal, 
Presidential messages, and other such materials when so directed by the 
Presiding Officer of the Senate. The Legislative Clerk calls the roll 
of members to establish the presence of a quorum and to record and 
tally all yea and nay votes. The office prepares the Senate Calendar of 
Business, published each day that the Senate is in session, and 
prepares additional publications relating to Senate class membership 
and committee and subcommittee assignments. The Legislative Clerk 
maintains the official copy of all measures pending before the Senate 
and must incorporate into those measures any amendments that are agreed 
to. This office retains custody of official messages received from the 
House of Representatives and conference reports awaiting action by the 
Senate.
    The office is responsible for verifying the accuracy of information 
entered into the Legislative Information System (LIS) by the various 
offices of the Secretary. In an effort to monitor and improve the LIS, 
the Legislative Clerk acts as the liaison between legislative clerks 
and technical operations staff of the Sergeant at Arms. The Legislative 
Clerk reviews, prioritizes, and forwards change requests from the 
clerks to the technical operations staff. Over the past year, 30 change 
requests submitted by the clerks to improve the system have been 
implemented. Feedback from the Senate community regarding LIS continues 
to be excellent.
    Additionally, the Legislative Clerk is the Director of Legislative 
Services, providing a single line of communication to the Assistant 
Secretary and Secretary with responsibility for overall coordination, 
supervision, scheduling, and cross-training.

Summary of Activity
    The first session of the 109th Congress completed its legislative 
business and adjourned sine die on December 22, 2005. During 2005, the 
Senate was in session 159 days and conducted 366 roll call votes. There 
were 286 measures reported from committees and 624 total measures 
passed. In addition, there were 2,695 amendments processed.

Cross-Training
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training is strongly emphasized among the Secretary's legislative 
staff. To ensure additional staff is trained to perform the basic floor 
responsibilities of the Legislative Clerk, as well as the various other 
floor-related responsibilities of the Secretary, approximately 50 
percent of the legislative staff is cross-trained.

Amendment Tracking System Expansion
    The Senate's web-based application that allows users to access 
images of Senate amendments proposed to legislation is called the 
Amendment Tracking System (ATS). Developed in 1997 to provide the 
Senate with online access to amendments, ATS provides legislative staff 
with scanned images of the amendments, and descriptive information 
about them, including their purpose, sponsor, cosponsors, submitted 
date, proposed date, and status.
    During this past year, the Secretary, through the Legislative 
Clerk, Bill Clerk and Information Systems, spent many hours working 
with the technical development staff of the Sergeant at Arms to give 
the ATS a major overhaul. Some of the less visible changes, implemented 
in March, included upgrades to the hardware and underlying software 
programs.
    In September, the scope of information available on ATS expanded to 
include submitted amendments, those that have been submitted but have 
not been proposed on the Senate floor. ATS also expanded the size of 
amendment images from 25 to 50 pages, so users are now able to see up 
to 50 pages of a submitted or proposed amendment. The Senate community 
welcomed the ATS enhancement enthusiastically and feedback has been 
very positive.

                    8. OFFICIAL REPORTERS OF DEBATES

    The official Reporters of Debates prepare and edit for publication 
in the Congressional Record a substantially verbatim report of the 
proceedings of the Senate, and serve as liaison for all Senate 
personnel on matters relating to the content of the Record. The 
transcript of proceedings, submitted statements and legislation is 
transmitted in hard copy and electronically throughout the day to the 
Government Printing Office (GPO).
    The office works diligently to assure that the electronic 
submissions to GPO are timely and efficient. The Official Reporters 
encourage offices to make submissions to the Record by electronic 
means, which results in both a tremendous cost saving to the Senate and 
minimizes keyboard errors.
    To enhance efficiency, the office provides guidelines on format for 
the Congressional Record. These provide a helpful tool to assure an 
accurate and timely printing of each day's Congressional Record.

                           9. PARLIAMENTARIAN

    The Parliamentarian's Office continues to perform its essential 
institutional responsibilities to act as a neutral arbiter among all 
parties with an interest in the legislative process. These 
responsibilities include advising the Chair, Senators and their staff, 
as well as committee staff, House members and their staffs, 
administration officials, the media and members of the general public, 
on all matters requiring an interpretation of the Standing Rules of the 
Senate, the precedents of the Senate, unanimous consent agreements, as 
well as provisions of public law affecting the proceedings of the 
Senate.
    The Parliamentarians work in close cooperation with the Senate 
leadership and their floor staffs in coordinating all of the business 
on the Senate floor. The Parliamentarian or one of his assistants is 
always present on the Senate floor when the Senate is in session, 
standing ready to assist the Presiding Officer in his or her official 
duties, as well as to assist any other Senator on procedural matters. 
The Parliamentarians work closely with the staff of the Vice President 
of the United States and the Vice President himself whenever he 
performs his duties as President of the Senate.
    The Parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The Parliamentarians keep track of the 
amendments offered to the legislation pending on the Senate floor, and 
monitor them for points of order. The Parliamentarians reviewed more 
than 1,000 amendments during 2005 to determine if they met various 
procedural requirements, such as germaneness. The Parliamentarians also 
reviewed thousands of pages of conference reports to determine what 
provisions could appropriately be included therein.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, as well as all 
communications received from the executive branch, state and local 
governments, and private citizens. In order to perform this 
responsibility, the Parliamentarians do extensive legal and legislative 
research. During 2005, the Parliamentarian and his assistants referred 
2,610 measures and 5,406 communications to the appropriate Senate 
committees. The office worked extensively with Senators and their 
staffs to advise them of the jurisdictional consequences of particular 
drafts of legislation, and evaluated the jurisdictional effect of 
proposed modifications in drafting. The office continues to address the 
jurisdictional questions posed by the creation of the Department of 
Homeland Security, by the adoption of S. Res. 445, which reorganizes 
intelligence and homeland security jurisdiction of the Senate's 
committees, and by the enactment of the Intelligence Reform and 
Terrorism Prevention Act of 2004. The Parliamentarians have made dozens 
of decisions about the committee referrals of nominations for new 
positions created in this department, nominations for positions which 
existed before this department was created but whose responsibilities 
have changed, and hundreds of legislative proposals concerning the 
department's responsibilities.
    During 2005, as has been the case in the past, the staff of the 
Parliamentarian's Office was frequently called on to analyze and advise 
Senators on a great number of issues arising under the Congressional 
Budget Act of 1974. An additional layer of procedural and budgetary 
complexity was added this year, as this office was called upon to 
advise on unique issues arising from the need to consider two different 
reconciliation bills and several general appropriations bills in the 
wake of the emergency brought about by Hurricane Katrina. The Senate 
considered two separate budget reconciliation bills in 2005, including 
the first spending reduction reconciliation bill in almost a decade. 
Such bills present the Parliamentarian's Office with hundreds of 
judgment calls in the analysis of complex and disparate legislation.
    Additionally, in the last five years, rules relating to legislation 
on appropriations bills, and the scope of conference reports on all 
bills were reinstated. This has opened up hundreds of Senate amendments 
to renewed scrutiny by the Parliamentarians, and has meant that the 
Parliamentarians now have the responsibility of potentially reviewing 
every provision of every conference report considered by both the House 
and the Senate.

                FINANCIAL OPERATIONS: DISBURSING OFFICE
                     DISBURSING OFFICE ORGANIZATION

    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the distributed, individually managed 
offices, and to Members and employees of the United States Senate. To 
accomplish this mission, the Senate Disbursing Office manages the 
collection of information from the distributed accounting locations in 
the Senate to formulate and consolidate the agency level budget, 
disburse the payroll, pay the Senate's bills, prepare auditable 
financial statements, and provide appropriate counseling and advice. 
The Senate Disbursing Office collects information from Members and 
employees that is necessary to maintain and administer the retirement, 
health insurance, life insurance, and other central human resource 
programs to provide responsive, personal attention to Members and 
employees on a non-biased and confidential basis. The Senate Disbursing 
Office also manages the distribution of central financial and human 
resource information to the individual Member Offices, Committees, and 
Administrative and Leadership offices in the Senate while maintaining 
the appropriate control of information for the protection of individual 
Members and Senate employees.
    To support the mission of the Senate Disbursing Office, the 
organization is structured in a manner that is intended to enhance its 
ability to provide quality work, maintain a high level of customer 
service, promote good internal controls, efficiency and teamwork, and 
provide for the appropriate levels of supervision and management. The 
long-term financial needs of the Senate are best served by an 
organization staffed with highly trained professionals who possess a 
high degree of institutional knowledge, sound judgment, and 
interpersonal skills that reflect the unique nature of the United 
States Senate.

               DEPUTY FOR BENEFITS AND FINANCIAL SERVICES

    The principal responsibility of this position is to provide 
expertise on Federal retirement and benefits, payroll, and front office 
processes. Coordination of the interaction between the Financial 
Services, Employee Benefits, and Payroll sections is also a major 
responsibility of the position, in addition to the planning and project 
management of new computer systems and programs. The Deputy for 
Benefits and Financial Services ensures that job processes are 
efficient and up to date, modifies computer support systems, implements 
regulatory and legislated changes, and designs and produces forms for 
use in all three sections.
    After year end processing of payroll for the calendar year 2004, a 
few minor alterations to the new version of the payroll system were 
made, and enhancements to the COLA process were smoothly completed. W-
2s were issued promptly and were immediately available on the Imaging 
system.
    Starting in February, enhancements to the Document Imaging System 
began and updates to the system, including the ability to e-mail images 
to other agencies and to rearrange documents within folders, were 
added. Back up and storage processes for document images continue to be 
refined. Existing Disaster Recovery efforts continue to be improved to 
provide easy access to this important data. All microfilm records from 
the Benefits/Payroll side of the Office were imaged and by the end of 
the year, there was no longer a need to use microfilm.
    During April, the qualified lender certification process, part of 
the Student Loan Repayment Program, was modified. The main drawback 
encountered was to authorize a Disbursing representative to talk with 
the staff member's loan servicer, and the verification of the loan 
particulars by a follow up call to the lender. The new process requires 
the staff member to get a standard form completed by their lender and 
submit it with their paperwork. This removed a tremendous number of 
phone calls to and from lenders, the Office, and staff members and has 
greatly expedited the process. It also allowed the process to be 
handled on a rotating basis by a payroll specialist.
    During the year many reports used by the Employee Benefits Section 
were examined and updated to reflect new reporting requirements and to 
enhance system support. One new form was produced for the Termination 
Log, which tracks all employees who left the Senate during the previous 
payroll period. Now, all required forms for terminating employees are 
produced by our payroll system.
    The Senate warehouse project is nearing completion as the process 
of transitioning materials is in its final phase. For many years, 
Disbursing files were stored in two Senate off-site locations, due to 
space limitations. All Disbursing files in both off-site warehouses 
were examined, organized, placed on pallets, and numbered in 
preparation for the move to the new warehouse. The numbers of pallets 
requiring storage room were confirmed, and over 70 file cabinets 
holding historical personnel and office records were prepared for the 
move in early December 2005. An enclosed, secure and environmentally 
controlled area was provided for personnel files and 6 new revolving 
vertical storage file cabinets were prepared for the site. The cabinets 
will hold all current files and provide ample space for growth. 
Additional space for 100 pallets was also provided in the new warehouse 
which should fulfill Disbursing's storage needs for many years.

          FRONT COUNTER--ADMINISTRATIVE AND FINANCIAL SERVICES

    The Front Counter is the main service area of all general Senate 
business and financial activity. The Front Counter maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. The Front 
Counter provides training to newly authorized payroll contacts along 
with continuing guidance to all contacts in the execution of business 
operations. It is the receiving point for most incoming expense 
vouchers, payroll actions, and employee benefits related forms, and is 
the initial verification point to ensure that paperwork received in the 
Disbursing Office conforms to all applicable Senate rules, regulations, 
and statutes. The Front Counter is the first line of service provided 
to Senate Members, Officers, and employees. All new Senate employees 
(permanent and temporary) who will work in the Capitol Hill Senate 
offices are administered the required oath of office and personnel 
affidavit and provided verbal and written detailed information 
regarding their pay and benefits. Authorization is certified to new and 
state employees for issuance of their Senate I.D. card. Advances are 
issued to Senate staff authorized for an advance for official Senate 
travel. Cash and check advances are entered and reconciled in the Funds 
Advance Tracking System (FATS). Repayment of travel advances is 
executed after processing of certified expenses is complete. Travelers 
Checks are available on a non-profit basis to assist the traveler. 
Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes, voucher processing, reporting, laws, and Senate regulations, and 
must always be answered accurately and fully to provide the highest 
degree of customer service. Cash and checks received from Senate 
entities as part of their daily business are handled through the Front 
Counter and become part of the Senate's accountability of federally 
appropriated funds and are then processed through the Senate's general 
ledger system.

General Activities
    The Front Counter processed approximately 2,200 cash advances, 
totaling approximately $1.1 million and initialized 710 check/direct 
deposit advances, totaling approximately $709,000.
    Received and processed more than 28,000 checks, totaling over 
$3,000,000.
    Administered Oath and Personnel Affidavits to more than 3,000 new 
Senate staff and advised them of their benefits.
    Maintained brochures for 10 Federal health carriers and distributed 
approximately 3,500 brochures to new and existing staff during the 
annual FEHB Open Season.
    Provided 25 training sessions to new Administrative Managers.
    The Front Office operations continued the daily reconciliation of 
operations and strengthened internal office controls. Training and 
guidance to new Administrative Managers and business contacts 
continued, as well as the incorporation of updates of the scanning and 
imaging project into daily operations. A major emphasis was placed on 
assisting employees in maximizing their Thrift Savings Plan 
contributions and making them aware of the Thrift Savings Plan catch up 
program when applicable. Front Office operations continued to provide 
the Senate community with prompt, courteous, and informative advice 
regarding Disbursing operations.

                            PAYROLL SECTION

    The Payroll Section maintains the Human Resources Management System 
(HRMS) and is responsible for the processing, verifying, and 
warehousing all payroll information submitted to the Disbursing Office 
by Senators for their personal staff, by Chairmen for their committee 
staff, and by other elected officials for their staff; issuing salary 
payments to the above employees; rectifying returns of student loan 
allowance payments, jointly maintaining the Automated Clearing House 
(ACH) FEDLINE facilities with the Accounts Payable Section for the 
normal transmittal of payroll deposits to the Federal Reserve; 
distributing the appropriate payroll expenditure and allowance reports 
to the individual offices; issuing the proper withholding and agency 
contributions reports to the Accounting Department; and transmitting 
the proper Thrift Savings Plan (TSP) information to the National 
Finance Center (NFC), while maintaining earnings records for 
distribution to the Social Security Administration, and maintaining 
employees' taxable earnings records for W-2 statements. The Payroll 
Section is also responsible for the payroll expenditure data portion of 
the Report of the Secretary of the Senate.

General Activities
    The Payroll Section processed a January 1, 2006 cost of living 
increase of 3.44 percent. The Payroll Section maintained the normal 
schedule of processing TSP open season forms. Employees took full 
advantage of the increase of TSP deductions making the most of the new 
$15,000 maximum. For those employees over 50 years of age, the TSP 
catch-up programs provided them with an opportunity to make additional 
contributions in excess of the standard program.
    The aftermath of Hurricane Katrina gave members of the Payroll 
Section the opportunity to work directly with TSP employees as their 
COOP facility was located in the Virginia suburbs. Several visits were 
made to the site to ensure the deductions for employees of the Senate 
were properly applied, and to receive training on their Web based 
processing system.
    The Student Loan Program, Flexible Spending Accounts, and Long Term 
Care account processing continues. The office continues to refine and 
improve processes in working with third party contractors. In addition, 
the elections of 2004 presented the section with the task of opening 
and closing nine offices plus the monitoring of S. Res. 9 payrolls 
during the first 6 months of 2005.
    The Payroll Section again participated in the December disaster 
recovery testing. This year's test entailed using the ACF processing 
equipment to operate the payroll/personnel system from the Hart 
Building while SAA programmers ran trial payrolls from dial up sources. 
Part of the test was for members of SAA Production Services to produce 
the payroll output from printers located at the ACF. During the 
holidays, members of the Payroll Section conducted another test of the 
payroll personnel system by processing over 400 salary changes through 
dial up from a laptop computer. The payroll personnel system test 
proved that it could be run from many locations at the same time.

                       EMPLOYEE BENEFITS SECTION

    The primary responsibilities of the Employee Benefits Section (EBS) 
are administration of health insurance, life insurance and all 
retirement programs for Members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information and interpretation of retirement and benefits laws and 
regulations. In addition, the sectional work includes research and 
verification of all prior federal service and prior Senate service for 
new and returning appointees. EBS provides this information for payroll 
input, and once Official Personnel Folders and Transcripts of Service 
are received, verifies the accuracy of the information provided and 
reconciles as necessary. Transcripts of Service, including all official 
retirement and benefits documentation, are provided to other federal 
agencies when Senate Members and staff are hired elsewhere in the 
government. EBS processes employment verifications for loans, the Bar 
Exam, the FBI, OPM, and DOD, among others. Unemployment claim forms are 
completed, and employees are counseled on their eligibility. Department 
of Labor billings for unemployment compensation paid to Senate 
employees are reviewed in EBS and submitted by voucher to the 
Accounting Section for payment, as are the employee fees associated 
with the Flexible Spending Accounts. Designations of Beneficiary for 
FEGLI, CSRS, FERS, and unpaid compensation are filed and checked by 
EBS.

General Activities
    The year began with EBS finalizing retirement estimates and 
processing the many retirement cases associated with the outgoing 
Senators and their staffs, as well as committee staff affected by the 
changes. Approximately 150 retirement cases were processed throughout 
2005.
    There was a great deal of employee turnover in early 2005. New 
Members appointed numerous employees from the House and Executive 
Branch, and many other employees left with their outgoing Members, many 
of whom were appointed to positions in the Executive Branch. This 
caused a dramatic increase in appointments to be researched and 
processed, retirement records to be closed out, termination packages of 
benefits information to be compiled and mailed out, and health 
insurance enrollments to be processed. Transcripts of service for 
employees going to other federal agencies, and other tasks associated 
with employees changing jobs were at a high level this year. These 
required prior employment research and verification, new FEHB, FEGLI, 
FSA, CSRS, FERS and TSP enrollments, and the associated requests for 
backup verification.
    The 2004 OPM FEGLI Open Season (OS) elections took effect September 
1, 2005. EBS verified and processed all OS elections and provided 
reminder notifications and guidance to those affected. Approximately 
350 Senate employee FEGLI changes were processed.
    Interagency meetings attended involved time spent on the 
development and understanding of the new Vision and Dental (V&D) 
programs that will surface in late 2006 and the new Voluntary Benefits 
Portal that is in development under the direction of Office of 
Personnel Management (OPM) to combine third-party administration of 
FSA, LTCI and the new V&D programs. Information was also shared on the 
implementation of the FEGLI Open Season enrollments. Interaction and 
cooperation were essential in the continuing operations of the New 
Orleans-based Thrift Savings Plan and the National Finance Center in 
the wake of Hurricane Katrina. EBS did as much as possible to provide 
assistance and information to Senate staff that would normally be 
provided by TSP.
    The annual FEHB Open Season was held and approximately 500 
employees changed plans. These changes were processed and reported to 
carriers in record time. Once again, the on-line Checkbook Guide to 
Health Plans was made available to Senate employees to research and 
compare FEHB plans. This tool will remain available to staff throughout 
the year. Additional effort was made to increase employee awareness and 
understanding of this valuable tool, and feedback is positive. The FEHB 
Open Season Health Fair was also attended by about 600 employees and as 
an additional service, it was open to all other federal employees on 
the Hill, including House, Capitol Police, Architect of the Capitol and 
Senate Restaurant employees. In addition to having health plan 
representatives available to provide information and answer questions, 
representatives from FSA Feds and Long Term Care Insurance were also in 
attendance.
    Much effort was made in coordination with the Senate Computer 
Center to effect computer enhancements and provide additional automated 
forms to our database. This has provided greater efficiency and 
increased accuracy of information.
    EBS continues to work with our File Room personnel to modify our 
procedures and the flow of forms to maintain imaged documentation with 
COOP preparedness in mind. For COOP readiness with respect to employee 
personnel folder access, the goal for 2006 is to explore alternatives 
to complete the scanning of all ``prior'' employee personnel folder 
documents that are housed in the Disbursing file room.
    Educational seminars were held for the Civil Service Retirement 
System and the Federal Employees Retirement System. These seminars for 
staff were well attended and well received.
    Due to the continued boom in the housing market, employment 
verifications came in at a rapid pace, averaging over 100 per month. 
Unemployment verifications were especially high early in the year and 
remained constant throughout the year. Telephone inquiries, though not 
specifically tracked, continued at high levels.

                 DISBURSING OFFICE FINANCIAL MANAGEMENT

    Headed by the Deputy for Financial Management, the mission of 
Disbursing Office Financial Management (DOFM) is to coordinate all 
central financial policies, procedures, and activities, to process and 
pay expense vouchers within reasonable time frames, to work toward 
producing an auditable consolidated financial statement for the Senate 
and to provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations as well as for the formulation, 
presentation and execution of the budget for the Senate. On a 
semiannual basis, this group is also responsible for the compilation, 
validation and completion of the Report of the Secretary of the Senate. 
DOFM is segmented into three functional departments: Accounting, 
Accounts Payable, and Budget. The Accounts Payable Department is 
subdivided into three sections: the Audit group, the Disbursement group 
and the Vendor/SAVI group. The Deputy coordinates the activities of the 
three functional departments, establishes central financial policies 
and procedures, acts as the primary liaison to Human Resources, and 
carries out the directives of the Financial Clerk and the Secretary of 
the Senate.

                         ACCOUNTING DEPARTMENT

    During fiscal year 2005, the Accounting Department approved nearly 
47,800 expense reimbursement vouchers, processed 1,300 deposits for 
items ranging from receipts received by the Senate operations, such as 
the Senate's Revolving Funds, to canceled subscription refunds from 
Member offices. General ledger maintenance also prompted the entry of 
thousands of adjustment entries that include the entry of all 
appropriation and allowance funding limitation transactions, all 
accounting cycle closing entries, and all non-voucher reimbursement 
transactions such as payroll adjustments, COLA (cost of living) budget 
uploads, stop payment requests, travel advances and repayments, and 
limited payability reimbursements.
    This year the Accounting Department assisted in the validation of 
various system upgrades and modifications, including the testing 
required to implement Web Release 10.0, an upgrade to the mainframe 
operating system to Z/OS, and the testing of last non-zero balance date 
to fix process control. During January 2005, the Accounting Department 
with assistance from a contractor, Bearing Point, completed the 2004 
year-end process to close and reset revenue, expense and budgetary 
general ledger accounts to zero. During June 2005, we successfully 
tested and implemented in Federal FAMIS another document purge 
including the archiving of Web report data for lapsed years. Further, 
toward the end of the fiscal year, the financial file rollover was 
performed to update FAMIS' tables and create the new index codes needed 
to accommodate data for fiscal year 2006.
    The Department of the Treasury's monthly financial reporting 
requirements includes a Statement of Accountability that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also, on a monthly 
basis, reported to the Department of the Treasury is the Statement of 
Transactions According to Appropriations, Fund and Receipt Accounts 
that summarizes all activity at the appropriation level of all monies 
disbursed by the Secretary of the Senate through the Financial Clerk of 
the Senate. All activity by appropriation account is reconciled with 
the Department of the Treasury on a monthly and annual basis. The 
annual reconciliation of the Treasury Combined Statement is also used 
in the reporting to the Office of Management and Budget (OMB) as part 
of the submission of the annual operating budget of the Senate.
    This year, the Accounting Department transmitted all Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare, to the Federal Reserve Bank. The 
Department also performed quarterly reporting to the Internal Revenue 
Service (IRS) and annual reporting and reconciliation to the IRS and 
the Social Security Administration. Payments for employee withholdings 
for state income taxes were reported and paid on a quarterly basis to 
each state with applicable state income taxes withheld. Monthly 
reconciliations were performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the Thrift Savings Plan.
    In addition to Treasury's external reporting deadlines, there are 
internal reporting requirements such as the monthly ledger statements 
for all Member offices and all other offices with payroll and non-
payroll expenditures. These ledger statements detail all of the 
financial activity for the appropriate accounting period with regard to 
official expenditures in detail and summary form. Each month, the 
Accounting Department reviews and verifies the accuracy of the 
statements before distribution is made.
    The Accounting Department, in conjunction with the Deputy for 
Financial Management, continues to work closely with the Sergeant at 
Arms Finance Department in completing the corrective actions that were 
identified during our pro-forma financial statements' audit ability 
assessment. Based on the results of this exercise, 23 corrective 
actions were suggested including an action plan and proposed schedule 
to have them corrected. Some of the actions were rather simple to 
implement while others will take significantly longer. Of the 23 
corrective actions noted, 18 have been completed and 5 are still in 
process. As part of this project, the Accounting Group is working with 
the SAA in reconciling FAMIS entries to Asset Center. The Accounting 
Group also finalized clearing all CASHLINK outstanding items.
    As part of the financial statement initiative, the accounting group 
has worked on the validation of the Senate's pro-forma financial 
statements for fiscal year 2004. The validation of the statements of 
financial position, net costs and changes in net position for fiscal 
year 2004 is complete. Work is still underway on the last two 
statements--budgetary resources and finance--and is expected to be 
completed by the end of March. At that time, work on the fiscal year 
2005 statements will begin.
    Toward the end of the calendar year, in coordination with SAA 
staff, the Chief Accountant and the Deputy for Financial Management 
participated in successful testing of our disaster recovery facility.

                            ACCOUNTS PAYABLE
                          VENDOR/SAVI SECTION

    Created in 2003, the Vendor/SAVI section is responsible for 
maintaining the accuracy and integrity of the Senate's central vendor 
(payee) file, for the prompt completion of new vendor file requests, 
and service requests related to the Office's web-based payment tracking 
system known as SAVI. This section also assists the IT Department 
performing periodic testing and monitoring of the performance of the 
SAVI system.
    Currently, there are more than 13,400 vendor records stored in the 
vendor file. Daily requests for new vendor addresses or updates to 
existing vendor information are processed within 24 hours of being 
received. In 2004, the A/P Department began to pay vendors 
electronically via the Automated Clearing House (ACH). Besides updating 
mailing addresses, the Vendor/SAVI section facilitates the use of ACH 
by switching the method of payment requested by the vendor from check 
to ACH. Whenever a new remittance address is added to the vendor file, 
a standard letter is mailed to our vendors requesting tax and banking 
information. Currently, more than 1,250 vendors and over half of the 
state offices' landlords are being paid by ACH.
    As stated earlier, SAVI is Disbursing's web-based payment tracking 
system. Senate staff may electronically create, save, and file expense 
reimbursement forms, track their progress, and receive detailed 
information on payments made. The most common service requests are 
those for system user ids, system passwords and to activate deactivated 
accounts; less common but more complicated are employee requests for an 
alternative expense payment method. An employee can choose to have 
their payroll set up for direct deposit but may have their expenses 
reimbursed by paper check.
    The Vendor/SAVI section works closely with the A/P disbursements 
group resolving returned EFT issues. EFT payments are returned 
periodically for a variety of reasons. The reasons given have included 
incorrect account numbers, incorrect ABA routing numbers, and, in rare 
instances, a nonparticipating financial institution. Most EFT return 
issues are easy to resolve; however, there are some instances that 
result with a vendor being converted back to paper check payments. 
Currently, there are no unresolved returned EFT issues.
    The Vendor/SAVI section continues to electronically scan and store 
supporting documentation of vendor file requests. Currently, with 
assistance from the Disbursement Group, over 5,000 vendors have been 
electronically scanned and the paper files certified for destruction. 
In the near future, this section will assist the IT Department in 
testing an automatic e-mail notification system which will alert 
vendors when an EFT payment has been made and will provide pertinent 
payment information.
    This year, the Vendor/SAVI section processed over 2,700 vendor file 
requests, completed nearly 2,200 SAVI service requests and mailed over 
1,400 vendor information letters.

                            ACCOUNTS PAYABLE
                        DISBURSEMENTS DEPARTMENT

    Well over 120,000 expense claims were received and processed by the 
department in 2005. More than 32,500 expense checks were written and 
approximately 56,500 direct deposit reimbursements were transmitted. 
The department has experienced a small decline of roughly 7 percent in 
the number of checks written and a slightly larger increase of 13 
percent in the number of ACH payments, and it is expected that this 
trend will continue. The department suffered no performance loss, 
ensuring that all vendors and employees continued to receive timely and 
accurate payments.
    After vouchers are paid, they are sorted and filed by document 
number. Vouchers are grouped in 6-month ``clusters'' to accommodate 
their retrieval for the semi-annual Report of the Secretary of the 
Senate. Files are maintained for the current period and two prior 
periods in-house as space is limited. Older documents are stored at the 
warehouse facility.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied and include the following: 
preparation of foreign travel advances and vouchers, reimbursements for 
expenses incurred by Senate Leadership, re-issuance of items held as 
accounts receivable collections, re-issuance of payments for which non-
receipt is claimed, and various supplemental adjustments received from 
the Payroll Department. Such adjustments are usually disbursed by 
check, but an increasing number are now handled electronically via ACH 
as more vendors and employees opt for this payment method.
    The Disbursements Department is also responsible for researching 
returned checks as vendors request additional information relating to 
payment allocation. Fortunately, few checks are returned. This is a 
result of the use of a centralized vendor file and accurate 
certification of payments. There are currently no unresolved returned 
check issues.
    During 2005, an increasing number of ACH items were returned for 
reasons ranging from erroneous account information to non-participation 
by depositing banks. Some of the returns were simply notices of change 
while others were rejected outright. Procedures were established which 
created a liaison with the Vendor/SAVI group, Payroll, and Accounting. 
Corrections are forwarded to the Vendor/SAVI group so the corrections 
may be made in the vendor file. Corrections involving payroll are 
forwarded to that department. Such corrections are downloaded into the 
vendor file for nightly processing.
    All rejected items are logged into an ACH Reports folder in Excel. 
They are classified as either Payroll or Accounts Payable, and the 
actual daily reports are also scanned into the folder. Once logged in, 
the payroll items are forwarded to the Payroll Department, and the non-
payroll items are forwarded to Vendor/SAVI for appropriate corrective 
action. Corrective actions include correction of erroneous data and 
retransmission, or sometimes re-issuance by paper check. Once the 
corrective action is determined, an accounting memo is drafted and 
given to Disbursements and the appropriate action is taken. The Excel 
spreadsheet contains details of the return as well as information 
relating to the corrective action taken. Accounting then uses the 
information contained in the spreadsheet to assist them in reconciling 
CASHLINK with the Treasury.
    The Accounts Payable Disbursements Department prepares mailing 
labels for the distribution of the monthly ledgers to the 140 
accounting locations throughout the Senate. Although the ledgers are 
sorted and sent out by Accounting, the Disbursements Group maintains 
the file of how and where the statements are to be delivered. This 
information is transferred to mailing labels, placed on manila 
envelopes, and given to Accounting. Offices expressing no preference 
have their statements sent to their respective offices marked 
``Personal and Confidential.'' The main objective of this process is to 
have each office receive their ledger statements for the month just 
ended by the 10th of the following month.
    The Department also prepares the forms required by the Department 
of Treasury for stop payments. Stop payments are requested by employees 
who have not received salary or expense reimbursements, and vendors 
claiming non-receipt of expense checks. During this year, the A/P 
Disbursement Supervisor and the Accounts Payable Manager continued 
using the Department of Treasury's Financial Management Service (FMS) 
online stop pay and check retrieval process known as PACER. The PACER 
system allows us to electronically submit stop-payment requests and 
provides on-line access to digital images of negotiated checks for 
viewing and printing. Once a check is viewed, it is printed and may be 
scanned. Scanned images are then forwarded to the appropriate 
accounting locations via e-mail. This process has been well received by 
Senate offices and vendors. This saves time and significantly reduces 
reliance on the postal system. Accounts Payable Disbursements staff 
have Treasury secure ID cards and are trained in the use of PACER. 
Given the time and money savings, as well as the overwhelmingly 
positive reception, large growth in the use of PACER for check 
retrieval purposes is anticipated.
    The Disbursements Department continues the use of laser checks. The 
tractor-fed check writer system has been dismantled and a new, improved 
system was developed and implemented. The previously ordered folder/
inserter was purchased and has been installed. In addition to the new 
folder/inserter, the replacement was comprehensive in scope. New 
hardware was introduced and further check writer upgrades are scheduled 
for 2006. The result is a user friendly system which has the additional 
benefits of greater security and higher degree of accuracy. Only 
certain key personnel have access to the signature fonts which are 
specific to each individual, and print quality has been significantly 
improved.
    Work continues on the reconciliation of the replacement check 
account. A team was formed consisting of the Deputy for Financial 
Management, Accounts Payable Manager, Chief Accountant, Accounts 
Payable Disbursements Supervisor and Staff Accountants. Persistent and 
determined revenue collection procedures have resulted in the 
elimination of all but one unresolved item.

                            ACCOUNTS PAYABLE
                            AUDIT DEPARTMENT

    The Accounts Payable Audit Section is responsible for auditing 
vouchers and answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations, identifies duplicate payments submitted by 
offices, monitors payments related to contracts, trains Administrative 
Managers and Chief Clerks about Senate financial practices, trains 
Administrative Managers in the use of the Senate's Financial Management 
Information System, and assists in the production of the Report of the 
Secretary of the Senate.
    A major function of the Section is to monitor the Fund Advance 
Tracking System (FATS) to ensure that advances are charged correctly, 
vouchers repaying such advances are entered, and balances are adjusted 
for reuse of the advance funds. An ``aging'' process is also performed 
to ensure that travel advances are repaid in the time specified by the 
advance travel regulations. Travel advances may be repaid via regular 
voucher processing, or may be canceled if the corresponding travel is 
not taken.
    The Accounts Payable Audit Section, currently a group of 13, has 
the responsibility for the daily processing of expense claims submitted 
by the 140 accounting locations of the Senate. The section processed in 
excess of 145,000 expense vouchers in fiscal year 2005, as well as 
23,000 uploaded items. The voucher processing ranged in scope from 
providing interpretation of Senate rules, regulations and statute, 
applying the same to expense claims, monitoring of contracts and direct 
involvement with the Senate's central vendor file. On average, vouchers 
greater than $100 that do not have any issues or questions are 
received, audited, sanctioned by Rules and paid by Disbursing within 10 
business days of receipt.
    Uploaded items are of two varieties, certified expenses and vendor 
payments. Certified expenses include items such as stationery, 
telecommunications, postage, and equipment. Charges incurred by the 
various Senate offices are certified to Disbursing on a monthly basis. 
As an example, the Keeper of Stationery tracks all expenditures for 
each office, and sends a voucher certifying the expenses incurred over 
the previous month. The expenses are detailed on a spreadsheet which is 
also electronically uploaded. The physical voucher is audited and 
appropriate revisions are made. The revisions are transferred into the 
uploaded spreadsheet which is then used to effect payment to the 
Keeper. Concentrated effort is put forth to ensure certified items 
appear as paid in the same month they are incurred.
    Vendor uploads are fairly new, and are used to pay vendors for the 
Stationery Room, Senate Gift Shop, State office rentals, and refunds of 
security deposits for the Page School. The methodology is roughly the 
same as for certifications, but the payments rendered are for the 
individual vendors. Although these items are generally processed and 
paid quickly, the State Office rents are generally paid a few days 
prior to the month of the rental in keeping with a general policy of 
paying rent in advance.
    During fiscal year 2004, the Chairman of the Committee on Rules and 
Administration increased the delegated sanctioning authority for 
vouchers from $35 or less to $100 or less. These vouchers comprise 
approximately 60 percent of all vouchers processed. The responsibility 
for sanctioning rests with the Certifying Accounts Payable Specialists 
and are received, audited, and paid within 5 business days of receipt. 
Disbursing passed two post-payment audits performed by the Rules 
Committee.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems, the process for generation of expense claims, the 
permissibility of an expense, and participated with seminars sponsored 
by the Secretary of the Senate, the Sergeant at Arms, and the Library 
of Congress. The Section trained 14 new Administrative Managers and 
Chief Clerks and conducted 5 informational sessions for Senate staff 
through seminars sponsored by the Congressional Research Service. The 
Accounts Payable group also routinely assists the IT department and 
other groups as necessary in the testing and implementation of the new 
hardware, software, and system applications. Web FMIS version 9 was in 
use for most of the year with the electronic, importable expense 
summary report (ESR). The electronic ESR has gained widespread 
acceptance and Web FMIS version 10 was installed in September. 
Extensive testing is anticipated for the release of Web FMIS version 
10.3 in fiscal year 2006.
    A cancellation process was established for advances in 2004. This 
was necessary to ensure repayment of advances systematically for 
canceled or postponed travel in accordance with Senate travel 
regulations. Advance procedures including cancellation were formally 
incorporated into the Policies and Procedures Manual. Although 
procedures are in place, enhancement is necessary and is expected in a 
later release of Web FMIS. Cancellation of other Web vouchers is also 
scheduled for testing during a later system release. The A/P sections 
within the Polices and Procedures Manual continue to be updated and 
revised as new policies, regulations, and system functionality 
enhancements dictate.

                           BUDGET DEPARTMENT

    The third component of the Disbursing Office Financial Management 
Group is the Budget Department. The primary responsibility of the 
Budget Department is to compile the annual operating budget of the 
United States Senate for presentation to the Committee on 
Appropriations. The Budget Department is responsible for the 
preparation, issuance and distribution of the budget justification 
worksheets (BJW). In fiscal year 2005, the budget justification 
worksheets were processed in December. The budget baseline estimates 
for fiscal year 2006 were reported to the Office of Management and 
Budget in January.
    This department is also responsible for the formulation, 
presentation and execution of the budget for the Senate and provides a 
wide range of analytical, technical and advisory functions related to 
the budget process. The Budget Department acts as the Budget Officer 
for the Office of the Secretary, assisting in the preparation of 
testimony for the hearings before the Committee on Appropriations and 
the Committee on Rules and Administration.
    During January, the Senate Budget Analyst is responsible for the 
preparation of 1099's and the prompt submission of forms to the IRS 
before the end of the month.

                DISBURSING OFFICE INFORMATION TECHNOLOGY
                FINANCIAL MANAGEMENT INFORMATION SYSTEM

    The Disbursing Office Information Technology (IT) Department 
provides both functional and technical assistance for all Senate 
financial management activities. Activities revolve around support of 
the Senate's Financial Management Information System (FMIS) which is 
used by approximately 140 Senate accounting locations (i.e., 100 
Senator's offices, 20 Committees, 20 Leadership and Support offices, 
the Rules Committee Audit section, and the Disbursing Office). 
Responsibilities include:
  --Supporting current systems;
  --Testing infrastructure changes;
  --Managing and testing new system development;
  --Planning;
  --Managing the FMIS project, including contract management;
  --Administering the Disbursing Office's Local Area Network (LAN); and
  --Coordinating the Disbursing Office's disaster recovery activities.
    Work during 2005 was supported by the Sergeant at Arms Technology 
Services staff, the Secretary's Information Technology staff, and 
contracts with Bearing Point.
    The SAA Technology Services staff provides the technical 
infrastructure, including hardware (mainframe and servers), operating 
system software (mainframe and servers), database software, and 
telecommunications; technical assistance for these components, 
including migration management, and database administration; and 
regular batch processing. Bearing Point is responsible, under the 
contract with the SAA, for operational support, and under contract with 
the Secretary, for application development. The Disbursing Office is 
the ``business owner'' of FMIS and is responsible for making the 
functional decisions about FMIS. The three organizations work 
cooperatively.
    Highlights of the year include:
  --Implementation of six releases of Web FMIS. Combined, these 
        releases took FMIS to the ``zero-client'' platform, an 
        important milestone in providing this critical system in a 
        disaster situation. By the end of April 2005 all Web FMIS users 
        were using the intranet version of Web FMIS;
  --Implementation of a release of SAVI that enables Macintosh computer 
        users to use this system;
  --Support of the Rules Committee's post payment audit for the Rules 
        Committee Audit to conduct a statistically valid sample of 
        vouchers of $100 and under for which sanctioning was delegated 
        to the Financial Clerk;
  --Upgrading our e-mail to ``Active Directory'';
  --Coordinating and participating in the FMIS portion of a disaster 
        recovery exercise for the Alternate Computing Facility; and
  --Conducting monthly classes and seminars on Web FMIS.
    FMIS is not a single computer system. It is composed of many 
subsystems that provide Senate-specific functionality. These subsystems 
are outlined in the table that begins on the following page.

                                                     SENATE FINANCIAL MANAGEMENT INFORMATION SYSTEM
--------------------------------------------------------------------------------------------------------------------------------------------------------
          Subsystem                          Functionality                             Source                      Primary Users         Implementation
--------------------------------------------------------------------------------------------------------------------------------------------------------
FAMIS (Mainframe)............  General ledger..........................  Off the shelf federal system       Disbursing Office.........  October 1998
                               Vendor file                                purchased from Bearing Point.
                               Administrative functions
                               Security functions
ADPICS (Mainframe)...........  Preparation of requisition, purchase      Off the shelf federal system       Sergeant at Arms..........  October 1998
                                order, voucher from purchase order, and   purchased from Bearing Point.     Disbursing Office
                                direct voucher documents.                                                   Secretary of the Senate
                               Electronic document review functions
                               Administrative functions
Checkwriter (Client-server)..  Prints checks and check registers as      Off the shelf state government     Disbursing Office.........  October 1998
                                well as ACH (Automated Clearing House)    system purchased from and
                                direct deposit transmission payments.     adapted to Senate's requirements
                                                                          by Bearing Point.
Web FMIS (Intranet)..........  Preparation of vouchers, travel           Custom software developed under    All Senators' offices.....  October 1999
                                advances, vouchers from advance           Senate contract by Bearing Point. All Committee offices       Client Server
                                documents, credit documents and simple                                      All Leadership and Support  August 2004
                                commitment and obligation documents.                                         offices                    Intranet
                               Entry of detailed budget                                                     Secretary of the Senate
                               Reporting functions (described below)                                        Sergeant at Arms
                               Electronic document submission and                                           Disbursing Office
                                review functions
                               Administrative functions
FATS (PC-based)..............  Tracks travel advances and petty cash     Developed by SAA Technology Serv-  Disbursing Office.........  Spring 1983
                                advances (available to Committees only).   ices.
                               Tracks election cycle information
Post Payment Voucher Audit     Selects a random sample of vouchers for   Excel spreadsheet developed by     Rules Committee...........  Spring 2003
 (PC-based).                    which sanctioning was delegated to the    Bearing Point.                    Disbursing Office
                                Financial Clerk for the Rules Committee
                                to use in conducting a post payment
                                audit.
SAVI (Intranet)..............  As currently implemented, provides self-  Off the shelf system purchased     Senate employees..........  Pilot--Spring
                                service access (via the Senate's          from Bearing Point.                                            2002
                                intranet) to payment information for                                                                    Senate-wide July
                                employees receiving reimbursements.                                                                      2002
                               Administrative functions
Online ESR (Intranet)........  A component of SAVI through which Senate  Custom software developed under    Senate employees..........  April 2003
                                employees can create on-line Travel/Non-  contract by Bearing Point.
                                Travel Expense Summary Reports and
                                submit them electronically to the
                                Administrative Manager/Chief Clerk for
                                processing.
Secretary's Report (Mainframe  Produces the Report of the Secretary of   Custom software developed under    Disbursing Office.........  Spring 1999
 extracts, crystal reports,     the Senate.                               contract by Bearing Point.
 and client-server ``tool
 box'').
Ledger Statements (Mainframe   Produces monthly reports from FAMIS that  Developed by SAA Technology Serv-  Disbursing Office.........  Winter 1999
 database extracts, and         are sent to all Senate ``accounting        ices.                            Senate Accounting
 crystal reports).              locations''.                                                                 Locations
Web FMIS Reports (mainframe    Produces a large number of reports from   Custom software developed under    Senate Accounting           October 1999--
 database extracts, crystal     Web FMIS, FAMIS and ADPICS data at        contract by Bearing Point.         Locations.                  Client Server
 reports, and Intranet).        summary and detailed levels. Data is                                                                    April 2005--
                                updated as an overnight process and can                                                                  Intranet
                                be updated through an on-line process
                                by accounting locations.
--------------------------------------------------------------------------------------------------------------------------------------------------------

Supporting Current Systems
    The IT section supports FMIS users in all 140 accounting locations, 
the Disbursing Office Accounts Payable, Accounting, Disbursements and 
Front Office Sections, and the Rules Committee Audit staff. The 
activities associated with this responsibility include:
  --User support--provide functional and technical support to all 
        Senate FMIS users; staff the FMIS ``help desk''; and meet with 
        Chiefs of Staff, Administrative Managers, Chief Clerks, and 
        various Senate offices as requested;
  --Technical problem resolution--ensure that technical problems are 
        resolved;
  --Monitor system performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities for parallel load and database 
        access optimization;
  --Security--maintains user rights for all ADPICS, FAMIS, SAVI, and 
        Web FMIS users;
  --System administration--design, test and make entries to tables that 
        are intrinsic to the system;
  --Support of Accounting Activities--provide assistance in the cyclic 
        accounting system activities such as rollover, the process by 
        which tables for the new fiscal year are created, and archiving 
        and purging for the current year tables data for lapsed fiscal 
        years;
  --Support the Rules Committee post payment voucher audit process; and
  --Training--provide functional training to all Senate FMIS users.
    Of these, the post payment voucher audit deserves recognition. In 
December of 2002, the Rules Committee delegated to the Financial Clerk 
the authority for sanctioning vouchers of $35 and less; effective 
January 1, 2004 this threshold increased to $100. The authorization 
directed Rules and Disbursing to establish a set of procedures for a 
semi-annual audit of these vouchers. The two offices agreed that Rules 
would conduct a random sampling inspection of these vouchers based on 
industry statistical standards. Under the supervision of the IT Group, 
Bearing Point created tools to determine the sample size, to enable 
selecting the sample from the universe of vouchers of $100 and less, 
and to determine the acceptable number of discrepancies given the 
sample size and the desired confidence interval. Both audits conducted 
in 2005 resulted in a favorable finding of zero discrepancies. The 
audit conducted in April 2005 for the six-month period ending March 31, 
2005, covered 24,643 vouchers and the audit conducted in October 2005 
for the six-month period ending September 30, 2005, covered 29,013 
vouchers, an overall increase of 21 percent in the number of vouchers 
of $100 and less that were processed during fiscal year 2005.

Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
the telecommunications network, and a hardware and software 
installation crew. During 2005 the mainframe operating system was 
upgraded to the Z/OS operating system. This required that the 
Disbursing Office test all FMIS subsystems in a testing environment and 
verify all FMIS subsystems in the production environment after Z/OS was 
implemented.

Managing and Testing New System Development
    During 2005, we supervised development, performed extensive 
integration system testing and implemented changes to the following 
FMIS subsystems: Web FMIS; Senate Vendor Information (SAVI) and Online 
ESR; and Checkwriter.
            Web FMIS
    Over the last two years, updates and simplification of the 
underlying technology of Web FMIS has occurred, basically replacing all 
Visual Basic Client/Server and Cold Fusion Web technology with 
WebSphere web pages thereby creating a ``thin client'' application that 
can be accessed via an intranet browser. In August 2004, Web FMIS r9.0 
for pilot offices was implemented, which is a complete rewriting of the 
Web FMIS functionality using all intranet based pages. By the end of 
April, all Web FMIS users were using the intranet version of Web FMIS. 
During 2005, Web FMIS was improved and augmented in the following 
releases:
  --Web FMIS r9.1.--Implemented in November 2004, addressed additional 
        functionality identified by the pilot offices. This was 
        provided to new offices of the 109th Congress.
  --Web FMIS 10.0.--Implemented in February 2005, added a security 
        certificate to the Web FMIS web site (i.e., adding the ``S'' to 
        https://webfmis.senate.gov) and changed the extracts for the 
        nightly Web FMIS reporting cycle to use table-driven parameters 
        rather than hard-coded ones.
  --Web FMIS 10.1.--Implemented in April 2005, provided report and 
        document printing via Adobe, standard Senate software, rather 
        than Web FMIS-specific files. This completed moving Web FMIS to 
        the ``zero-client'' platform, an important milestone in 
        providing critical systems in a disaster situation. With this 
        release the Rules Committee Audit staff moved from client-
        server based screen to intranet-based pages for their 
        functions, and Disbursing staff began using ``standard notepad 
        text'' to document corrections made to vouchers. Additionally, 
        this release addressed performance issues resulting from r10.0.
  --Web FMIS r10.2.--Implemented in July 2005 focused on additional 
        functionality for the Office, including new pages for the 
        Disbursing Inbox and Document Review functions, and 
        enhancements to the Advice of Change process and streamlined 
        the document approval process.
  --Web FMIS r10.2.1.--Implemented in October 2005, fixed bugs in the 
        Disbursing functions.
  --Web FMIS r10.3--Implemented in January 2006 (but included here 
        because most of the work on the release was done in 2005), 
        updated the technology for and provided more functionality on 
        the inbox pages and the travel reimbursement mileage rate 
        maintenance page. Additional functionality was added to the 
        Documents/Create page and the Budget page, and bugs were fixed.
    During 2005, work continued with Bearing Point to define the 
requirements for additional functionality required for the two Web FMIS 
releases planned for 2006:
  --Web FMIS r11.--Planned for Spring 2006, will add the ability to 
        ``import'' invoice data from an outside vendor in order to 
        create a voucher with minimal re-typing. (This process is 
        similar to the ``import'' process by which data from an online 
        ESR, created via SAVI, is used to create a travel voucher.
  --Web FMIS r12.--Planned for late Fall 2006, will be a pilot of 
        paperless voucher processing, which requires adding electronic 
        signature and documentation imaging functionality.
            Senate Automated Vendor Inquiry (SAVI) and Online ESR
    SAVI enables Senate staff to check the status of reimbursements, 
whether via check or direct deposit referencing an on-line ESR. The 
Online ESR function enables Senate staff to create expense summary 
reports, both travel and non-travel. These documents can be imported 
into Web FMIS, reducing the data entry tasks for voucher preparation. 
The SAVI system was upgraded once in 2005. Release 3.2, implemented in 
May 2005, enabled use of SAVI by Macintosh computer users.
            Checkwriter
    The Disbursing Office makes payments via direct deposit and via 
check using the Checkwriter software. No changes were implemented to 
the Checkwriter software in 2005, but Checkwriter release 6, which 
rewrites the security component, will be tested in early 2006, with 
implementation tentatively scheduled for summer 2006.
Planning
    The Disbursing Office IT group performs two main planning 
activities:
  --Schedule coordination--planning and coordinating a rolling 12-month 
        schedule; and
  --Strategic planning--setting the priorities for further system 
        enhancements.
            Schedule Coordination
    In 2005, two types of meetings were held among Disbursing, SAA and 
Bearing Point staff to coordinate schedules and activities. These are:
  --Project specific meetings--a useful set of project specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., Document Purge meetings 
        and Web FMIS requirements meetings); and
  --Technical meeting--a weekly meeting among the DO staff (IT and 
        functional), SAA Technical Services staff, and Bearing Point to 
        discuss active projects, including scheduling activities and 
        resolving issues.
            Strategic Planning
    The FMIS strategic plan has a longer time horizon than the rolling 
12-month time frame of the technical meeting schedule. It is designed 
to set the direction and priorities for further enhancements. In 2002 a 
five-year strategic plan was written by the IT and Accounting staff for 
Disbursing Office Strategic Initiatives. This detailed description of 
five strategic initiatives formed the base for the Secretary of the 
Senate's request for $5 million in multi-year funds for further work on 
the FMIS project. The five strategic initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, implement new technology, including imaging and 
        electronic signatures, that will reduce the Senate's dependence 
        on paper vouchers. This will enable continuation of voucher 
        processing operations from any location, should an emergency 
        occur;
  --Web FMIS--Requests from Accounting Locations.--Respond to requests 
        from the Senate's Accounting Locations for additional 
        functionality in Web FMIS;
  --Payroll System--Requests from Accounting Locations.--Respond to 
        requests from the Senate's Accounting Locations for on-line 
        real time access to payroll data;
  --Accounting Subsystem Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.

Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the IT group during the summer of 2003 and includes developing the task 
orders with contractors, overseeing their work, and reviewing invoices. 
In 2005 one new task order, the fiscal year 2006 Extended Operational 
Support was executed. In addition, work continued under two task orders 
executed in prior years: Web FMIS r10; SAA Finance System and Reporting 
Enhancements; and Web FMIS Imaging and Digital Signature Design and 
Electronic Invoicing and Remittance Enhancements.

Administering the Disbursing Office's Local Area Network (LAN)
    The Disbursing Office administers its own Local Area Network (LAN), 
which is separate from the LAN for the rest of the Secretary's office. 
Our LAN Administrator's activities included: Office-wide LAN 
Maintenance and Upgrade; and Projects for the Payroll and Benefits 
Section.
            Office-wide LAN Maintenance and Upgrade
    Existing workstations were maintained with appropriate upgrades, 
including: an e-mail upgrade to ``Active Directory''; the addition of 
``SNAP'' servers to backup, nightly, our office data in Disbursing and 
directly to the Office's space at the ACF; work with the SAA staff to 
upgrade our network speed to 100 mps; and the maintenance of the Office 
Information Authorization form log which provides easy access from 
Disbursing staff desktops to up-to-date information about the 
authorized contacts for each Senate office.
            Projects for Payroll and Employee Benefits Sections
    The Payroll/Benefits imaging system, developed by SAA staff, and 
which captures and indexes payroll documents electronically, continues 
to be supported. This is a critical system for Payroll and Employee 
Benefits sections.

Coordinating the Disbursing Office's Disaster Recovery Activities
    On Saturday, December 3, 2005, the Sergeant at Arms technical staff 
conducted a disaster recovery test of the Senate's computing 
facilities, including the Financial Management Information System 
(FMIS) functions. The test involved switching the Senate's network from 
accessing systems at the Primary Computing Facility (PCF) to our backup 
facility, and powering down the PCF.
    The SAA's primary purpose was to test the technical process of 
switching to our backup facility, and only a limited amount of time was 
available for functional testing. The SAA staff wanted to complete the 
exercise within a 12-hour window, including the time needed to switch 
us to the backup facility and back to the PCF. A two-hour functional 
testing window was expected. In the scenario, FMIS systems and data 
would be ``failed-over'' to the backup facility, and made available for 
testing during the functional testing window. The systems would then be 
``failed back'' to the PCF, but the data would not be ``failed back''. 
Consequently, any changes made while testing at the backup facility 
would not be made to production data.
    Disbursing staff set minimal goals of accessing all critical FMIS 
subsystems. In a two hour functional testing window, the SAA would not 
have time to run critical batch processes such as those which would 
enable a single document to be taken from data entry in Web FMIS 
through payment in FAMIS. Consequently, plans were made to test each 
on-line step in the process separately. Additionally, the time 
constraint did not allow any overnight batch processes to be run.
    Within the limited scope of the test, most of the critical 
components of FMIS were tested. A request has been made to the SAA that 
disaster recovery tests be conducted twice a year and that additional 
system components be tested at each successive event.

                         ADMINISTRATIVE OFFICES
                    1. CONSERVATION AND PRESERVATION

    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. This includes: deacidification of 
paper and prints, phased conservation for books and documents, 
collection surveys, exhibits, and matting and framing for the Senate 
Leadership.
    Over the past year, the Office of Conservation and Preservation has 
embossed 621 books and matted and framed 532 items for the Senate 
Leadership. In addition, this office matted and framed 349 items for 
the 55th Inaugural ceremonies. For more than twenty-four years, the 
office has bound a copy of Washington's Farewell Address for the annual 
Washington's Farewell Address ceremony. In 2005, a volume was bound and 
read by Senator Richard Burr.
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the Office of Conservation and Preservation continues to conduct an 
annual treatment of books identified by the survey as needing 
conservation or repair. In 2005, conservation treatments were completed 
for 139 volumes of a 7,000 volume collection of House hearings. 
Specifically, treatment involved recasing each volume as required, 
using alkaline end sheets, replacing acidic tab sheets with alkaline 
paper, cleaning the cloth cases, and replacing black spine title labels 
of each volume as necessary. The Office of Conservation and 
Preservation will continue preservation of the remaining 3,900 volumes.
    This office assisted the Senate Library with 531 books that were 
sent to the Library Binding section of the Government Printing Office 
(GPO) for binding. Additionally, the office worked with the Library to 
facilitate the creation of five exhibits located in the Senate Russell 
building basement corridor. The Office of Conservation and Preservation 
also assisted the Senate Curator's staff with special matting and 
framing required for the World War II exhibit located on the first 
floor of the Capitol.
    This office continues to assist Senate offices with conservation 
and preservation of documents, books, and various other items. For 
example, the office is currently monitoring the temperature and 
humidity in the Senate Library storage areas, the vault and warehouse 
for preservation and conservation purposes.

                               2. CURATOR

    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The Office collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
specific architectural features; and exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission. Through exhibitions, publications, and 
other programs, the Office educates the public about the Senate and its 
collections.

Collections: Commissions, Acquisitions, and Management
    A painting of Senator George Mitchell was officially unveiled on 
May 24, 2005 as part of the Senate Leadership Portrait Collection, and 
a painting of Senator Margaret Chase Smith was unveiled on October 18. 
Both ceremonies were held in the historic Old Senate Chamber. Other 
important commissioned works in progress include a portrait of Senator 
Bob Dole and the Great Compromise mural. Both are projected to be 
completed in 2006.
    Thirty-eight objects were accessioned into the Senate Collection, 
including the painting Portrait of a Child with Moth by Constantino 
Brumidi; several rare stereoviews of the Senate Chamber from the late 
19th century; tickets, passes, and luncheon items related to the 2005 
Presidential Inauguration; ephemera from the 200th anniversary 
celebration of the birth of Constantino Brumidi; and nine albums with 
images of Senators and Senate staff from the late 18th to the early 
20th centuries. One of the nine albums contains rare cabinet cards 
depicting the 41st Congress made by the Matthew Brady studio, along 
with autographs of 73 Senators.
    In an ongoing effort to locate and recover historic Senate pieces 
associated with the institution, the Office acquired for the Senate 
Collection an important painting and a 19th century chair. The 
painting, Signing of the First Treaty of Peace with Great Britain by 
Constantino Brumidi, is the original sketch for the mural that appears 
in the Brumidi Corridors above the entrance to S-118. The chair dates 
to about 1819 and was made by Thomas Constantine for the Senate 
Chamber. It is a noteworthy addition to the collection, as only 4 of 
the original 48 chairs made by Constantine for the Senate are known to 
exist.
    Fifty new foreign gifts were reported to the Select Committee on 
Ethics and transferred to the Curator's Office. They were catalogued, 
and are maintained by the Office in accordance with the Foreign Gifts 
and Decorations Act. Appropriate disposition of 28 objects in the 
collection was completed following established procedures.
    As construction continues on the Capitol Visitor Center (CVC), the 
Office has worked with a conservator specializing in museum facility 
planning to develop a collection storage plan for all objects scheduled 
to move to the designated curatorial storage rooms in the CVC. The plan 
includes detailed equipment layout and design in order to provide 
optimal preservation for storing the objects.
    The Curator's Office continued with its project to photograph the 
102 historic Senate Chamber desks (which includes the 100 on the Senate 
floor and two desks currently in storage). One set of transparencies 
will be stored off-site for emergency purposes, while a second working 
set will be used for the web, image requests, and future publications. 
Fifty-five desks were photographed in 2005; the project is ahead of 
schedule and is projected to be completed by August 2006.
    In keeping with established procedures, all Senate Collection 
objects on display were inventoried, noting any changes in location. In 
addition, as directed by S. Res. 178, the Office submitted inventories 
of the art and historic furnishings in the Senate to the Rules 
Committee. The inventories, to be submitted every six months, are 
compiled by the Curator's Office with assistance from the Senate 
Sergeant at Arms (SAA) and Architect of the Capitol (AOC) Senate 
Superintendent.

Conservation and Restoration
    A total of 20 objects received conservation treatment in 2005. 
These included nine Senate Chamber desks, eight oil on canvas 
paintings, two cabinet card albums, and one manuscript collection.
    The initiative to conserve all 100 historic Senate Chamber desks, 
which began in 1999, was completed. Twice a year, during Senate recess 
periods, desks were removed from the Senate Chamber and sent out for 
restoration. Treatment was extensive, and followed a detailed protocol 
developed to address the wear and degradation of these historic desks 
due to continued heavy use. In December, the last of the desks was 
restored. During this project, a condition survey was conducted and 
completed. The survey emphasized the necessity of installing rubber 
bumpers to the arms of the Senate Chamber chairs to minimize the damage 
to the front of the desks caused by the chair arms. That work was also 
completed this year, and all future chairs will be constructed with 
bumpers.
    After extensive evaluation and research, a scope of work was 
developed for the conservation of the portrait of George Washington by 
Gilbert Stuart in the Senate Collection. This project coincided with a 
major exhibition on Stuart's work at the National Gallery of Art, which 
afforded the opportunity to consult with experts in the field. The 
portrait was restored by conservators with extensive knowledge of 
Gilbert Stuart's paintings; and the frame was also conserved. 
Restoration has revealed the Senate's portrait to be among the finest 
of Stuart's paintings of the first president.
    Two recently commissioned paintings, Blanche Kelso Bruce and James 
O. Eastland, were varnished by conservators to enhance and protect the 
surfaces now that the paint has properly cured.
    Another conservation project was related to the microfilming and 
digitization of the Isaac Bassett Papers, the manuscript collection of 
a 19th century Senate employee. Prior to microfilming, a conservator 
carried out the treatment and re-housing of the papers necessary for 
preservation. The entire effort to microfilm and digitize the 
collection was completed by the fall of 2005, and will help preserve 
the original papers in case of disaster, as well as provide 
reproductions for the use of scholars and other researchers. In 
addition, the digitized images provided extensive material for the 
Isaac Bassett website exhibit.
    The Office completed the detailed condition and identification 
survey of the nearly 100 historic mirrors in the Senate wing. The 
project has significant benefits. The condition assessments will 
determine priorities for conservation and maintenance treatments; 
provide information on the age, origin, and importance of the frames; 
and furnish documentation for disaster planning.
    The Curator's staff participated in training sessions for the 
Capitol Police regarding the care and protection of art in the Capitol, 
and continued to educate housekeeping personnel on maintenance issues 
related to the fine and decorative art collections.

Historic Preservation
    The Curator's Office worked with the AOC and SAA to review, 
comment, plan, and document Senate side construction projects that 
involve or impact historic resources. In addition to receiving planning 
information from those organizations, the office initiated a procedure 
for sharing Curator project schedules. This has greatly improved 
coordination and project execution. Construction and conservation 
efforts that required considerable review and assistance included: 
Brumidi Corridor ceiling restoration near S-112; window shutter 
refinishing; grand stairwell plaster replacement; marble step repair; 
Brumidi west corridor egress installation; Minton tile replacement; 
wireless antenna installation; audio alert system; S-324 ceiling 
recreation; and S-229 renovation.
    As part of the S-229 renovation project, there was a request to 
provide an overmantel mirror for the room. The Office has developed a 
mirror replication project, to duplicate an historic mirror in the 
Capitol. The mirror selected for replication was a good example of a 
particular style, complements the majority of mantels and spaces in the 
Capitol, and will easily accommodate modifications of size and ornament 
in any future replications. The new mirror was created and installed.
    Requests from Senate offices for information pertaining to room 
histories, architectural features, and historic images continue to 
increase. Recent initiatives have greatly improved office response time 
and depth of knowledge. In addition, the Office is working in 
partnership with the AOC Curator's Office and the Senate Historical 
Office to develop a room history program that will produce a definitive 
and up-to-date history for significant Senate rooms and suites.
    Research projects undertaken this year included: the Assistant 
Democratic Leader's suite; the Democratic Leader's suite; and the Strom 
Thurmond Room, S-238. Additionally, the Office worked closely with the 
AOC in the creation of an historic structures report for the Senate 
vestibule, adjacent stairwell, and small Senate rotunda. This report 
provides critical documentation regarding the architectural chronology 
of these important historic spaces.

Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. By order of the U.S. Capitol Police, the Old Senate 
Chamber was closed to visitors after September 11, 2001. However, 
during Senate recesses the historic room is open to tours. Thirty-six 
requests were received from current Members of Congress for after-hours 
access to the Chamber. Of special significance was the reenactment 
swearing-in ceremony for the newly elected Senators of the 109th 
Congress. Twenty-nine requests were received by current Members of 
Congress for admittance to the Old Supreme Court Chamber after-hours. 
Images of the room were provided to the Supreme Court Historical 
Society for use on a bicentennial coin honoring Chief Justice John 
Marshall. In addition, C-SPAN used high definition equipment in both 
chambers to take footage for an historical documentary on the U.S. 
Capitol, and both rooms were photographed for the CVC interactive 
exhibitions.
    In order to enhance existing documentation and to provide an 
important resource for future planning, the Office is working closely 
with the AOC to create condition drawings of the Old Senate Chamber 
that meet the Historic American Building Survey (HABS) standard. 
Currently such detailed drawings do not exist for this chamber, or any 
space within the Capitol, yet this is important historical and archival 
documentation. When complete, the drawings will be accepted into the 
HABS national collection at the Library of Congress.
    The Office continued to research the origins of one of the Senate's 
most important art works, the Eagle and Shield, in the Old Senate 
Chamber. This gilded carving, which dates from the early 19th century, 
has long been an important symbol of the institution. Initial research 
focused on the style and construction of carved eagles contemporary 
with the Senate. In addition, contacts were made with museums that 
house such eagles for further research.

Loans To and From the Collection
    A total of 68 historic objects and paintings are currently on loan 
to the Curator's Office on behalf of Senate leadership and officials in 
the Capitol. The staff added loans of six paintings for leadership 
suites, returned five paintings at the expiration of their loan periods 
to their respective owners, and renewed loan agreements for 29 other 
objects.
    The Office continued to document, photograph, and prepare various 
Senate Collection objects planned for exhibition in the CVC. Several of 
the objects (from an oil painting to a silver snuff box) will require 
conservation prior to installation in the exhibit hall, and the 
Curator's office is assisting in this conservation.
    Since 1982 the Senate has loaned a major historical painting, The 
Battle of Chapultepec by James Walker, to the Marine Corps Historical 
Museum in Washington, D.C. Originally the painting was displayed in the 
West Grand Stairway of the Senate wing from 1858 until 1961. The Marine 
Corps relocated to a new museum facility in 2005, terminating the 
Senate loan. Given the painting's size, the Curator's Office was tasked 
to identify another location for the painting. This historic work will 
be relocated to the Thomas Gilcrease Institute of American History and 
Art in Tulsa, Oklahoma, in early 2006. The Gilcrease Museum will 
provide an excellent venue for continued public display of the painting 
within the context of the history of the southwest region of the 
country. Development of a plan to safely remove the painting from 
display and transport it to its new location was greatly enhanced by 
consultation with the conservator on the Senate Curatorial Advisory 
Board.
    The Secretary's china was distributed and returned four times in 
2005. It was used for the Inaugural luncheon, as well as the First 
Lady's luncheon. The inventory was increased with the acquisition of 85 
cups and saucers. The official Senate china was inventoried and used at 
41 receptions for distinguished guests.

Publications and Exhibitions
    The Curator's Office finalized the content and design for the 
United States Senate Catalogue of Graphic Art. The publication is 
scheduled for 2006. The volume features the Senate's collection of more 
than 900 historic engravings and lithographs, and includes two full-
length essays and almost 40 short essays discussing selected prints. 
The Senate Curator and Associate Senate Historian co-authored the 
publication. It is a companion volume to the United States Senate 
Catalogue of Fine Art, published in 2003.
    As part of an ongoing program to provide information about the 
Capitol's art and historic spaces, three new information panels were 
installed for the following paintings: The Florida Case before the 
Electoral Commission; The Battle of Lake Erie; and First Reading of the 
Emancipation Proclamation by President Lincoln.
    In July 2005, to commemorate the 200th anniversary of the birth of 
artist Constantino Brumidi, the office de-installed the popular 
photographic exhibition, World War II: The Senate and the Nation's 
Capital and installed To Make Beautiful the Capitol: Birds of the 
Brumidi Corridors. This exhibition places in context the myriad of 
ornithological species that were painted by Brumidi and his team of 
artists. An online version of the exhibit was also developed for the 
Senate.gov website.
    Several other internet exhibits were posted including, Presidential 
Inaugurations: Invitations and Tickets in the U.S. Senate Collection 
and Inaugural Luncheons. The Office received delivery of the program 
files for two major websites, Isaac Bassett: A Senate Memoir, and The 
Senate Chamber Desks. Both were developed in conjunction with the 
Secretary's webmaster and a contractor. Isaac Bassett features 
selections from the Isaac Bassett manuscript collection, with 
illustrations from the Senate's collection of art and historical 
objects. It highlights life in the 19th century Senate based on 
Bassett's personal observations and recollections. His unique position 
as a trusted, long-time employee of the Senate and close confidant of 
many Senators make the stories he included in his memoir both engaging 
and enlightening. The website features actual images of Bassett's 
handwritten notes and an interactive time line.
    The Senate Chamber Desks website chronicles the history of these 
historic furnishings, many of which date back to 1819. Viewers will see 
where each Senator sits and learn specific information about each desk: 
biographical information on the Senators who have occupied it; 
conservation and restoration information; and traditions and historical 
facts. This site will be launched in 2006, and updated at the beginning 
of each Congress to provide current information.
    Another educational project was the development of an oral history 
program related to the Senate's art and historical collections. Artists 
were interviewed to gain valuable knowledge regarding recently 
commissioned portraits and this information will be posted on the 
Senate website in the near future.
    Adding to its presence on Senate.gov, the Office published the 
essays of the 160 pieces of art in the United States Senate Catalogue 
of Fine Art. Several popular brochures were reprinted in 2005, and the 
office continued to be a significant contributor to Unum, the Secretary 
of the Senate's newsletter.

Policies and Procedures
    Meetings were held with the new Senate Curatorial Advisory Board. 
Composed of respected scholars and curators, this 12-member board was 
established to provide expert advice to the Commission regarding the 
Senate's art and historic collections and preservation program, and to 
assist in the acquisition and review of new objects for the 
collections.
    In 2005 the Senate passed legislation codifying the Senate 
Leadership Portrait Collection, which honors past majority and minority 
leaders and presidents pro tempore of the Senate. These portraits are 
to be commissioned after the leaders have completed their service. The 
resolution also provides that the portraits may hang in the Senate 
Chamber Lobby at the direction of the Senate.
    An electronic tracking system was developed to record progress 
through the steps of the accessioning process for new additions to the 
Senate Collection. The system allows reports to be generated that 
identify what types of documentation have been prepared and what 
remains to be completed for each new accession.

Collaborations, Educational Programs, and Events
    As part of the celebration of the 200th anniversary of the birth of 
artist Constantino Brumidi on July 26, 2005, the Curator's Office 
promoted various Senate activities honoring Brumidi. As well as 
developing the exhibit on the birds of the Brumidi Corridors, the 
Office worked in partnership with Senate and AOC offices to generate 
articles and information panels about Brumidi's importance and 
contributions to the Capitol, and to sponsor special tours highlighting 
the artist's work.
    The Senate Curator and staff gave lectures on the Senate's art and 
historical collections to various historical societies and art museums, 
including George Washington University, the Federal Preservation 
Institute, and the U.S. Capitol Historical Society.

Office Administration
    The project to microfiche and digitize the collection object files 
was completed. These files are the primary legal title, research, and 
management records for all art and historical objects owned by the 
Senate and maintained by the Commission on Art. This project also 
serves important disaster recovery and archival preservation functions. 
Copies of the microfiche and digital records will be kept off-site for 
disaster recovery and archival purposes. Additional copies will be used 
on-site for research and public information in order to lessen the wear 
and tear on the original paper records.
    The Senate Support Facility was completed. The Curator's Office 
worked for several years with the Sergeant at Arms to develop a space 
within the warehouse that meets the stringent requirements for storing 
fine and decorative art. Environmental testing for the museum-quality 
storage area is now underway, and relocation of collection objects to 
this space is scheduled for the summer of 2006. The office moved its 
non-collection items to the new warehouse, including exhibit and art 
shipping materials, and publications. These items were re-inventoried 
and new tracking numbers assigned.

Automation
    The Office continued to improve its electronic collection 
management database to provide more efficient and accurate data 
recording and searches. The addition of several fields to record 
inventory location, date, and reviewer is one such change that improves 
the information regarding the current and previous locations for 
objects. The registration department also implemented an electronic 
tracking system to improve the accuracy and efficiency of loan 
renewals.
    In addition, the Office researched electronic systems that monitor 
temperature and relative humidity, to assure the stability of all 
objects on display and in storage. The ideal system will continuously 
download data for analysis and provide instant notification via phone, 
e-mail and/or blackberry when environmental conditions undergo a sudden 
and potentially damaging change. Staff worked with Senate Security on 
the initiative. Procurement and installation of the system may occur in 
2006.
    In an effort to integrate new technologies, improve research 
capabilities, and address preservation concerns, the Office is 
developing an organization plan and procedures that will affect all 
types of files and media collected and maintained. The results will 
greatly improve response time to information requests, search 
capabilities for researchers, and the condition of significant 
reference materials. Related to this effort was the installation of an 
image management server. This service allows staff to store the many 
large-sized image files that are so vital to the Office's mission, 
enables the images to be archived regularly, and prevents the immense 
number of items from clogging bandwidth time and storage space on the 
Secretary's LAN servers.

Objectives for 2006
    A major initiative will be to relocate Senate Collection items to 
the new SAA off-site warehouse facility. Work will include: developing 
an object tracking system; reviewing the SAA warehouse inventory 
system, access procedures, and protocol; ensuring all equipment, HVAC, 
and security needs are functioning; coordinating the move with the 
assistance of fine art handlers; and developing a procedural document 
regarding the storage of collection objects at the SAA warehouse.
    The Office also will prepare for moving collection objects in 2007 
to the two new CVC storage spaces. Based on the recently completed 
Collection Storage Plan, museum-quality storage equipment will be 
ordered to house collection objects in these new spaces. Objects in 
need of archival re-housing will be identified, prioritized, and re-
housed in preparation for the move.
    The Curator's environmental monitoring systems will be assessed in 
all locations where collections are displayed or stored. Temporary 
systems will be installed for evaluation, and following testing, a 
comprehensive program will be recommended and implemented as 
appropriate.
    An integrated pest management plan will be prepared for all storage 
spaces where collection items are located. The plan will include 
procedures for preparation of objects for storage, monitoring of 
conditions, and developing contacts and resources for disaster 
recovery.
    Conservation and preservation concerns continue to be a priority. 
Projects in 2006 will include the treatment of several historic 
paintings and frames, as well as objects for new CVC exhibits. The 
Battle of Chapultepec will be relocated to the Gilcrease Museum in 
Oklahoma. The Office will build on the information generated by the 
recently completed mirror survey and develop a plan for the 
conservation and maintenance of the Senate's historic mirror 
collection. The restoration of the painting, First Reading of the 
Emancipation Proclamation, by F.B. Carpenter, is now projected to be 
completed in 2006. Additionally, the Office will focus on the Senate's 
recently acquired Cornelius & Baker armorial chandelier. Following a 
condition assessment, the office will work with the Senate Curatorial 
Advisory Board to review treatment options and recommend a plan for the 
chandelier to the Commission on Art.
    The Office will advance efforts to commission portraits of Senators 
Byrd, Lott, and Daschle. Unveilings are projected for the portrait of 
former Senator Bob Dole and the Great Compromise mural.
    The Isaac Bassett Papers manuscript collection will be deposited at 
the National Archives and Records Administration (NARA). Initial 
meetings have been held with NARA to discuss organization and storage 
of the collection along with logistical considerations. As a result of 
the recently completed microfilming project, the office will submit the 
original collection, microfilm and digital copies of the papers, and 
extensive indexes for use by future researchers.
    The Curator's staff will undertake a comprehensive and detailed 
survey of the Senate Chamber chairs. While the Senate Chamber desks 
have been studied extensively, the accompanying chairs, which date from 
various eras, have never been fully examined. It is hoped that this 
study will enable the identification and preservation of important 
chairs that still remain in the Senate.
    Collection activities will also include efforts to locate and 
recover significant historic Senate pieces. Investigations were 
conducted in 2005 to locate partner desks and other furniture made by 
George Cobb for the Russell Senate Office building in 1909. A total of 
twelve desks were identified outside the Senate, and are either in 
private collections or on display in museums.
    In the area of education, the United States Senate Catalogue of 
Graphic Art will be published. The Office will produce a brochure for 
S-238, the Strom Thurmond Room. Also related to room histories, staff 
will continue to work with the AOC Curator's Office and Senate 
Historical Office to finalize the room history program.
    The Office will embark on a reorganization of the Senate art 
website to provide easier, more intuitive access to the Senate's art, 
historical collections, and online exhibits and publications. This task 
will be undertaken in coordination with Senate webmaster and Senate 
Library staff, and will be an important early step in creating and 
organizing the Senate's web content according to standardized metadata.
    The Senate Preservation Board of Trustees will hold its first 
meeting, and the Senate Curatorial Advisory Board will continue to meet 
biannually. The Office will work with the Senate Curatorial Advisory 
Board to review and report on several preservation projects including: 
the historic structures report for the Senate vestibule, adjacent 
stairwell, and small Senate rotunda; the preservation of the Minton 
tile floors; and the current HABS-standard drawing documentation 
project.
    Work is underway to develop a five-year strategic plan for the 
Office of Senate Curator. This will be an important document for the 
Office as it moves forward with its many conservation, preservation, 
and education initiatives. Additionally, the Senate Curator's 
Continuity of Operations Plan (COOP) will be reevaluated, tabletop 
exercises conducted, and the COOP document updated.

               3. JOINT OFFICE OF EDUCATION AND TRAINING

    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff. There are 
three branches within the department. The technical training branch is 
responsible for providing technical training support for approved 
software packages used in either Washington or the state offices. This 
branch's computer training staff provides instructor-led classes; one-
on-one coaching sessions; specialized vendor-provided training; 
computer-based training; and informal training and support services. 
The professional training branch provides courses for all Senate staff 
in areas including management and leadership development, human 
resources issues and staff benefits, legislative and staff information, 
new staff and intern information. The Health Promotion branch provides 
seminars, classes and screenings on health related and wellness issues. 
This branch also coordinates an annual Health Fair for all Senate 
employees and four blood drives each year.

Training Classes
    The Joint Office of Education and Training offered 405 classes in 
2005; 5,982 Senate employees participated in these classes. This 
office's registration desk handled 31,960 requests for training and 
documentation.
    Of the above total, in the Technical Training area 187 classes were 
held with a total attendance of 1,521 students. An additional 770 staff 
received coaching on various software packages and other computer 
related issues.
    In the Professional Development area 218 classes were held with a 
total attendance of 4,461 students. Individual managers and supervisors 
are also encouraged to request customized training for their offices on 
areas of need.
    The Office of Education and Training is available to work with 
teams on issues related to team performance, communication or conflict 
resolution. During 2005, over 50 requests for special training or team 
building were met. Professional development staff also traveled to 
state offices to conduct specialized training and team building. During 
the last quarter of the year, we offered training via video 
teleconferencing to two state offices and plan to continue this 
practice.
    In the Health Promotion area, 1,240 Senate staff participated in 
Health Promotion activities throughout the year. These activities 
included: cancer screening, bone density screening and seminars on 
health related topics. Additionally 1,492 staff participated in the 
Annual Health Fair held in September.
    The Joint Office of Education and Training has been actively 
working with the Office of Security and Emergency Preparedness to 
provide security training for Senate staff. In 2005, the Office of 
Education and Training coordinated 63 sessions of escape hood and other 
security-related training for 1,010 Senate staff.

State Training
    Since most of the classes that are offered are only practical for 
D.C. based staff, the Office of Education and Training continues to 
offer the ``State Training Fair'' which began in March 2000. In 2005, 
three sessions of this program were offered to 119 state staff. This 
office also conducted our annual State Directors Forum for the second 
year and 37 attended. In addition, this office has implemented the 
``Virtual Classroom'' which is an internet based training library of 
300+ courses. To date, 379 state office and Washington, D.C. staff are 
accessing a total of 500 different lessons using this training option.

                    4. CHIEF COUNSEL FOR EMPLOYMENT

Background
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (``GERA''), which allowed Senate employees to file claims of 
employment discrimination against Senate offices. With the enactment of 
the Congressional Accountability Act of 1995 (``CAA''), Senate offices 
became subject to the requirements, responsibilities and obligations of 
11 employment laws. The SCCE is charged with legal defense of Senate 
offices in employment law cases at both the administrative and court 
levels. Also, on a day-to-day basis, the SCCE provides legal advice to 
Senate offices about their obligations under employment laws. 
Accordingly, each employing office of the Senate is an individual 
client of the SCCE, and each office maintains an attorney-client 
relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories: Litigation (Defending Senate Offices in Federal 
Courts); Mediations to Resolve Lawsuits; Court-Ordered Alternative 
Dispute Resolutions; Union Drives, Negotiations, and Unfair Labor 
Practice Charges; OSHA/Americans With Disability Act (``ADA'') 
Compliance; Layoffs and Office Closings In Compliance With the Law; 
Management Training Regarding Legal Responsibilities; and Preventive 
Legal Advice.

Litigation; Mediations; Alternative Dispute Resolutions
    The SCCE represents each of the employing offices of the Senate in 
all court actions (including both trial and appellate courts), 
hearings, proceedings, investigations, and negotiations relating to 
labor and employment laws. The SCCE handles cases filed in the District 
of Columbia and cases filed in any of the 50 states.

OSHA/ADA Compliance
    The SCCE provides advice and assistance to Senate offices by 
assisting them with complying with the applicable OSHA and ADA 
regulations; representing them during Office of Compliance inspections; 
advising State offices on the preparation of the Office of Compliance's 
Home State OSHA/ADA Inspection Questionnaires; assisting offices in the 
preparation of Emergency Action Plans; and advising and representing 
Senate offices when a complaint of an OSHA violation has been filed 
with the Office of Compliance or when a citation has been issued.
    In 2005, the SCCE conducted 131 OSHA/ADA inspections of Senate 
offices to ensure compliance with the CAA.

Management Training Regarding Legal Responsibilities
    The SCCE conducts legal seminars for the managers of Senate offices 
to assist them in complying with employment laws.
    In 2005, the SCCE gave 56 legal seminars to Senate offices. Among 
the topics covered were:
  --An Overview of the Congressional Accountability Act of 1995: 
        Management's Rights and Obligations;
  --Preventing Sexual Harassment in the Workplace;
  --How to Interview and Hire the Best Employee Without Violating the 
        Law;
  --How to Conduct Background Checks, Reference Checks and Drug Testing 
        Without Violating the Law;
  --Complying with Immigration Laws: I-9 and the Basic Pilot Program 
        for Employment Eligibility Confirmation;
  --Labor-Management Overview: Union Post-Election Procedures;
  --Complying with the Americans with Disabilities Act of 1990;
  --Management's Legal Obligations to Give Military Leave to Employees;
  --Legal Pitfalls in Evaluating, Disciplining and Firing Employees;
  --How to Comply with the Family and Medical Leave Act.
    In addition, in 2005, the SCCE prepared new videos to accompany its 
harassment seminar. This involved writing the scripts, recruiting 
Senate employees to participate, training the ``actors,'' and working 
with the Recording Studio to direct, record, edit and finalize the 
vignettes. The purpose of the vignettes is to illustrate points raised 
during the harassment seminar with examples that are Senate-specific. 
The SCCE has received extremely positive feedback from Members' offices 
at which the harassment seminars have been given using these new 
videos.

Preventative Legal Advice
    The SCCE meets with Members, Chiefs of Staff, Administrative 
Directors, Office Managers, Staff Directors, Chief Clerks and General 
Counsels at their request. The purposes are to ensure compliance with 
the law, prevent litigation and minimize liability in the event of 
litigation. For example, on a daily basis, the SCCE advises Senate 
offices on matters such as disciplining and/or terminating employees in 
compliance with the law, handling and investigating sexual harassment 
complaints, accommodating the disabled, determining wage law 
requirements, meeting the requirements of the Family and Medical Leave 
Act, and management's rights and obligations under union laws and OSHA.

Administrative/Miscellaneous Matters
    The SCCE provides legal assistance to employing offices to ensure 
that their employee handbooks/office policies, supervisors' manuals, 
job descriptions, interviewing guidelines, and performance evaluation 
forms comply with the law

Union Drives, Negotiations, and Unfair Labor Practice Charges
    In 2005, the SCCE handled one union drive and assisted in 
negotiations with another union. With respect to the union drive, the 
SCCE trained managers and supervisors regarding their legal obligations 
during a union campaign, advised the client in selecting its 
representatives for the election and conducted training sessions for 
the employer representatives regarding proper conduct at elections.

Layoffs and Office Closings in Compliance with the Law
    The SCCE provides advice and strategy to individual Senate offices 
regarding how to minimize legal liability in compliance with the law 
when offices reduce their forces. In addition, pursuant to the Worker 
Adjustment and Retraining Notification Act (WARN Act), offices that are 
closing must follow certain procedures for notifying their employees of 
the closing and for transitioning them out of the office. The SCCE 
tracks office closings and notifies those offices of their legal 
obligations under the WARN Act.

                          5. SENATE GIFT SHOP

    The Senate Gift Shop was established under administrative direction 
and supervision of the Secretary of the Senate (SOS) in October 1992, 
(United States Code, Title 2, Chapter 4). With each successive year 
since its establishment the Senate Gift Shop has continued to provide 
outstanding products and services that maintain the integrity of the 
Senate as well as increase the public's awareness of the mission and 
history of the U.S. Senate. The Gift Shop provides products and 
services to Senators, their spouses, staffs, constituents, and 
visitors. Products include a wide variety of souvenirs, collectibles 
and fine gift items created exclusively for the U.S. Senate. Services 
include special ordering of personalized products, custom framing, gold 
embossing, engraving and shipping. Additional services include the 
distribution of educational materials to both tourists and constituents 
visiting the Capitol and Senate Office Buildings. New this year is the 
Senate Gift Shop's presence on Webster.

Facilities
    For several years the Senate Gift Shop offered over-the-counter 
sales to walk-in customers at a single location. Today, after more than 
a decade of operation, the Gift Shop provides products and services 
from three locations.
    In addition to the three physical locations, the Gift Shop has 
developed an online presence on Webster. The intranet site currently 
offers only a limited selection of products that may be ordered either 
by phone or by printing and faxing the on-site order form. Long-term 
plans are to grow this site to include a greater sample of merchandise 
offered in the Gift Shop's physical locations and to eventually migrate 
to an e-commerce website with online transactions. Along with offering 
over-the-counter, walk-in sales, and limited intranet services, the 
Gift Shop Administrative Office provides mail order service, special 
order and catalogue sales.
    The Gift Shop also maintains two warehouse facilities. While the 
bulk of its overstock is currently held in an off-site storage 
facility, a portion of the Gift Shop's overstock is maintained in the 
Hart Building warehouse facility. This space also accommodates the Gift 
Shop's receiving, shipping, and engraving departments.
    Operational plans for the off-site facility include having most, if 
not all, Gift Shop product delivered, received and stored at this 
location until the need for transfer to Gift Shop locations. Although 
the overall management of the warehouse is through the Sergeant at Arms 
(SAA), the Director of the Gift Shop has responsibility for the 
operation and oversight of the interior spaces assigned for Gift Shop 
use. Storing inventory in a centralized, climate-controlled facility 
that is managed by the SAA will provide better protection for the Gift 
Shop's valuable inventory in terms of increased and steadfast security 
as well as prolonged shelf life for product.

Sales Activity
    Sales recorded for fiscal year 2005 were $1,591,244.36. Cost of 
goods sold during this same period was $1,006,655.30, accounting for a 
gross profit on sales of $584,589.06.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of inventory purchased for 
resale. As of October 1, 2005, the balance in the revolving fund was 
$1,833,614.70 and the inventory purchased for resale was valued at 
$2,295,554.07.

Additional Activity
    The contractor selected to provide the hardware and system 
installation of the new retail and financial management system has 
completed its contractual obligations to the Senate Gift Shop with the 
final deliverables completed in 2005. The contractor will continue to 
provide hardware and software support for the retail system.

Accomplishments and New Products in Fiscal Year 2005
            Official Congressional Holiday Ornaments
    The year 2005 marked the conclusion of the Gift Shop's third 
consecutive ``four-year ornament series.'' Each ornament in the 2002-
2005 series of unique collectibles features an architectural milestone 
of the United States Capitol and is packaged with corresponding 
historical text taken from the book, History of the United States 
Capitol: A Chronicle of Design, Construction, and Politics by William 
C. Allen, Architectural Historian for the Architect of the Capitol.
    The 2005 ornament pictures the Capitol's West Front with particular 
emphasis on the newly landscaped lawn and terraces. Congress authorized 
the landscape improvements in 1873, and on June 23, 1874, passed an act 
to hire the first landscape architect of the United States Capitol, 
Frederick Law Olmsted. Olmsted's idea for redesigning the landscape of 
the Capitol grounds is illustrated in a drawing titled ``General Plan 
for the Improvement of the Capitol Grounds.'' In keeping with a Gift 
Shop tradition, the authentic colors of the original drawing were 
reproduced onto a white porcelain stone and set with a brass frame 
finished in 24kt gold.
    Sales of the 2005 holiday ornament exceeded 32,000 ornaments of 
which more than 7,400 were personalized with engravings designed, 
proofed and etched by Senate Gift Shop staff. This highly successful 
effort was made possible by the combined effort of our administrative, 
engraving, and store staffs. Additional sales of this ornament and 
ornaments from previous years are expected to continue throughout 2006. 
Sales revenue from this year's ornament, as in previous years, helps to 
provide scholarship funds for the Senate Child Care Center.
    The theme for the Gift Shop's fourth series of ornaments, which 
will run from 2006-2009, is currently in development with production of 
the 2006 ornament targeted for this summer and sale of the ornament 
expected to begin in September 2006.
            China Porcelain Boxes
    The final porcelain ``Brumidi'' box in a set of four was completed 
and released for sale in 2005. Each box displays a different image from 
the Constantino Brumidi frescoes taken from the ceiling of the 
President's Room in the Senate Wing of the United States Capitol. The 
individual boxes of the series include the allegorical figures: 
Liberty, Legislation, Executive Authority and Religion. These porcelain 
boxes, exclusive to the Senate Gift Shop, will be popular collector 
items for many years to come.

Projects and New Initiatives for 2006
            History of the Capitol
    The Gift Shop will purchase for resale the book, History of the 
Capitol, (H. Doc. 108-240) by Glenn Brown. When the GPO publication is 
released for sale to distributors and retailers in 2006, the Gift Shop 
plans to purchase a substantial quantity to ensure availability to its 
customers for an extended period of time.
            Congressional Plates
    The series of Official Congressional Plates continued in 2005 with 
new design features beginning with the 108th Congress plate, which 
became available for sale this past year. The balance of the series 
includes plates commemorating the 109th, 110th and 111th Congresses. 
The design stage for the remaining plates has concluded and prototypes 
for the final three are being produced by Tiffany & Co.
            Constantino Brumidi Birthday Celebration
    The year 2005 marked the 200th Birthday of Constantino Brumidi, 
``The Artist of the Capitol.'' In celebration of this special occasion, 
the staff of the Gift Shop worked closely with the staff of the 
Curator's Office on an initiative to add to our collection of Brumidi-
inspired merchandise. The new products include a designer collection of 
note cards depicting images of birds taken from the frescoes gracing 
the walls of the Capitol's Brumidi corridors. Other products featuring 
Brumidi's artwork that are currently offered for sale in the Senate 
Gift Shop include neckties, scarves, round porcelain boxes and the book 
Brumidi ``Artist of the Capitol.'' Additional Brumidi pieces are in 
production.
            Intranet/Webster
    The Webster intranet website for the Gift Shop continues to be 
enhanced. Primary considerations include website policy, design and 
layout, content and products to be included. Meetings concerning the 
creation and expansion of the Gift Shop's website are ongoing with 
other Secretary departments. The Gift Shop's intends to incorporate 
links to the offices of the Historian, Curator and Senate Library so 
that visitors to the website will have ready access to additional 
educational information.
            Capitol Complex Lumber
    In the fall of 2001 the construction of the Capitol Visitor Center 
(CVC) required the removal of many trees from the Capitol complex. 
During this time, Allegany Wood Products (Allegany) of Petersburg, West 
Virginia, assisted in determining the best method for the recover and 
transport of the felled trees. Arrangements were made for a local West 
Virginia trucking company to travel to Washington, D.C., to pick up and 
haul the cut trees to one of Allegany's lumber mills, where the trees 
could be rough cut and kiln dried, a process which makes possible the 
preservation and long-term storage of the lumber. The stored lumber 
approximating 12,000 board feet is now being inventoried and segregated 
by species. Plans to determine the most appropriate use for the lumber 
will be developed this year. Preliminary ideas involve using a quantity 
of wood to create ``official products'' such as presentation, gift and 
commemorative items.

                          6. HISTORICAL OFFICE

    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The Office advises Senators, officers, and 
committees on cost-effective disposition of their non-current office 
files and assists researchers in identifying Senate-related source 
materials. The Office keeps extensive biographical, bibliographical, 
photographic, and archival information on the 1,885 former Senators. It 
edits for publication historically significant transcripts and minutes 
of selected Senate committees and party organizations, and conducts 
oral history interviews with key Senate staff. The photo historian 
maintains a collection of approximately 40,000 still pictures that 
includes photographs and illustrations of Senate committees and most 
former Senators. The Office develops and maintains all historical 
material on the Senate website.

Editorial Projects
    Biographical Directory of the U.S. Congress, 1774-2005.--A new 
edition of the Biographical Directory of the U.S. Congress has just 
been published. In May 2003, both houses of Congress adopted H. Con. 
Res. 138, authorizing printing of an updated and expanded edition of 
the Biographical Directory of the United States Congress, 1774-2005. 
The first edition of this indispensable reference source was published 
in 1859; the most recent edition appeared in 1989. This latest 
publication is the 16th edition. Since 1989, the assistant historian 
has added many new biographical sketches, expanded bibliography 
entries, and revised and updated most of the database's nearly 2,000 
Senate and vice-presidential entries. In preparation for the 2005 
edition, the assistant historian and historical editor updated the 
Congress-by-Congress listing of members through the 108th Congress and 
updated the listing of executive branch officers. The assistant 
historian completed the editing and proofing of all Senate-related 
information, coordinating with the House Office of History and 
Preservation and the Government Printing Office. The assistant 
historian also continues to edit and update all existing information 
for the online version of the Biographical Directory (http://
bioguide.congress.gov) to allow for expanded search capabilities, 
maintain accuracy, and incorporate new information and scholarship.
    Administrative History of the Senate.--Throughout 2005, the 
assistant historian continued to research and write chapters of this 
historical account of the Senate's administrative evolution. This study 
traces the development of the offices of the Secretary of the Senate 
and Sergeant at Arms, considers 19th and 20th century reform efforts 
that resulted in reorganization and professionalization of Senate 
staff, and looks at how the Senate's administrative structure has grown 
and diversified over the past two centuries. In particular, during the 
past year the assistant historian completed the work's pivotal third 
chapter, which explores the Senate's administrative history from 1836 
to 1861, when Asbury Dickins was Secretary of the Senate. During this 
period, the first major administrative reform effort was launched, 
resulting in an expanded and more professional work force.
    ``The Idea of the Senate''.--For more than two centuries, Senators, 
journalists, scholars, and other first-hand observers have attempted to 
describe the uniqueness of the Senate, emphasizing the body's 
fundamental strengths, as well as areas for possible reform. From James 
Madison in 1787 to Robert Caro in 2002, sharp-eyed analysts have left 
memorable accounts that may help modern Senators better understand the 
Senate in its historical context. Pulitzer Prize-winning journalist 
Allen Drury's 1943 comment about the Senate of his day--``There is a 
vast area of casual ignorance concerning this lively and appealing 
body''--retains a ring of truth for modern times. The ``Idea of the 
Senate'' project will identify up to 40 major statements by 
knowledgeable observers. Each of the 40 brief chapters in the resulting 
publication will include a 500-word quotation and an essay that 
identifies the background of the observer and places the quotation in 
the context of the times in which it was written.
    ``Rules of the United States Senate, Since 1789''.--In 1980, 
Parliamentarian Emeritus Floyd M. Riddick, at the direction of the 
Senate Committee on Rules and Administration, prepared a publication 
containing the eight separate codes of rules that the Senate adopted 
between 1789 and 1979. In the early 1990s, the Senate Historical 
Office, in consultation with Dr. Riddick, developed a project to 
incorporate an important feature not contained in the 1980 publication. 
Beyond simply listing the eight codes of rules, our goal is to show how 
the Senate's current rules have evolved from earlier versions, 
including rules both added and dropped between codifications. Some 
modern Senate rules have their origins in the first code of rules that 
the Senate adopted in 1789. Many of those first rules can be traced to 
even earlier times--to rules Thomas Jefferson prepared in 1776 for the 
Continental Congress. This work, to be completed within the coming 
year, will contain the original text of all standing rules, beginning 
with those the Senate adopted on April 16, 1789. It will reprint each 
of the seven subsequent codifications (1806, 1820, 1828, 1868, 1877, 
1884, and 1979) along with changes adopted between each codification. 
Appendices will contain related rules of the Continental Congresses, 
the Maryland General Assembly (1777), the Senate of the Confederate 
States of America, Senate Impeachment Rules from 1798, and the 
abandoned joint rules of Congress. Footnotes and sidebars will provide 
brief explanations of the reasons for significant changes.
    ``Senate Stories: 200 Notable Days, 1787-2002''.--This publication 
will present 200 brief stories featuring the Senate's best-loved and 
most notorious former members, its triumphs and tragedies, and some 
lesser-known moments that reflect the Senate's character as the 
``World's Greatest Deliberative Body.'' Readers will learn how the 
Senate was created, who became the first cabinet member to be confirmed 
(and the first rejected), how decorum was not always strictly 
maintained on the Senate floor, and how a certain Senator's toupee 
signaled a change in the seasons. These 200 historical essays are drawn 
from a larger number prepared during an eight-year period for weekly 
delivery to an audience of several dozen senators. Those Senators 
appeared to appreciate these essays for adding historical context to 
their daily responsibilities. Historical Office staff researched and 
compiled sources and photographs for each essay to be included in the 
publication.
    Joint Congressional Committee on Inaugural Ceremonies (JCCIC).--In 
2005, Historical Office staff assisted with preparations and editing of 
printed materials, followed up on questions and reference requests 
forwarded to them by the JCCIC, made minor changes to the Web site as 
needed, and assisted the Recording Studio with preparing and editing 
text for the 2005 Inaugural video. Staff participated in an on-camera 
interview, responding to historical questions about presidential 
inaugurations, for use in the Inaugural video. Staff continues to 
maintain the Inaugural website as stewards until the next JCCIC forms 
in 2008.

Oral History Program
    The Historical Office conducts a series of oral history interviews 
that provide personal recollections of various Senate careers. This 
year, interviews were completed with Leonard Weiss, former staff 
director of the Governmental Affairs Committee; Timothy Wineman, Senate 
Financial Clerk; and Dennis W. Brezina, former staff member of the 
Subcommittee on Government Research. Several interviews are in 
progress, and the interviews of Chuck Ludlam, former staff member of 
the Separation of Powers Subcommittee, have been processed and opened 
for research. The complete transcripts of 20 interviews have also been 
posted on the Senate's Web site.

Member Services
    Members' Records Management and Disposition Assistance.--The Senate 
archivist continued the program of assisting members' offices with 
planning for the preservation of their permanently valuable records, 
emphasizing the importance of managing electronic records, and 
transferring valuable records to a home-state repository. The archivist 
began revising the Records Management Handbook for United States 
Senators and Their Archival Repositories. The archivist continued to 
work with staff from all repositories receiving senatorial collections 
to ensure adequacy of documentation and the transfer of appropriate 
records with adequate finding aids. The archivist provided briefing 
materials to transition offices and met with staff. The archivist 
conducted a seminar on records management for Senate offices and 
participated in the Senate Services Fair. The archivist participated in 
a panel discussion at the annual meeting of the Association of Centers 
for the Study of Congress on ``Developing a Collaborative Approach to 
Web-Based Content (for congressional papers collections),'' and also in 
the second symposium sponsored by the John H. Brademas Center for the 
Study of Congress at New York University, which focused on the 
development of a policy for the papers of public officials. The 
archivist organized and led a session on procedures for handling 
classified documents that are discovered in members' collections after 
they have been donated to an archival repository. This was presented at 
the Society of American Archivists annual meeting.
    Committee Records Management and Disposition Assistance.--The 
Senate archivist provided each committee with staff briefings, record 
surveys, guidance on preservation of information in electronic systems, 
and instructions for the transfer of permanently valuable records to 
the National Archives' Center for Legislative Archives. 2,966 cubic 
feet of Senate records were transferred to the Archives. The archivist 
revised and published the Records Management Handbook for United States 
Senate Committees. Part of the revision entailed developing, with 
assistance from National Archives (NARA) staff, a protocol for transfer 
of electronic records to NARA's Center for Legislative Archives. The 
Committee on Homeland Security and Governmental Affairs and its 
archivist developed and successfully implemented a project using this 
protocol to appraise and transfer electronic records to the archives. 
The archivist worked with the Budget Committee to find professional 
assistance to perform a records survey and to begin comprehensive 
archival processing of older transfers for the purpose of assuming 
better intellectual control over their historical collection. The 
archival assistant continued to provide processing assistance to 
committees and administrative offices in need of basic help with 
noncurrent files. The archival assistant produced committee archiving 
reports in Access database format covering records' transfers for the 
past year. The archivist will use these reports in 2006 to provide 
committees with suggestions for improvements. The archivist hosted a 
tour and briefing for chief clerks at the Center for Legislative 
Archives.
    ``Senate Historical Minutes''.--The Senate historian continued a 
nine-year series of ``Senate Historical Minutes,'' begun in 1997 at the 
request of the Senate Democratic Leader. In 2005, the historian 
prepared and delivered a ``Senate Historical Minute'' at 21 Senate 
Democratic Conference weekly meetings. These 400-word Minutes were 
designed to enlighten members about significant events and 
personalities associated with the Senate's institutional development. 
More than 200 Minutes are available as a feature on the Senate website.

Photographic Collections
    The photo historian created the first ever published pictorial 
directory of Senators, Faces of the Senate: A Pictorial Directory of 
United States Senators, 1789-2005. Since the First Congress convened in 
1789, 1,885 men and women have served in the United States Senate. This 
invaluable reference source contains images of all but 46 of them. The 
images in the volume are arranged alphabetically by state, and further 
divided within each state by Senate class. This one-of-a-kind 
publication offers a unique visual representation of the collective 
Senate from its inception to the present. Prompted by the desire to 
make the Faces pictorial directory as complete as possible, the photo 
historian sought and acquired images of nearly 100 former Senators not 
previously represented in the Office's collection. Many of these newly 
acquired images were obtained from various universities, historical 
societies, and state libraries throughout the nation. More than half of 
the images came from a collection of late 19th- and early 20th-century 
photo scrapbooks that were donated to the Office at the end of 2004. 
These scrapbooks were inventoried and copy negatives were made of many 
of the images contained therein.
    The photo historian continued to provide timely photographic 
reference service, while cataloging, digitizing, re-housing, and 
expanding the Office's 40,000-item image collection. The office's 
Continuity of Operations Plan (COOP) and vital electronic records were 
updated. As a contribution to the office's educational outreach 
efforts, two online photographic exhibits were created for the Senate 
website--Capitol Scenes: 1900-1950 and World War II: The Senate and the 
Nation's Capital. A third online exhibit, The Senate Through the Ages, 
has been created and will be available on the website shortly. A number 
of Senators' offices were inspired by the Faces pictorial directory to 
display the images of all the Senators who had served from their state. 
The photo historian worked with the offices on these projects, 
providing the images and assisting in the design of the displays.

Educational Outreach
    Much of the Senate Historical Office's correspondence with the 
general public takes place through the Senate's website, which has 
become an indispensable source for information about the institution. 
The assistant historian and the Historical Office staff maintain and 
frequently update the Web site with timely reference and historical 
information. In 2005, the Historical Office received an estimated 1,500 
inquiries from the general public, the press, students, family 
genealogists, congressional staffers, and academics, through the public 
e-mail address provided on the Senate website. The diverse nature of 
their questions reflects the varied levels of interest in how the 
Senate functions, its institutional history, and the individuals who 
have served in the body.
    In coordination with the Office of Education and Training, 
Historical Office staff provided seminars on the general history of the 
Senate, Senate committees, women senators, Senate floor leadership, and 
the Constitution. Office staff also participated in seminars and 
briefings for specially scheduled groups. The Senate historian 
addressed a conference in the United Kingdom entitled, ``What Are 
Senates For?'' Sponsored by the University of London's Institute for 
Historical Research, this symposium was designed to explore further 
reform opportunities for the House of Lords by examining the experience 
of legislative upper houses in other western nations. The associate 
historian delivered the keynote address to the Northern Great Plains 
History Conference in Eau Claire, Wisconsin, participated in a workshop 
on ``Congress and History'' at Washington University in St. Louis, and 
was part of a panel discussion on ``The American Congress'' at the 
National Archives and Records Administration.
    Advisory Committee on the Records of Congress.--This eleven-member 
permanent committee, established in 1990 by Public Law 101-509, meets 
twice a year to advise Congress and the Archivist of the United States 
on the management and preservation of the records of Congress. Its 
Senate-related membership includes appointees of the majority and 
minority leaders; the Secretary of the Senate, who serves as committee 
vice chair during the 109th Congress; and the Senate historian. The 
Historical Office provided support services for the Committee's June 
and December meetings.
    Capitol Visitor Center Exhibition Content Committee.--Staff 
historians completed their assignments in drafting text for displays in 
the exhibition gallery of the Capitol Visitor Center. During 2005, the 
Office assisted Donna Lawrence Productions and Cortina Productions with 
background material for several visitor orientation films and 
interactive visual displays.
    Association of Centers for the Study of Congress.--In May, the 
Historical Office assisted with the third annual meeting of the 
Association of Centers for the Study of Congress. Among the centers 
involved in this promising new organization are those associated with 
the public careers of former Senators Howard Baker, Bob Dole, Everett 
Dirksen, Thomas Dodd, Wendell Ford, Hubert Humphrey, Richard Russell, 
John Stennis, and John Glenn.

                           7. HUMAN RESOURCES

    The Office of Human Resources was established in June 1995 as a 
result of the Congressional Accountability Act. The Office focuses on 
developing and implementing human resources policies, procedures, and 
programs for the Office of the Secretary of the Senate that fulfill the 
legal requirements of the workplace and complement the organization's 
strategic goals and values.
    This includes recruiting and staffing; providing guidance and 
advice to managers and staff; training; performance management; job 
analysis; compensation planning, design, and administration; leave 
administration; records management; employee handbooks and manuals; 
internal grievance procedures; employee relations and services; and 
organizational planning and development.
    The Human Resources Office also administers the Secretary's Public 
Transportation Subsidy program and the Summer Intern Program that 
offers college students the opportunity to gain valuable skills and 
experience in a variety of Senate support offices.
Classification and Compensation Review Completed
    HR conducted a complete classification and compensation study. This 
work product is the single largest program to come from this office 
since its inception. The classification study includes a comprehensive 
collection of current job classifications and specifications for every 
position in the Office. Other federal agencies are looking to move from 
the GS schedule to this concept of broad banding, which allows greater 
flexibility in ``pay for performance'' models rather than simple 
graduated steps.

Policies and Procedures
    The Secretary, through HR, is updating and revising the Employee 
Handbook of the Office of the Secretary. With nuances in employment law 
and other advances, the policies are being reviewed, coordinated with 
counsel, revised and updated. An entirely new updated Employee Handbook 
will be available in 2006.

Employee Self-Service (ESS)
    HR has implemented use of the Employee Self-Service system (ESS) 
which is a secure system enabling Secretary staff to review and update 
personnel information pertaining to addresses, phone numbers and 
emergency contact information. Employees are now able to review and 
correct information to their electronic personnel records maintained by 
HR. Staff and managers can also access leave records and reports 
through this system. The ability to review and update this information 
is instrumental to maintaining accurate contact lists for emergencies 
or other contingencies.
    ESS is a useful communication method among a large staff. It is 
incumbent upon the department to find ways to solicit the feedback, 
suggestions and insight of staff in an effort to continually improve 
processes and procedures. One way we have incorporated this effort is 
in the ESS system. There is a ``suggestion box'' component to this 
service that allows staff to anonymously send a message to HR with a 
concern or suggestion, to be considered by HR and/or the Executive 
Office.

Recruitment and Retention of Staff
    HR has the ongoing task of advertising new vacancies or positions, 
screening applicants, interviewing candidates and assisting with all 
phases of the hiring process. HR will coordinate with the Sergeant at 
Arms HR to post all SAA and Secretary vacancies on the Senate intranet 
so that the larger Senate community may access the posting from their 
own offices.
    HR assists in advising on performance-related issues and meets with 
staff and supervisors to develop performance improvement plans. Such 
plans help in both the development of a productive staff member and in 
making disciplinary recommendations when necessary.

Outreach
    HR conducted the first Elder Care Fair that was made available to 
all Senate staff on October 24, 2005. The event provided an opportunity 
for staff to learn about and access local and nationwide services 
available to assist the elderly and those responsible for their care.
    Comprehensive resource manuals were created and distributed 
throughout the Senate and have been requested by specific offices, 
committees, and departments. The goal is to conduct an Elder Care Fair 
every other year.

Training
    In conjunction with the Senate Chief Counsel for Employment, HR 
works to prepare training for department heads and staff. Some of the 
training topics include Sexual Harassment, Interviewing Skills, 
Conducting Background Checks, Providing Feedback to Employees and Goal 
Setting.

Interns and Fellows
    HR coordinates both the Secretary's internship program and the 
Heinz Fellowship program. From advertising, conducting needs analyses, 
communicating, screening, placing and following up with all interns, HR 
keeps a close connection with the interns to make the internship most 
beneficial to them and the organization.

                         8. INFORMATION SYSTEMS

    The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the Sergeant at 
Arms (SAA), the Government Printing Office (GPO), and outside vendors 
on technical issues and joint projects. The Department provides 
computer related support for all LAN-based servers within the Office of 
the Secretary of the Senate. Information Systems staff provide direct 
application support for all software installed workstations, initiate 
and guide new technologies, and implement next generation hardware and 
software solutions.

Mission Evaluation
    The primary mission of the Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for all departments within the Office of the Secretary 
of the Senate. Emphasis is placed on the creation and transfer of 
legislation to outside departments and agencies, meeting Disbursing 
office financial responsibilities to the member offices, and office 
mandated and statutory obligations.

Staffing and Functionality
    No incremental staffing changes occurred in fiscal year 2005. The 
staffing level has remained unchanged since 1998, although functional 
responsibilities for support in other departments have expanded. 
Information System staff functionality was expanded by moving the IT 
structure from a local LAN support structure to an enterprise IT 
support process. Improved diagnostic practices were adopted to expand 
support across all Secretary Departments. Several departments, namely 
Disbursing, Chief Counsel for Employment, Office of Public Records, 
Page School, Senate Security, Stationery and Gift Shop previously 
employed dedicated information technology staff resident within the 
offices. Public Records, Stationery, and Gift Shop remote support was 
added in 2005. Information Systems personnel continue to provide a 
multi-tiered escalated hardware and software support for these offices.
    For information security reasons, departments have implemented 
isolated computer systems, unique applications, and isolated local area 
networks. The Secretary of the Senate network is a closed local area 
network to all offices within the Senate. Information Systems staff 
continue to provide a common level of hardware and software integration 
for these networks, and for the shared resources of interdepartmental 
networking. Information System staff continue to actively participate 
in all new project design and implementation within the Secretary of 
the Senate operations.

Improvements to the Secretary's LANs
    The Senate chose Windows NT as the standard network operating 
system in 1997. The continuing support strategy is to enhance existing 
hardware and software supports provided by the Information Systems 
Department, and augment that support with assistance from the SAA 
whenever required. The network supports approximately 300 users' 
accounts and patron accounts in the Capitol, the Senate Hart, Russell, 
and Dirksen Buildings, and the Page School. The total number of 
hardware servers retired in 2005 was 16.

Fiscal Year 2005 Summary Results
    The Active Directory and Messaging Architecture (ADMA) marks the 
first time that all Secretary IT equipment is operating in a pure 
client/server relationship. The IT infrastructure foundation is now 
positioned for scaleable and expanded growth in all Secretary offices.
    The ADMA project implementation provided a central point of IT 
system administration, and the opportunity to implement enterprise wide 
solutions, namely Outlook Web Access and remote messaging, offsite 
access to Webster, LIS, and newswire services.
    Improvements incorporated in the Amendment Tracking Project now 
provide submitted as well as proposed amendments scanned for all Member 
offices.
    Microsoft released 37 critical security updates for each 
workstation in 2005. Information System staff incorporated new 
techniques to test and deploy these updates to all systems. Coupled 
with a secure ``wake-up-on-LAN'' technology, workstations that are 
turned off can now securely powered up on the weekend, security updates 
installed, turned off, and ready for ``business as usual'' on Monday 
morning.

Active Directory and Message Infrastructure Project (ADMA)
    The Microsoft Outlook E-Mail client solution is referred to as the 
Messaging Architecture and the replacement of the existing Windows NT 
server installed base is referred to as the Active Directory project. 
The ADMA plan involved all staff employees and was integrated into one 
central Active Directory Secretary Enterprise in 2005. Each department 
(except the Disbursing Office and Chief Counsel for Employment) is now 
structured as an organizational unit within the new enterprise.
    In September 2005, phase one was completed, and phase two 
(Disbursing) was completed in December 2005.
    There are several benefits to the implementation of the ADMA:
  --All secure-id and Passface users have remote access to web-mail, 
        Congress.gov, CRS, and news wire services;
  --Access to web based services is available from all public and 
        private internet locations;
  --Centralized system administrative processes;
  --Higher level of active file sharing and improved collaboration 
        between different business functions; and
  --Higher levels of messaging functionality during COOP events.
    Clearly, the implementation of ADMA for the Secretary involved 
numerous resources on the part of both the Sergeant at Arms and the 
Secretary's offices. The importance of this single project provides the 
``base'' for all future IT related projects in the coming years.

Legislative Operation Upgrades
    The technical staff collaborated with the SAA application 
development software personnel to complete the transition of the 
Amendment Tracking System workflow process to a web-based solution. 
This redesign facilitates the scanning of submitted and proposed 
amendments for all Senate offices.

Stationery Room Renovation Procurement
    The Stationery Room awarded a contract to replace the existing 
hardware servers in August 2005. This process had not been updated in 
over ten years.
    An enhancement to the Stationery Room's services incorporated a 
Metro Subsidy system which allows Senate offices to request allotted 
subsidies in advance using a web-browser based connection. SAA provided 
the web-entry portal at PSQ, and the Secretary's office installed the 
necessary SQL database server at PSQ. Hardware servers maintained 
jointly by SAA and the Secretary were initiated in 2005 to provide this 
advance purchase request.

Curator Project Management Software
    In May 2004 a project requirement surfaced to provide the Curator's 
office with a method to create, edit, publish, and distribute 
information relative to numerous contracts and outside vendor projects. 
After evaluating these business requirements, the IT solution 
implemented now provides multi-user collaboration software to track and 
monitor these numerous projects.
    In parallel, working with SAA Research and Development, this 
solution was also deemed valuable to other Senate offices. 
Implementation of this package allows staff to communicate and share 
files regardless of location. A Senate wide rollout is expected in 
2005.

                     9. INTERPARLIAMENTARY SERVICES

    The Office of Interparliamentary Services (IPS) has completed its 
24th year of operation as a department of the Secretary of the Senate. 
IPS is responsible for administrative, financial, and protocol 
functions for all interparliamentary conferences in which the Senate 
participates by statute, for interparliamentary conferences in which 
the Senate participates on an ad hoc basis, and for special delegations 
authorized by the Majority and/or Minority Leaders. The office also 
provides appropriate assistance as requested by other Senate 
delegations.
    The statutory interparliamentary conferences are: NATO 
Parliamentary Assembly; Mexico-United States Interparliamentary Group; 
Canada-United States Interparliamentary Group; British-American 
Interparliamentary Group; United States-Russia Interparliamentary 
Group; and United States-China Interparliamentary Group.
    In June, the 44th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group was held in Rhode Island. Arrangements for 
this successful event were handled by the IPS staff.
    As in previous years, all foreign travel authorized by the 
Leadership is arranged by the IPS staff. In addition to delegation 
trips, IPS provided assistance to individual Senators and staff 
traveling overseas. Senators and staff authorized by committees for 
foreign travel continue to call upon this office for assistance with 
passports, visas, travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tempore, IPS staff also 
assists staff members of Senators and committees in completing the 
required reports.
    Interparliamentary Services maintains regular contact with the 
Office of the Chief of Protocol, Department of State, and with foreign 
embassy officials. Official foreign visitors are frequently received in 
this office and assistance is given to individuals as well as to groups 
by the IPS staff. The staff continues to work closely with other 
offices of the Secretary of the Senate and the Sergeant at Arms in 
arranging programs for foreign visitors. In addition, IPS is frequently 
consulted by individual Senators' offices on a broad range of protocol 
questions. Occasional questions come from state officials or the 
general public regarding Congressional protocol.
    On behalf of the Leadership, the staff arranges receptions in the 
Senate for Heads of State, Heads of Government, Heads of Parliaments, 
and parliamentary delegations. Required records of expenditures on 
behalf of foreign visitors under authority of Public Law 100-71 are 
maintained in the Office of Interparliamentary Services.
    Planning is underway for the 46th Annual Meeting of the Canada-U.S. 
Interparliamentary Group, which will be held in the United States in 
2006. Advance work, including site inspection, will be undertaken for 
the Mexico-U.S. Interparliamentary Group and British American 
Parliamentary Group meetings to be held in the United States in 2007. 
Preparations are also underway for the spring and fall sessions of the 
NATO Parliamentary Assembly.

                              10. LIBRARY

    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; and an extensive book collection on American 
politics, history, and biography. Other resources include a wide array 
of online systems used to provide nonpartisan, confidential, timely, 
and accurate information services to the Senate. The library also 
authors content for three websites: Legislative Information Service, 
Senate.gov, and Webster.

Notable Achievements
    Information inquiries increased 26 percent.
    LIS nomination records enhanced with links to 1,074 full-text 
hearings.
    Senate Support Facility opened, providing archival storage for 
library collections.
    Project undertaken to provide electronic access to the Senate 
Historical Office's 3,000-volume book collection.
    180 Senate staff were provided LIS instruction.

Information Services
    Legal, legislative, business, and general research are the primary 
components of the Senate Library's mission. The two categories of 
patron requests are traditional requests resulting from walk-ins, 
telephone calls, faxes, or e-mails, and requests directed to library-
produced web resources. As content providers to three websites--
Senate.gov, the Legislative Information System (LIS), and Webster--the 
library's work flow and procedures, staff skills, and information 
products have changed significantly and permanently. XML technology has 
significantly and positively impacted web work flow and work product. 
As a result, the library can meet the Senate community's ever-
increasing reliance on technology with accurate, pertinent, and current 
information in an even more timely and cost-effective manner. The 
response to the library's commitment to web initiatives was a 26 
percent increase in inquiries from the previous year. This marked the 
second consecutive year of double-digit increases.

                                       INFORMATION SERVICES TO THE SENATE
----------------------------------------------------------------------------------------------------------------
                                                 Traditional     Web
                      Year                        Inquiries   Inquiries    Total     Increase from Previous Year
----------------------------------------------------------------------------------------------------------------
2005...........................................      33,080     823,076    856,156  26 percent
2004...........................................      33,750     602,236    635,986  38 percent
2003...........................................      46,234     348,198    394,432  Baseline
----------------------------------------------------------------------------------------------------------------

    Most of the activities supporting research also reflected 
significant increases, including 4,015 information packages delivered 
(+23 percent) and 133,335 photocopies (+13.75 percent). The number of 
loaned books and documents increased 27 percent to 2,752 and 330 new 
borrowing accounts were established, bringing the total to 2,667. Other 
important contributors to the across-the-board increases were the 
October 2004 Senate-wide release of the library's online catalog, which 
recorded nearly 4,000 user visits, the interactive New Books List, and 
the new e-mail book ordering service. In addition, more than 4,400 
pages were produced from the library's extensive microform collection 
of newspapers, journals, and congressional documents.

Significant Projects
            Supreme Court Nominations
    A web-available history documenting the 158 Supreme Court 
nominations submitted to the Senate since 1789 was compiled and 
published. This unique web document features confirmation chronologies 
and embedded links to voting records, nominee biographies, and essays 
regarding special circumstances. The document has been published on 
Senate.gov, the Legislative Information System, and the Senate 
Library's Home Page on Webster.
    A related Supreme Court project provides web access to the text of 
confirmation hearings conducted since 1971 and Senate executive reports 
issued since 1993. These two categories of important documents were 
provided through collaboration with the Senate Judiciary Committee, 
Congressional Research Service (CRS), Government Printing Office (GPO), 
and Library of Congress Law Library.
            Senate Hearings on LIS
    The Legislative Information System nomination reports were enhanced 
with the addition of 886 Senate hearing numbers, the key to identifying 
a specific transcript in a library or at GPO.
    A related LIS project linked the hearing numbers to the full text 
of hearing transcripts at GPO Access. The June release of this new 
feature on LIS was followed by a November release on THOMAS. To date, 
this cooperative project between the Library of Congress and the Senate 
Library has established 1,074 full-text links to Senate committee 
hearings.
            Appropriations Legislation
    The library's popular Appropriations Legislation series documents 
the history of appropriations measures since fiscal year 1993. The 
histories were significantly improved with the addition of links to 
full-text transcripts of nearly 200 Senate Appropriations' hearings. An 
additional feature that links House hearing information to the web-
based library catalog is available to Senate staff through the 
library's Webster site. Simultaneous dynamic publishing to the 
histories on Webster, LIS, and Senate.gov was designed by the Web 
Technology Office and significantly improved editing procedures.
            Educational Services
    LIS Savvy classes, a new library outreach program, were introduced 
in March. The one-hour classroom sessions provided 180 Senate staff 
with expert LIS training from an experienced research librarian. In 
addition to the scheduled monthly sessions, six more classes, including 
a teleconference training session, were held to meet the demand. LIS 
Savvy classes complement the library's responsibility as the Senate's 
official Help Desk for commercial and legislative databases.
    In addition, 204 Senate staff attended library-sponsored seminars 
and events including Services of the Senate Library Seminars, the 
Senate Services Fair, Senate Page School tours, state staff 
orientations, and the annual National Library Week reception and book 
talk.
    During 2005, the library hosted 179 visitors from graduate schools, 
professional organizations, and federal libraries. The tours included 
Catholic University and University of North Carolina graduate students; 
library staff from the Supreme Court, Central Intelligence Agency, and 
Library of Congress; D.C. Special Library Association members; and 
participants in the annual GPO Depository Library Conference.

Technical Services
            Acquisitions
    The library received 11,988 (+2.5 percent) new acquisitions in 
2005. Of this number, 7,520 were congressional documents, 3,588 
executive branch publications, and the remaining 880 items were books 
related to politics, American history, or biography.
    As a participant in the Federal Depository Library Program (FDLP), 
the library receives selected categories of legislative, executive, and 
judicial branch publications from GPO. In 2005, the library acquired 
11,108 items through FDLP. The trend to electronically distribute 
government publications has significantly reduced the overall number of 
paper documents issued; GPO reports that 95 percent of government 
documents are now issued electronically. The library responded to this 
trend by hosting 16,938 electronic catalog links, the majority of which 
are to government documents.
    A major project is the ongoing title-by-title evaluation of 
executive branch publications. During the fifth year of the project, 
1,462 superseded or surplus items were withdrawn from the collection 
and 628 of these items were donated to requesting federal libraries. 
The project's final phase will improve organization and access by 
integrating the retained documents into the book collection. Toward 
this end, 379 documents were reclassified and merged into the larger 
primary collection.
            Cataloging
    The library's productive cataloging staff draws on years of 
experience to produce and maintain a catalog of more than 166,912 
bibliographic items. During the year, 10,385 items were added to the 
catalog including 5,179 new titles (+10 percent), and 5,689 items were 
withdrawn. A total of 28,928 maintenance transactions contributed to 
the catalog's content, currency, and record integrity. The library also 
contributed 664 personal names and congressional terms to the Name 
Authorities Cooperative program (NACO) at the Library of Congress. That 
number is exceptional and underscores cataloging skills and the very 
special nature of the Senate's collections. As an international 
authority, NACO's institutional participants create shared cataloging 
resources for the larger library community.
    Staff addressed the longstanding issue of tracking committee 
hearings. There is often a three to six-month period between the date a 
hearing is held and publication of the official transcript. To date, 
383 records have been created for yet-to-be published hearings. Senate 
staff and researchers are now able to identify both published and 
unpublished Senate hearings by searching the library catalog.
    Other cataloging projects included assisting the Senate Historical 
Office in providing electronic access to their 3,000 volume book 
collection. Once completed, the entire collection will be searchable 
through the library's online catalog. Since May, records for the first 
638 titles have been completed.
            Web-Based Catalog
    The library's online catalog, containing 166,912 bibliographic 
records, was released Senate-wide on October 25, 2004. During the first 
operational year, Senate staff searched the catalog on nearly 4,000 
occasions. The public catalog is updated nightly to guarantee that 
Senate staff will retrieve accurate and timely information on library 
holdings. The holdings for electronic journals and government-issued 
serials, including annual reports and recurring documents, were added 
to the catalog in 2005.
    A four-month beta test of the latest catalog upgrade was followed 
by a June installation of the new 3.3 version. The beta testing 
provided an opportunity to recommend search and display improvements. 
Catalog users will see enhanced full-text search capability with 
system-generated equivalent and substitute terms. For more precision, 
exact-match searching, which provides more focused results, is also 
available. The catalog improvements have significantly integrated the 
majority of library resources onto the Secretary's network.
    The library utilizes a statistical and analytical tool, to process 
raw data from the public catalog web server. This valuable management 
tool provides information on aggregate catalog usage and will result in 
improved design and service.
            Offsite Storage, Collection Maintenance, and Binding
    The Senate Support Facility was completed in December 2005 and will 
provide long-term, preservation-quality storage for library 
collections. The library's designated area in the warehouse provides 
storage for 56,000 volumes, and has on-site security, fire suppression, 
museum-standard humidity and temperature controls, air filtration, and 
telecommunications. A collection of 25,000 historic and rare 
congressional documents will be transferred to the SSF in 2006.
    Preservation of the library's 18th and 19th century collections 
resulted in several initiatives, including a volume-by-volume 
collection survey that will identify those titles requiring 
conservation, repair, or replacement. To prevent the growth of mold and 
mildew, routine monitoring ensures that strict temperature and humidity 
levels are maintained. To guarantee future availability and 
preservation, GPO bound 550 library volumes for the permanent 
collection.

Administrative
            Budget
    Budget reductions in 2005 totaled $2,544.32. Nine years of budget 
monitoring has resulted in reductions totaling $73,484.18. Continual 
review of purchases has eliminated materials not meeting the Senate's 
current information needs. This oversight is also critical in 
offsetting cost increases for core materials and for acquiring new 
materials. The goal is to provide the highest service level using the 
latest technologies and best resources in the most cost-effective 
manner.
            Continuity of Operations Plan (COOP)
    The addition of a laptop computer significantly improved the 
library's ability to meet COOP-related and special event 
responsibilities. With added remote access to the Senate.gov content 
management system (CMS), staff can efficiently update the floor 
schedule. To meet COOP requirements for an alternate work site, the 
library's warehouse location will provide staff areas, a core reference 
collection, and access to the Senate network and telecommunications 
systems.
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum, the Secretary's quarterly newsletter produced by Senate 
Library staff since October 1997, is an historical record of 
accomplishments, events, and personnel in the Office of the Secretary 
of the Senate. Three issues were published during 2005, including a 16-
page commemorative issue honoring the 200th anniversary of Constantino 
Brumidi's birth. In addition, Senate-wide access to each of the thirty-
seven issues was made available through Webster and the library's 
catalog.

Major Library Goals for 2006
    Relocate 25,000 volumes to the Senate Support Facility.
    Redesign the library's Webster site.
    Identify a COOP-designated reference collection for the Senate 
Support Facility.
    Continue the review and reclassification of executive branch 
materials.
    Add Senate hearing numbers to LIS status reports for the 1987-2000 
time period.
    Plan for server upgrades in preparation for future catalog 
requirements.

                                             SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2005--ACQUISITIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government Documents          Congressional Publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         21         65        234         86        206         19         48        342      1,000
February.............................................         22         51        208         44        276         13         81        242        915
March................................................         20         81        397        142        243         28         74        273      1,238
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         63        197        839        272        725         60        203        857      3,153
                                                      ==================================================================================================
April................................................         18         78        161         35        214         35         53        204        780
May..................................................         34         98        122         42        183         27         80        367        919
June.................................................         27        102        159        396        217         16         72        336      1,298
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         79        278        442        473        614         78        205        907      2,997
                                                      ==================================================================================================
July.................................................         50         61        170         51        249         21         65        292        909
August...............................................         21         75        120         78        276         25         58        324        956
September............................................         33         58        190        201        235         18        148        268      1,118
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................        104        194        480        330        760         64        271        884      2,983
                                                      ==================================================================================================
October..............................................         32         82        187         76        283         17         68        293      1,006
November.............................................         48         74        215         49        256         13         56        350      1,013
December.............................................         20         55        174         51        288         20         81        167        836
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................        100        211        576        176        827         50        205        810      2,855
                                                      ==================================================================================================
      2005 Total.....................................        346        880      2,337      1,251      2,926        252        884      3,458     11,988
      2004 Total.....................................        225        716      2,329        985      3,180        217      1,171      2,955     11,698
                                                      ==================================================================================================
Percent Change.......................................      53.78      22.91        .34      27.01      -7.99      16.13     -24.51      17.02       2.48
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                              SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2005--CATALOGING
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                        Bibliographic Records Cataloged
                                                          S.    ------------------------------------------------------------------------------
                                                       Hearing                    Government Documents           Congressional Publications      Total
                                                       Numbers             -------------------------------------------------------------------  Records
                                                       Added to    Books                                                              Docs./   Cataloged
                                                         LIS                  Paper      Fiche    Electronic   Hearings    Prints     Pubs./
                                                                                                                                     Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.............................................         42         22          6         17          13        353          4         51        466
February............................................         20         21          2          7           5        258          5         75        373
March...............................................        121         25         16          7           2        315          5        114        484
                                                     ---------------------------------------------------------------------------------------------------
      1st Quarter...................................        183         68         24         31          20        926         14        240      1,323
                                                     ===================================================================================================
April...............................................  .........         38         11          1           8        133          8        108        307
May.................................................         14         69          5  .........           7        239          6         88        414
June................................................         44        121          8          2           5        403          6         67        612
                                                     ---------------------------------------------------------------------------------------------------
      2nd Quarter...................................         58        228         24          3          20        775         20        263      1,333
                                                     ===================================================================================================
July................................................        647         47          2          2          17        197          2         42        309
August..............................................         81         30          6          7          21        158  .........        103        325
September...........................................         28         49          8          1           7        246          1         98        410
                                                     ---------------------------------------------------------------------------------------------------
      3rd Quarter...................................        756        126         16         10          45        601          3        243      1,044
                                                     ===================================================================================================
October.............................................         19         30          2          8           4        478  .........         49        571
November............................................         46         21          5          2          33        337  .........         64        462
December............................................         26         27         14          3           9        262          2        129        446
                                                     ---------------------------------------------------------------------------------------------------
      4th Quarter...................................         91         78         21         13          46      1,077          2        242      1,479
                                                     ===================================================================================================
      2005 Total....................................      1,088        500         85         57         131      3,379         39        988      5,179
      2004 Total....................................        240        425         51         41          37      3,329        164        662      4,709
                                                     ===================================================================================================
Percent Change......................................     353.33      17.65      66.67      39.02      254.05       1.50     -76.22      49.24       9.98
--------------------------------------------------------------------------------------------------------------------------------------------------------


                       SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2005--DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                     Volumes  Materials  Facsimiles   Center Pages      Pages
                                                     Loaned   Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January...........................................       213        333        119           534         5,874
February..........................................       220        271         79           234        10,258
March.............................................       254        384        143           479         8,567
                                                   -------------------------------------------------------------
      1st Quarter.................................       687        988        341         1,247        24,699
                                                   =============================================================
April.............................................       202        357         75           151        12,082
May...............................................       254        280         36           401         9,886
June..............................................       225        366         73           413        11,183
                                                   -------------------------------------------------------------
      2nd Quarter.................................       681      1,003        184           965        33,151
                                                   =============================================================
July..............................................       210        252        112           158         8,617
August............................................       359        633        111           550        10,268
September.........................................       216        317         70           320        13,095
                                                   -------------------------------------------------------------
      3rd Quarter.................................       785      1,202        293         1,028        31,980
                                                   =============================================================
October...........................................       207        317         76           374         8,986
November..........................................       225        273         38           414         8,894
December..........................................       167        232         69           378         5,625
                                                   -------------------------------------------------------------
      4th Quarter.................................       599        822        183         1,166        23,505
                                                   =============================================================
      2005 Total..................................     2,752      4,015      1,001         4,406       113,335
      2004 Total..................................     2,165      3,265      1,904         4,522        99,636
                                                   =============================================================
Percent Change....................................     27.11      22.97     -47.43         -2.57         13.75
----------------------------------------------------------------------------------------------------------------

                         11. SENATE PAGE SCHOOL

    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the nation's capital, within the 
limits of the constraints imposed by the work situation.

Summary of Accomplishments
    Accreditation by the Middle States Commission on Secondary Schools 
continues until December 31, 2008.
    Two page classes successfully completed their semester curriculum. 
Closing ceremonies were conducted on June 10, 2005, and January 20, 
2006, the last day of school for each semester.
    Orientation and course scheduling for the Spring 2005 and Fall 2005 
pages were successfully completed. Needs of incoming students 
determined the semester schedules.
    Extended educational experiences were provided to pages. Twenty-one 
field trips, five guest speakers, opportunities to compete in writing 
and speaking contests, to play musical instruments and vocalize, and to 
continue foreign language study with the aid of tutors of four 
languages were all afforded pages. Six field trips to educational sites 
and three speakers were provided for summer pages as an extension of 
the page experience. National tests were administered for qualification 
in scholarship programs as well.
    Effective and efficient communication and coordination among the 
Sergeant at Arms, Secretary, Party Secretaries, Page Program, and Page 
School continues.
    The evacuation plan and COOP have been reviewed and updated. Pages 
and staff continue to practice evacuating to primary and secondary 
sites.
    The community service project embraced by pages and staff in 2002 
continues. Items for gift packages were collected, assembled, and 
shipped to military personnel in Afghanistan and Iraq. The pages 
included letters of support to the troops participating in Operation 
Enduring Freedom. Several recipients of gift packages wrote letters to 
the pages expressing their appreciation.
    Staff and pages participated in escape hood training.
    Tutors were trained in evacuation procedures.
    Updated materials and equipment were purchased. These included five 
Titanium calculators, supplemental English textbooks, pre-calculus 
textbooks, and political science and American government texts.
    Faculty have pursued learning opportunities. One participated in 
the Veterans History Project workshop at the Library of Congress; 
another attended an AP Physics workshop, a Hazard Communications 
seminar, the T3 International conference, and a PASCO workshop; and a 
third attended the National Council of Teachers of Mathematics 
convention as well as the T3 International Conference and completed two 
courses in his doctoral program.
    All sinks in the science lab have been retrofitted with aspirators.

Summary of Plans
    Our goals include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered.
  --Foreign language tutors will provide instruction in French, 
        Spanish, German, Latin, and Japanese.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum.
  --Staff development options will include attendance at a technology 
        conference, seminars conducted by Education and Training, and 
        subject matter conferences conducted by national organizations.
  --The community service project will continue.

                   12. PRINTING AND DOCUMENT SERVICES

    The Office of Printing and Document Services (OPDS) serves as the 
liaison to the Government Printing Office (GPO) for the Senate's 
official printing, ensuring that all Senate printing is in compliance 
with Title 44, U.S. Code as it relates to Senate documents, hearings, 
committee prints and other official publications. The office assists 
the Senate by coordinating, scheduling, delivering and preparing Senate 
legislation, hearings, documents, committee prints and miscellaneous 
publications for printing, and provides printed copies of all 
legislation and public laws to the Senate and the public. In addition, 
the office assigns publication numbers to all hearings, committee 
prints, documents and other publications; orders all blank paper, 
envelopes and letterhead for the Senate; and prepares page counts of 
all Senate hearings in order to compensate commercial reporting 
companies for the preparation of hearings.

Printing Services
    During fiscal year 2005, the OPDS prepared 4,439 printing and 
binding requisitions authorizing the GPO to print and bind the Senate's 
work, exclusive of legislation and the Congressional Record. Since the 
requisitioning done by the OPDS is central to the Senate's printing, 
the office is uniquely suited to perform invoice and bid reviewing 
responsibilities for Senate printing. As a result of this office's cost 
accounting duties, OPDS is able to review and assure accurate GPO 
invoicing as well as play an active role in helping to provide the best 
possible bidding scenario for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. The office's 
online blank paper ordering system, implemented in 2003, continues to 
be a popular option for Senate staff. The OPDS also coordinates a 
number of publications for other Senate offices, such as the Curator, 
Historical Office, Disbursing, Legislative Clerk, and Senate Library in 
addition to the U.S. Botanic Garden, U.S. Capitol Police and Architect 
of the Capitol. These tasks include providing guidance for design, 
paper selection, specifications for quotations, monitoring print 
quality and distribution. Last year's major printing projects included 
the Report of the Secretary of the Senate and the Semiannual Report of 
the Architect of the Capitol. Current major projects for the office 
include a full color version of the ``History of the U.S. Botanic 
Garden 1861-1991'', ``Headlines in Senate History'' a compilation 
prepared by the Senate Historical Office, and the ``U.S. Senate 
Catalogue of Graphic Art'' a companion volume to the fine art 
catalogue.

Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings. The OPDS processes billing verifications for 
these transcription services ensuring that costs billed to the Senate 
are accurate. During 2005, OPDS provided commercial reporting companies 
and corresponding Senate committees a total of 949 billing 
verifications of Senate hearings and business meetings, a 20 percent 
increase over the previous year. Over 66,000 transcribed pages were 
processed at a total billing cost of over $426,000.
    The OPDS utilizes a program developed in conjunction with the 
Sergeant at Arms Computer Division that provides more billing accuracy 
and greater information gathering capacity, and adheres to the 
guidelines established by the Senate Committee on Rules and 
Administration for commercial reporting companies to bill the Senate 
for transcription services. During 2005 the office continued processing 
all file transfers between committees and reporting companies 
electronically, ensuring efficiency and accuracy. Department staff 
continues training to apply today's expanding digital technology to 
improve performance and services.

                                  HEARING TRANSCRIPT AND BILLING VERIFICATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                                  Percent change
                                                       2003            2004            2005          2005/2004
----------------------------------------------------------------------------------------------------------------
Billing Verifications...........................             975             787             949          + 20.6
Average per Committee...........................            51.3            41.4            49.9          + 20.6
Total Transcribed Pages.........................          70,532          56,262          66,597          + 18.4
Average Pages/Committee.........................           3,712           2,961           3,505          + 18.4
Transcribed Pages Cost..........................        $461,807        $366,904        $426,815          + 16.3
Average Cost/Committee..........................         $24,288         $19,311         $22,463          + 16.3
----------------------------------------------------------------------------------------------------------------

    Additionally, the Service Center within the OPDS is staffed by 
experienced GPO detailees that provide Senate committees and the 
Secretary of the Senate's office with complete publishing services for 
hearings, committee prints, and the preparation of the Congressional 
Record. These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
as committees have been able to decrease or eliminate additional 
overtime costs associated with the preparation of hearings.

Document Services
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and the GPO. This 
section ensures that the most current version of all material is 
available, and that sufficient quantities are available to meet 
projected demands. The Congressional Record, a printed record of Senate 
and House floor proceedings, Extension of Remarks, Daily Digest and 
miscellaneous pages, is one of the many printed documents provided by 
the office on a daily basis. In addition to the Congressional Record, 
the office processed and distributed 9,984 distinct legislative items 
in 2005, including Senate and House bills, resolutions, committee and 
conference reports and executive documents.

                                         CONGRESSIONAL RECORD STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                                       2003            2004            2005
----------------------------------------------------------------------------------------------------------------
Pages Printed:
    For the Senate..............................................          16,835          12,642          16,393
    For the House...............................................          16,259          14,243          18,394
                                                                 -----------------------------------------------
      Total Pages Printed.......................................          33,094          26,885          34,787
                                                                 ===============================================
Copies Printed and Distributed:
    To the Senate...............................................         307,917         227,192         295,366
    To the House................................................         441,735         331,165         397,327
    To the Executive Branch and the Public......................         449,750         323,957         356,770
                                                                 -----------------------------------------------
      Total Copies Printed and Distributed......................       1,199,402         882,314       1,049,463
                                                                 ===============================================
Production Costs:
    Senate Costs................................................      $9,886,805      $7,961,741      $6,640,823
    House Costs.................................................      $9,563,592      $9,026,893      $8,933,244
    Other Costs.................................................        $693,141        $555,010        $440,639
                                                                 -----------------------------------------------
      Total Production Costs....................................     $20,143,538     $17,543,644     $16,014,706
----------------------------------------------------------------------------------------------------------------

    Although accessing legislative documents through the World Wide Web 
is popular, there is still a strong need for printed documents. The 
OPDS continually tracks demand for all classifications of Congressional 
legislation and twice yearly adjusts the number of documents ordered in 
each category to closely match demand. As a result, document waste has 
decreased significantly over the past several years.

Customer Service
    The primary responsibility of the OPDS is to provide services to 
the Senate. However, the office also has a responsibility to the 
general public, the press, and other government agencies. Requests for 
legislative material are received at the walk-in counter, through the 
mail, by fax, and electronically. In 2005, ordering of legislative 
documents on-line increased by 260 percent. The Legislative Hot List 
Link, where Members and staff can confirm arrival of printed copies of 
the most sought after legislative documents, is popular. The site is 
updated several times daily each time new documents arrive from GPO to 
the Document Room. In addition, the office handled thousands of phone 
calls pertaining to the Senate's official printing, document requests 
and legislative questions. Recorded messages, fax, and e-mail operate 
around the clock and are processed as they are received in addition to 
mail requests. The office stresses prompt, courteous and accurate 
answers to Senate and public requests.

                                  SUMMARY OF ANNUAL CUSTOMER SERVICE STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                           Congress/    Public      FAX      On-line    Counter
                           Year                             session      mail     request    request    request
----------------------------------------------------------------------------------------------------------------
2003.....................................................    108/1st      1,469      2,596        735     53,040
2004.....................................................    108/2nd      1,137      2,229        564     36,780
2005.....................................................    109/1st      1,369      2,326      1,464     40,105
----------------------------------------------------------------------------------------------------------------

On-Demand Publication
    The office produces additional copies of legislation as needed in 
the DocuTech Service Center which is staffed by experienced GPO 
detailees. On-demand printing and binding of bills and reports is 
provided to Member offices and Senate committees. In March 2004, the 
office coordinated the installation of a new, improved DocuTech high-
speed digital copier and production publisher. This machine decreases 
the quantities of documents printed directly from GPO and increases the 
ability to reprint documents on-demand on a larger scale. The DocuTech 
is networked with GPO allowing print files to be sent back and forth 
electronically. It also provides the advantage of quickly printing 
necessary legislation for the Senate floor and other offices in the 
event of a GPO COOP situation. During 2005, the DocuTech Center 
produced 530 tasks for a total of 891,871 printed pages, a 35 percent 
increase over the previous year.

Accomplishments and Future Goals
    The OPDS experienced an increased volume of business during 2005. 
Staff members attended both technical and management continuing 
education courses, always working toward the goal of providing 
customers, the Senate community and the public, with prompt and 
accurate service. Future goals include working with the GPO on 
improving job flow procedures. This includes sending customers 
electronic proofs for print jobs, as well as developing new database 
reports on serial set publications for the Senate Library and inventory 
tracking of materials housed in the new Senate Materials Facility. The 
Office of Printing and Document Services continues to seek new ways to 
use technology to assist Members and staff with added services and 
improved access to information.

                      13. OFFICE OF PUBLIC RECORDS

    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
Filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and reproduction of 
these documents. From October 2004, through September 2005, the Public 
Records office staff assisted more than 2,200 individuals seeking 
information from reports filed with the office. This figure does not 
include assistance provided by telephone, nor assistance given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995. A total of 102,977 photocopies were sold in the 
period. In addition, the office works closely with the Federal Election 
Commission, the Senate Select Committee on Ethics and the Clerk of the 
U.S. House of Representatives concerning the filing requirements of the 
aforementioned Acts and Senate rules.

Fiscal Year 2005 Accomplishments
    The office developed on-site scanning redundancy with other offices 
under the Office of the Secretary. The office also modernized the on-
site public access software.

Automation Activities
    During fiscal year 2005, the Senate Office of Public Records 
developed the capacity to be able to scan time-sensitive documents in 
the event of a breakdown of the principal scanner.

Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file quarterly reports in a 
non-election year. Filings totaled 4,447 documents containing 278,264 
pages.

Lobbying Disclosure Act of 1995
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2005, 6,485 registrants represented 20,099 
clients and employed 32,890 individuals who met the statutory 
definition of ``lobbyist.'' The total number of lobbying registrations 
and reports processed was 49,401.

Public Financial Disclosure
     The filing date for Public Financial Disclosure Reports was May 
16, 2005. The reports were available to the public and press by 
Tuesday, June 14th. Copies were provided to the Select Committee on 
Ethics and the appropriate State officials. A total of 2,900 reports 
and amendments was filed containing 15,878 pages. There were 301 
requests to review or receive copies of the documents.

Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records has received over 1,691 reports 
during fiscal year 2005.

Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 558.

                          14. SENATE SECURITY

    The Office of Senate Security (OSS) was established under the 
Secretary of the Senate by Senate Resolution 243 (100th Congress, 1st 
Session). The Office is responsible for the administration of 
classified information programs in Senate offices and committees. In 
addition, OSS serves as the Senate's liaison to the Executive Branch in 
matters relating to the security of classified information in the 
Senate. This report covers the period from January 1, 2005 through 
December 31, 2005.

Personnel Security
    Four hundred eighty-five Senate employees held one or more security 
clearances at the end of 2005. This number does not include clearances 
for employees of the Architect of the Capitol or for Congressional 
Fellows assigned to Senate offices. OSS also processes these 
clearances.
    OSS processed 2,361 personnel security actions in 2005, a 24 
percent increase from 2004. One hundred-seven investigations for new 
security clearances were initiated last year, and 58 security 
clearances were transferred from other agencies. Senate regulations, as 
well as some Executive Branch regulations, require that individuals 
granted Top Secret security clearances be reinvestigated at least every 
five years. Staff holding Secret security clearances are reinvestigated 
every ten years. During the past 12 months, reinvestigations were 
initiated on 70 Senate employees. OSS processed 218 routine 
terminations of security clearances during the reporting period and 
transmitted 339 outgoing visit requests. The remainder of the personnel 
security actions consisted of updating access authorizations and 
compartments.
    Overall, the average time required by the Department of Defense 
(DOD) and Federal Bureau of Investigation (FBI) for processing security 
clearances (by means of investigation and adjudication) has increased 
from 260 days to 332 days. The average time for investigations has 
increased by 27.7 percent relative to 2004. Since the previous 
increases for 2002 to 2003 was 66.7 percent and 2003 to 2004 was 25.6 
percent, this represents a very significant increase in the last two 
years. The average time for an initial investigation conducted and 
adjudicated by the DOD is 305 days from the date that OSS requests the 
investigation until the letter from DOD granting the clearance is 
received in Senate Security. The average time for DOD initial 
investigations increased 19.1 percent.
    The periodic reinvestigation process averages 385 days, an increase 
of 42.6 percent relative to 2004. The average time for an initial 
investigation conducted by the FBI and adjudicated by DOD is 256 days, 
while the periodic reinvestigation process averages 447 days. The FBI 
investigation with DOD adjudication times represents an increase of 1.6 
percent and 69.3 percent respectively.
    Two hundred thirty-nine records checks were conducted at the 
request of the FBI, ATF and OPM. One record check each was performed on 
behalf of OPM and ATF. The remaining checks were performed for FBI. 
This represents a 15.5 percent increase in records checks completed by 
OSS.

Security Awareness
    OSS conducted or hosted 75 security briefings for Senate staff. 
Topics included: information security, counterintelligence, foreign 
travel, security managers' responsibilities, office security 
management, and introductory security briefings. This represents a 2 
percent increase from 2004.

Document Control
    OSS received or generated 2,792 classified documents consisting of 
90,217 pages during calendar year 2005. This is a 0.4 percent decrease 
in the number of documents received or generated in 2004. Additionally, 
67,899 pages from 4,082 classified documents no longer required for the 
conduct of official Senate business were destroyed. This represents a 
52.9 percent increase in destruction. OSS transferred 700 documents 
consisting of 26,625 pages to Senate offices or external agencies, down 
40.9 percent from 2004. These figures do not include classified 
documents received directly by the Appropriations Committee, Armed 
Services Committee, Foreign Relations Committee, and Select Committee 
on Intelligence, in accordance with agreements between OSS and those 
committees. Overall, Senate Security completed 7,575 document 
transactions and handled over 184,742 pages of classified material in 
2005, an increase of 40.9 percent.
    Secure storage of classified material in the OSS vault was provided 
for 107 Senators, committees, and support offices. This arrangement 
minimizes the number of storage areas throughout the Capitol and Senate 
office buildings, thereby affording greater security for classified 
material.

Secure Meeting Facilities
    OSS secure conference facilities were utilized on 919 occasions 
during 2005. Use of OSS conference facilities decreased 19.7 percent 
from 2004 levels. Five hundred forty-six meetings, briefings, or 
hearings were conducted in OSS' three conference rooms. Of those, 
twelve were ``All Senators'' briefings and six were hearings. OSS also 
provided to Senators and staff secure telephones, secure computers, 
secure facsimile machine, and secure areas for reading and production 
of classified material on 373 occasions in 2005.

                          15. STATIONERY ROOM

    The mission of the Keeper of the Stationery is:
  --To sell stationery items for use by Senate offices and other 
        authorized legislative organizations.
  --To select a variety of stationery items to meet the needs of the 
        Senate environment on a day-to-day basis and maintain a 
        sufficient inventory of these items.
  --To purchase supplies utilizing open market procurement, competitive 
        bid and/or GSA Federal Supply Schedules.
  --To maintain individual official stationery expense accounts for 
        Senators, Committees, and Officers of the Senate.
  --To render monthly expense statements.
  --To insure receipt of reimbursements for all purchases by the client 
        base via direct payments or through the certification process.
  --To make payments to all vendors of record for supplies and services 
        in a timely manner and certify receipt of all supplies and 
        services.
  --To provide delivery of all purchased supplies to the requesting 
        offices.

------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
                                               2005            2004
                                            Statistics      Statistics
------------------------------------------------------------------------
Gross Sales.............................      $5,247,163      $4,740,221
Sales Transactions......................          60,247          58,682
Purchase Orders Issued..................           8,611           6,741
Vouchers Processed......................           9,206           7,485
Mass Transit Media Sold.................          75,607          67,836
    $20.00..............................          64,527          60,564
    $10.00..............................           3,923           3,923
    $5.00...............................           7,157           3,148
                                         ===============================
Time Employees (FTE)....................              13              13
------------------------------------------------------------------------

Fiscal Year 2005 Highlights and Projects
    Flag Purchase Modernization Project.--During fiscal year 2005, with 
the assistance of the Architect of the Capitol and the Senate Sergeant 
at Arms, the Stationery Room embarked on a program to develop a method 
in which Member offices could purchase flags which had been flown over 
the Capitol, but were not date or occasion specific. Research revealed 
that approximately 37 percent of all flag requests by constituents were 
only to obtain a flag flown over the Capitol. It was reasoned that if 
flags could be flown in advance, significant wait times could be 
reduced. Thus, the Senate Sergeant at Arms PG&DM Division created 
artwork for a generic customizable flag certificate, along with a CD 
template that could be used in the customization process. All flags 
which have been pre-flown come with a Certificate of Authenticity 
signed by the Architect, certifying each flag has been flown over the 
United States Capitol. Currently this program is in use by a pilot 
group of Member offices.
    Senate Service Award Project.--At the end of fiscal year 2004, 
authorization was granted to proceed in the development of a program to 
recognize Senate staff who have completed twenty and thirty years of 
Senate service. Working closely with the Committee on Rules and 
Administration, the Senate Disbursing Office and Stationery Room 
vendors, a new Service Award Certificate was developed. This project 
resulted in the presentation of approximately 540 certificates to staff 
members who were employed in the Senate as of September 2004.
    Mass Transit Subsidy Electronic Submissions.--This project came to 
fruition with a fully functional application developed in-house by the 
Senate Sergeant at Arms Information and Technology's Research and 
Development team. This application allows users to submit their 
requests for Mass Transit media via a web-based solution. Once 
submitted, the request is filled by Stationery Room staff and 
notification is made to the requesting office that their media is 
ready. The Senate currently has 120 offices participating in the Mass 
Transit Subsidy Program of which 97 offices are submitting requests 
electronically.
    Senate Support Facility.--A new off-site facility affords the 
Stationery Room a 1,800 square foot secure work area along with an 
additional pallet storage area which will accommodate 190 pallets of 
merchandise. Stationery Room staff is also working on logistical and 
additional usage functions in this modern facility as a tenant user, 
including the ability to use the assigned space as a distribution 
center for product.
    Computer Modernization.--For over two years, the Stationery Room 
has worked to achieve modernization of its aged computer system. These 
efforts culminated in the ``rollout'' on August 4, 2005 of a new, state 
of the art sequel-based retail point of sale and accounting system. The 
base product installation will allow the Stationery Room to manage its 
inventory by location; provide account holders with detailed monthly 
transaction information; eliminate paper transaction storage with 
information stored for retrieval from the system on demand, and a host 
of other features that new technology now provides.

                           16. WEB TECHNOLOGY

    The Office of Web Technology is responsible for web sites that fall 
under the purview of the Secretary of the Senate, including: the Senate 
website, www.senate.gov (except individual Senator and Committee 
pages); the Secretary website on Webster; an intranet site currently 
used for file-sharing by Secretary staff only; and a LegBranch web 
server housing web sites and project materials which can be accessed by 
staff at other Legislative Branch agencies.
The Senate Web site (www.senate.gov)
    The United States Senate Web site celebrated its 10 year 
anniversary in 2005. The first U.S. Senate home page on the World Wide 
Web was announced October 20, 1995 on the Senate floor. From the Senate 
homepage members of the public could easily find the homepages for 
their own Senators. As the World Wide Web grew, so did the content and 
mission of Senate.gov. The pages of information became catalogs and 
databases, but the mission to provide the public with accurate and 
timely information remained constant.
    The second Senate home page, introduced in January 1997, provided a 
graphical interface, a virtual tour of the Capitol, access to Senate 
committee pages, and improved access to legislative data. Information 
about institutional procedures, history, and statistical records were 
also new to the site.
    Senate floor and committee schedule information was provided when 
the 106th Congress convened and the third home page was launched on 
January 6, 1999. The site received a Federal Design Award, issued by 
the National Endowment for the Arts and the General Services 
Administration. The award recognized the site for ``humaniz[ing] the 
venerable institution of the Senate by making its everyday activities 
and rich history readily accessible to the public.''
    The Senate's fourth home page was launched in October 2002 and 
included the functionality of a powerful, behind-the-scenes content 
management system. The previous web sites were maintained by a small 
team of 5 staff who knew HTML and could code content for display in web 
browsers. This new system allowed non-technical subject experts to post 
information to the Web site, greatly increasing the amount of relevant 
information available to the public. Over 30 contributors from eleven 
departments in the offices of the Secretary and the Sergeant at Arms 
now publish text and images on the Web site.
    In 2005 the newest graphical interface was designed for 
www.senate.gov, bringing more content to the front page, and providing 
access to Senators' websites from every page on the site. To help 
visitors find information, links to popular features were added to the 
homepage and a new site-wide search, available from every page, was 
introduced.
    The SAA conducted a feasibility study to evaluate the search 
appliance to see if it is compatible with the Senate environment. 
Secretary staff did extensive testing during the evaluation period and 
determined that the new search would work for senate.gov. This 
department also participated in developing the custom tag for use by 
Senate offices who want to put a search feature on their own web pages 
to search only their own web site content.
    There were more than 50 million visitors to the Senate website in 
2005--five times more than the estimated 8 million visitors in 2001. 
The latest changes and additions to the Senate Web site will greatly 
assist these visitors in connecting with their Senators and in finding 
the information they seek.

Senate.gov Web Development Projects
    Web Technology staff worked with content providers to create 
several special features for the Senate website:
            The Political Cartoons of Puck Exhibit
    Puck, a satirical weekly magazine that parodied the American 
political scene was one of the most popular periodicals of the late 
19th century. The new Puck Exhibit on senate.gov includes slideshows of 
Puck cartoons and ``Take the Puck Challenge,'' an innovative, 
interactive series of riddles designed to give readers insight to the 
political satire.
            Birds of the Brumidi Corridors Exhibit
    Constantino Brumidi included designs for more than 350 individual 
birds of at least 100 species in his paintings in the Senate corridors. 
A new exhibit on senate.gov features these paintings of birds in 
several slideshow presentations.
            World War II: The Senate and the Nation's Capitol
    This slideshow photo exhibit focuses on the Senate and the role it 
played in supporting the war effort and its aftermath and honors the 
brave men and women of World War II who sacrificed so much to preserve 
the ideals of liberty and representative democracy.

              LEGISLATIVE INFORMATION SYSTEM (LIS) PROJECT

    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act (2 U.S.C. 181) also established a program for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a standard system for 
the authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project.

Background: LISAP
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information.
    Following the implementation of the Legislative Information System 
(LIS) in January 2000, the LIS Project Office shifted its focus to the 
data standards program and established the LIS Augmentation Project 
(LISAP). The over-arching goal of the LISAP is to provide a Senate-wide 
implementation and transition to XML for the authoring and exchange of 
legislative documents.
    The current focus for the LISAP is the development and 
implementation of an XML authoring system for legislative documents 
produced by the Office of the Senate Legislative Counsel (SLC) and the 
Office of the Enrolling Clerk. The XML authoring application is called 
LEXA, an acronym for the Legislative Editing in XML Application. LEXA 
features many automated functions that provide a more efficient and 
consistent document authoring process. The LIS Project Office has 
worked very closely with the SLC to create an application that meets 
the needs for legislative drafting.

LISAP: 2005
    The SLC began using LEXA to draft legislation in early 2004. The 
SLC offered valuable feedback throughout that year on LEXA's continued 
development as new features were added and additional document types, 
such as amendments and reported bills, were added. Just prior to the 
beginning of the 109th Congress, the LIS Project Office provided a one-
day training course on several new and enhanced features of LEXA, and 
the SLC began 2005 creating 60 percent of their drafts of introduced 
bills and resolutions in XML. By the end of the session, 80 percent of 
all introduced and reported bills and resolutions (and countless 
amendments) had been created in XML. Several very large drafts were 
created in XML, including the energy bill and the highway bill. 
Feedback and development continued throughout 2005. Additional features 
and document types--conference reports, constitutional amendments, and 
engrossed and enrolled bills--were added to LEXA. LEXA's authoring 
environment offers many automated document creation functions, 
providing a faster, more consistent drafting process.
    As LEXA becomes more widely used in the SLC and other offices, 
support of the application becomes increasingly important. The 2004 
Legislative Branch Appropriations Act directed the Government Printing 
Office (GPO) to provide support for LEXA. GPO took over maintenance and 
support of the software module that converts a Senate XML document to 
locator for printing through Microcomp, and is now updating the 
software to print House XML documents. GPO is also working to solve 
problems with the software that creates and prints tables, and that 
table tool will be replaced with a more robust one sometime in 2006.
    The LIS Project Office worked closely with several key House, GPO, 
and Library of Congress groups involved in the XML project to ensure 
that the House and Senate XML authoring applications produce compatible 
electronic and printed documents that may be exchanged among the 
organizations processing the documents. The groups held several 
meetings in August and agreed to use the same tools to create tables 
and print XML documents through Microcomp. The House and Senate 
software development groups also reached agreement on several technical 
authoring issues and standards, thereby eliminating the need for 
additional processing when a document is exchanged between the House 
and the Senate.
    The project to convert the compilations of current law to an XML 
format was completed in early September. Staff in the House and Senate 
Legislative Counsel Offices update the compilations, and both groups 
participated in the project. The compilations are used as the basis for 
many legislative drafts and having the XML data will make it easier for 
both offices to use the text of compilations for drafting legislation 
in XML.
    The LIS Project Office provides support for LEXA via the LEXA 
HelpLine and LEXA website. The HelpLine is provided through a single 
phone number that rings on all the phones in the office, and the 
website is located on a server accessible by the legislative branch. 
The website, legbranch.senate.gov/lis/lexa, is used to distribute 
updates of the application to GPO and provides access to release notes, 
the reference manual, and other user aids. The Office continued to 
update the LEXA Reference Manual as new features were added to LEXA. 
The manual provides screen shots and step-by-step instructions for all 
LEXA features. The Office also trained new SLC staff and the Enrolling 
Clerks on LEXA and provided several demonstrations on new LEXA features 
throughout the year.
    The document management system (DMS) for the SLC will be 
implemented once the SLC has completed the transition from XyWrite to 
LEXA. The Systems Development Services group of the Office of the 
Sergeant at Arms continues to update the DMS to the most recent 
releases of Documentum and verifies that all SLC requirements will be 
met. The Systems Development Services group provides support and 
maintenance for the LIS/DMS, and that group will also support the DMS 
for the SLC once it is deployed. The LIS Project Office has been 
monitoring the upgrade effort and will contract for transition training 
to be developed and delivered prior to implementation. The DMS will be 
integrated with LEXA and will provide a powerful tracking, management, 
and delivery tool.

LISAP: 2006
    The Office of the Enrolling Clerk will begin to use LEXA to produce 
engrossed and enrolled bills in XML from the XML versions of introduced 
and reported bills. The Legislative Branch XML Technical Committee will 
work together to develop the document type definitions for creating 
appropriations bills. Once the definitions are completed and validated, 
the LIS Project Office will enhance LEXA to add the ability to create 
appropriations language, starting first with appropriations amendments 
created by the SLC. Following that, we hope to begin discussions with 
the Appropriations committee staff that prepare the bills for printing.
    The LIS Project Office will continue to work with the SLC and the 
Office of the Enrolling Clerk to refine and enhance LEXA so that more 
and more of the documents produced by those offices will be done in 
XML. Once all of the documents can be produced in XML using LEXA, those 
offices will be able to stop using XyWrite. Since XyWrite is not 
compatible with other Windows software, moving away from it will allow 
the offices to use more modern technologies for all functions. For 
example, eliminating XyWrite will finally give the SLC the opportunity 
to implement a document management system and automate other office 
functions. Other Senate offices that do drafting with XyWrite may begin 
using LEXA, including the Committee on Appropriations. Thus far in the 
second session of the 109th Congress, approximately 96 percent of 
introduced bills and resolutions have been created as XML documents.
    The legislative process yields other types of documents such as the 
Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the Office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database and verified by 
the clerks and then keyed into the respective documents and reverified 
at GPO before printing. An interface between this database and the 
electronic documents could mutually exchange data. For example, the 
LIS/DMS database could insert the bill number, additional co-sponsors, 
and committee of referral into an introduced bill while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the Journals and Calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary DTDs have been designed for these documents, and 
applications could be built to construct XML document components by 
extracting and tagging the LIS/DMS data. These applications would 
provide a faster, more consistent assembly of these documents and would 
enhance the ability to index and search their contents. The LIS Project 
Office will coordinate with the Systems Development Services Branch of 
the Office of the Sergeant at Arms to begin design and development of 
XML applications and interfaces for the LIS/DMS and legislative 
documents. As more and more legislative data and documents are provided 
in XML formats that use common elements across all document types, the 
Library of Congress will be able to expand the LIS Retrieval System to 
provide more content-specific searches.

                      NEW TECHNOLOGY IN THE SENATE

    Senator Allard. Thank you for your leadership. Businesses 
and agencies have to make constant decisions about the 
technology that they use in their offices. You have shared with 
us some of the high tech services that you're providing to the 
public and to Members of the Senate. How does your office 
continue to take advantage of technological developments and 
incorporate them into your services provided to the Senate, 
when do you determine that the technology has ripened to the 
point where you can bring it in and not create a lot of 
problems? How do you make those kind of decisions?
    Ms. Reynolds. You know that's a great question, and the 
Sergeant at Arms is very much a partner with us in any 
technological development, as they, as you know better than I, 
certainly have the lead in this for the Senate. I think the 
pilot projects, I mentioned the flag project in particular, we 
have a number of pilots going with disbursing through our 
financial management information system. The best way for us to 
determine when something is ripe if you will, or ready for a 
roll out is because we've been through that pilot phase and 
we've worked directly with Senate offices to understand what 
works and what doesn't work, so they're invaluable to us in 
that feedback.
    But you're right, staying ahead of that curve, whether it's 
something small, like being able to book the LBJ room online, 
or order your paper online for your office through printing and 
documents to something as large as our Senate amendment 
tracking system, or our FMIS project with disbursing, we're 
constantly striving to serve this community better.
    And I also want to make one quick mention as well, on the 
website of a new addition that hopefully will be rolled out 
this year, because as I've said, keeping that website fresh, 
especially for the public, is important to us. And there should 
be one addition coming there on the Senate desks, which I think 
will be of enormous interest to you and your colleagues and 
also to the public. Actually going in and looking at each desk, 
explaining its history, talking about the conservation of the 
desk. So again, from simple things to large, and again 
remaining current for the public we're constantly striving to 
stay ahead of the curve if you will.

                      LOBBYING DISCLOSURE REPORTS

    Senator Allard. Very good. I'm going to move on to the 
Office of Public Records, which is under your jurisdiction as 
Office of the Secretary of the Senate. We're looking at 
lobbying reform, and it has the potential to increase filings 
by a considerable amount as I understand it. Could you give me 
an overview of that operation and tell me whether you have 
sufficient resources to implement a significant increase in 
filings?
    Ms. Reynolds. I really appreciate that question and 
obviously there's been a great deal of discussion here in these 
last few weeks alone. Our public records office has been in the 
business of receiving those lobbying disclosure reports now, 
for just over a decade, since the passage of the LDA. And as 
you well know we currently receive those filings twice a year, 
mid-February and again mid-August. I have a couple of 
statistics for you that are also in our written report. There 
are roughly 6,500 registrants who represent just over 20,000 
clients. They employ almost 33,000 individuals, so it's a big 
number. All told that means that our Office of Public Records, 
reviews about 45,000 documents a year.
    I'm also very proud that the lobbying community has been 
able to e-file with the Senate since the year 2000. And in fact 
since 2001, lobbying reports and registrations as far back as 
1998 have been posted on senate.gov for public access. Our role 
in public records with regard to the LDA is an administrative 
role. We do not have the enforcement authority. That belongs to 
the U.S. attorney of the District of Columbia. But since 2003 
we have referred approximately 2,100 registrants to the U.S. 
Attorney's Office. Virtually all potential nonfiling and a 
handful for noncompliance. I'm particularly grateful for the 
second part of your question, because obviously no one is 
precisely sure at the moment where this journey ultimately 
takes us. And while we're staying on top of the situation I may 
well be back to this subcommittee at the appropriate time to 
make a plea, first of all for time, because if there is 
substantial change that we undergo in the receipt of these 
documents we will need time to implement, and second of all the 
potential for additional resources exists.
    But I think with your permission if we could continue to 
stay in touch on this as this issue evolves we would be very 
grateful.
    Senator Allard. Yes. As we get a clearer view of what the 
legislation might look like, we do want to stay in touch with 
your office in that regard.
    Ms. Reynolds. Thank you, that would be very helpful.

                       STUDY OF SENATE STAFF PAY

    Senator Allard. I just have a couple of other brief 
questions just for the record. Last year your office received 
funds to conduct a pay study of Senate employees, and can you 
tell me what the status of this study is?
    Ms. Reynolds. The study is in draft form. In fact we were 
talking about working groups, we have a working group coming 
together this afternoon with office administrators and chiefs 
of staff to review our first draft. So it is in process, and 
hopefully we'll have the study out to the community here within 
the next month.
    Senator Allard. Good.
    Ms. Reynolds. I appreciate you asking the question too, if 
I might make one plea to those watching today. For the study to 
be effective and for it to produce the kind of results that the 
community is hoping for in terms of looking at hiring 
practices, benefits, salaries and so forth, we need as much 
participation as possible. So thanks for mentioning it today, 
so I can make my plea to our Senate offices to help us with 
this survey.

               FEDERAL ELECTION COMMISSION ONLINE FILING

    Senator Allard. And finally, if the Senate moves to online 
Federal Election Commission (FEC) filing, for campaign 
committees, what resources will your office need to make this 
conversion? Would you comment on that?
    Ms. Reynolds. Yes sir. Like most everything else around 
here, we're poised to act when the Senate acts, but I think on 
this one, just like with lobbying disclosure if there is 
substantial change coming our way, and if the Senate decides to 
move to e-filing, we will need time. A minimum of 6 months and 
possibly up to 1 year to be able to implement the program and 
there will be a need for additional resources. We're still 
looking at those numbers and some are dependent on what 
hardware, what software needs we'll have at that time. So again 
so I may be back hat in hand depending on those decisions made.
    Senator Allard. Your main demand would be for basically 
hardware to process the electronic filing?
    Ms. Reynolds. Right. Hardware----
    Senator Allard. But it seems to me you would need fewer 
people, because you wouldn't have to have that data entry that 
you have.
    Ms. Reynolds. Possibly, but we're a pretty lean and mean 
operation in public records right now. I think our total staff 
there right now, is nine. And for example on lobbying 
disclosures there are three people on a daily basis dedicated 
to lobbying disclosure but when those reports start to hit in 
mid-February, mid-August, everybody helps out. So we'd be happy 
to take a look at that, as I said, we run a pretty lean and 
mean shop with folks who are capable of multitasking when the 
need arises.
    Senator Allard. Just asking you to look at it carefully.
    Ms. Reynolds. We shall.
    Senator Allard. I'm sure you will.
    Ms. Reynolds. Thank you.
    Senator Allard. Thank you for your testimony. We don't have 
any other questions from the subcommittee, and so we won't tie 
up your time, I know you're busy and I'll call up the second 
panel.
    Ms. Reynolds. Thank you sir.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY:
        STEPHEN AYERS, CHIEF OPERATING OFFICER
        MARK WEISS, DIRECTOR, CAPITOL POWER PLANT

                           WELCOMING REMARKS

    Senator Allard. Okay. Now we turn to the second panel. And 
before I make my formal remarks. I just want to recognize Mark 
Weiss who's now our new Director of the Capitol Power Plant, 
and Mark, welcome. And now, we'll turn to the Architect of the 
Capitol, to review the fiscal year 2007 budget request. Again 
welcome Mr. Hantman and Chief Operating Officer Stephen Ayers. 
Mr. Ayers was named Chief Operating Officer on Monday.
    Mr. Ayers. Yes sir.
    Senator Allard. You've been in the position on an acting 
basis for several months and I think you did a good job then.
    Mr. Ayers. Thank you.

                    FISCAL YEAR 2007 BUDGET CONCERNS

    Senator Allard. We congratulate you on this new position 
and wish you the best of luck. The AOC budget request totals 
$588 million, an increase of $164 million or 38 percent, over 
the current budget. This is the largest increase proposed by 
any Federal agency for the fiscal year 2007. While I commend 
the process your agency has developed, you prioritized major 
construction projects, clearly we need to do some paring back. 
There are a number of large projects in the budget, including 
$54 million for a new Library of Congress warehouse at Fort 
Meade, $20.6 million to complete the Capitol Visitor Center, 
$19 million for renovations to the infrastructure and the 
Dirksen Senate Office Building, and $15.9 million to replace 
the fire alarm system in the Hart Senate Office Building. Other 
large increases in the budget include $20 million for 91 new 
employees for the CVC operation, and a $10 million increase for 
information technology projects.

                 SAFETY HAZARDS IN THE UTILITY TUNNELS

    While these projects may be meritorious, and urgently 
needed, we will need to scrub each of them carefully and only 
fund the very highest priorities. In addition to budget issues, 
we'd like to discuss the complaint recently filed by the Office 
of Compliance for AOC's failure to comply with the citation 
issued almost 6 years ago directing the AOC to correct serious 
safety hazards in the utility tunnels by 2002. This is the 
first time the Office of Compliance has issued a complaint, 
demonstrating the magnitude of this very serious problem. The 
hazards include structural deficiencies that could lead to 
cave-ins, inadequate communication systems for workers in the 
tunnels, and inadequate means of egress.
    Finally we look forward to an update on projects that are 
currently underway as well as your efforts to address 
management challenges identified by the Government 
Accountability Office. Before I turn to you for your testimony 
Mr. Hantman, I want to ask the ranking member who just arrived 
if he has any comments.
    Senator Durbin. Mr. Chairman I apologize, we have an 
immigration bill markup in Judiciary, one floor above and I've 
spent time back and forth, and I'm sorry that I came in late 
for this. I want to get into the whole question about the 
safety aspects of the workplace at CVC and particularly this 
troubling report about the presence of asbestos in the tunnels 
and the danger that it creates for the employees that could be 
inhaling these lethal time bombs. I was not aware of how 
serious this was, or how long it had been pending for a 
resolution. I think it should have been taken care of years 
ago. I don't know how many workers have been exposed, if any--I 
pray to God none. But if they have we've done them a great 
disservice. I thank you for your continuing oversight on this 
project and I will stay to ask some specific questions as time 
allows.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Thank you, Mr. Chairman, for scheduling today's second budget 
oversight hearing of fiscal year 2007 where we will hear testimony on 
the budget requests of the Secretary of the Senate and the Architect of 
the Capitol.
    I want to join the Chairman in welcoming today's witnesses, Emily 
Reynolds, Secretary of the Senate, and Alan Hantman, Architect of the 
Capitol.
    Thanks to both of you for attending this morning.
    Ms. Reynolds, welcome back to the subcommittee for your fourth year 
as Secretary of the Senate. I think that you and your staff are doing a 
superb job and your budget request looks very straightforward.
    My staff and I greatly appreciate your guidance and leadership in 
the CVC decision-making progress. I realize that this has been a long, 
difficult, and at times frustrating process. Your dedication and 
determination are very admirable.
    I would appreciate any comments you might wish to include with 
regard to the CVC.
    Mr. Hantman, first of all I would like to acknowledge the 
outstanding day to day work of all of your employees. I think it's easy 
to overlook the hard work that goes into the seamless running of this 
complex on a daily basis. This is a very well qualified and hard-
working group of men and women and I appreciate their contribution to 
this complex. I think we should all extend our gratitude to them for 
their service. I would like to especially thank Carlos Elias, Don 
White, Barbara Wolanin, and Adrienne Powers, of your staff for their 
extra efforts on behalf of my staff in the Assistant Democratic 
Leader's office.
    I would like to welcome Mr. Stephen Ayers, who has just been named 
as Chief Operating Officer at AOC. Mr. Ayers has been serving as Acting 
COO for quite some time and I'm glad to see that he will be serving in 
this capacity permanently.
    Mr. Hantman, I am encouraged by the overall progress your office is 
making in the area of worker safety. However I am deeply concerned 
about the situation involving the workers in the utility tunnels. The 
OSHA complaint recently filed by the Office of Compliance citing 
``potentially life threatening working conditions'' in the utility 
tunnels that provide steam and chilled water throughout the Capitol 
complex presents a situation that must be addressed immediately.
    This situation was first brought to your attention in 2000. 
However, since then, it appears that very little has been done to 
address the very serious problems that exist in these tunnels.
    I am particularly troubled by the presence of asbestos in the 
tunnels. I have met with so many families who have been affected by 
asbestos-related illnesses in my work outside of this subcommittee. 
When these workers are inhaling these fibers they are inhaling time 
bombs. I doubt the workers in these tunnels realize how serious this 
situation is.
    I hope you will update the Subcommittee on the steps you are taking 
to expedite the repair of these tunnels. Chairman Allard and I recently 
granted you the authority to reprogram $1.8 million for a portion of 
this work and I think that's a step in the right direction. But this 
situation must be completely resolved as soon as possible so that these 
workers' lives are not put in jeopardy by merely doing their jobs. 
Frankly, it should have been taken care of years ago.
    Last month in their report entitled, ``Architect of the Capitol--
Management Challenges Remain,''--GAO noted that you have still not 
filled several leadership positions on your staff such as Chief 
Financial Officer, Chief Administrative Officer, Director of 
Congressional and External Relations, and Director of Planning and 
Project Management. I am glad that you recently filled the long-vacant 
position of Director of the Capitol Power Plant. However, I hope you 
will explain to the subcommittee when you plan to fill these other 
crucial positions.
    Finally, Mr. Hantman, Chairman Allard has already summarized your 
fiscal year 2007 budget request so I won't repeat the details. I do 
want to emphasize, however, the importance of prioritizing your 
requests. It troubles me to see a $54 million request for a Library of 
Congress construction project while very serious repair and maintenance 
problems exist around the complex. In a time of tight budget 
constraints such as this, new construction projects should have to take 
a back seat to important maintenance and repair needs that continue to 
lag on around this complex.
    Thank you Mr. Chairman.

    Senator Allard. Okay, let me now turn to the Architect of 
the Capitol, Mr. Hantman, we're looking forward to your 
testimony.

                  SUMMARY STATEMENT OF ALAN M. HANTMAN

    Mr. Hantman. Good morning, Mr. Chairman, Senator Durbin, 
thank you for the opportunity to testify today, regarding our 
fiscal 2007 budget request. My full statement has been 
submitted for the record, however I would like to give a brief 
overview of this request. Mr. Chairman in our role as stewards, 
the AOC is responsible for 15 million square feet of buildings, 
and more than 300 acres of land. The Capitol complex is in 
reality a small city; however it's a small city with an aging 
physical infrastructure, ever stricter codes and safety 
criteria to meet, as well as complex security requirements.
    Our buildings range from 25 to 200 years old. This means 
that there are many projects that require our attention to 
assure that these buildings continue to serve as functioning 
working environments and that we preserve these national 
treasures entrusted to our care for generations to come.
    Mr. Chairman we did not prepare this budget in a vacuum, 
unaware of the economic issues our country and this Congress 
are facing. I can appreciate the tough choices that this 
subcommittee must make as you hear from each legislative branch 
agency with its budget request. I can appreciate this because 
it's difficult for me to rank the relative needs and benefits 
of necessary security and fire and life safety projects needed 
across the Capitol campus.
    How do I weigh the needs of the Library of Congress against 
those of the Capitol Police, or the Senate Sergeant at Arms 
against those of the Chief Administrative Officer of the House? 
The AOC is in the position of being a repository, if you will 
Mr. Chairman, for the needs of other agencies. They all have 
real needs that the AOC then becomes responsible for, and our 
budget request reflects these cumulative needs.
    Our projects were prioritized through a progressive 
sequence of steps to determine which are most crucial. While 
it's my responsibility as steward of these buildings to bring 
these needs and issues to Congress' attention, I'm also aware 
that cuts will need to be made, as you mentioned Mr. Chairman, 
from that prioritized list. And I'm prepared to work with this 
subcommittee and other legislative branch agencies to determine 
which cuts to make so that we fit within the overall budget 
structure that this subcommittee ultimately allows.
    Mr. Chairman, we prioritize our projects based on a set of 
criteria that allows us to evaluate the merits of those 
projects. Facility condition assessments conducted across most 
of our jurisdictions measure the current condition of all 
facilities to assess how much work is necessary to maintain, or 
upgrade their conditions to acceptable levels, and to determine 
the timeframe for this work. We hope to initiate this process 
at the Library of Congress, contingent on the approval of our 
budget request, so that we fully understand their facility 
needs as well. We'd then be able to appropriately prioritize 
their project needs based on the same criteria used for other 
jurisdictions.
    In fact Mr. Chairman, the direction to perform condition 
assessments was given, and appropriately so, by this 
subcommittee back in 2002. And if I may quote from that 
language.

    ``Condition Assessments Master Plan. The Committee has 
provided an amount of $500,000 in the Capitol buildings 
appropriation and an amount of $1,100,000 in the Senate Office 
Building appropriation to initiate a comprehensive condition 
assessment of the Capitol complex. The assessment will be 
conducted in tandem with the development of a master plan for 
the Capitol complex and will include the collection of relevant 
information regarding buildings, inspection and equipment 
testing of properties and assets. Analysis and identification 
of deficiencies, identification of solutions, and costs, a 
forecast of future renewal requirements, and the development of 
long range comprehensive financial plans.''

    Mr. Chairman, we've been working diligently to fulfill the 
directives and develop meaningful information which, in fact, 
GAO has reviewed. It's important to note that according to the 
Government Accountability Office ``While the FCAs--the facility 
condition assessments, have enabled AOC to develop a 
comprehensive plan for facilities, maintenance, and building 
renewal, the assessments have also documented the magnitude of 
AOC's deferred maintenance and other projects. $2.6 billion 
over 9 years, and the challenge of funding these projects.''
    Mr. Chairman, GAO's statement about ``the challenge of 
funding these projects'' is right on target. In a no-growth 
budget environment it's, of course, particularly challenging. 
With all due respect, if these facility infrastructure needs 
are not addressed within an appropriate timeframe, our 
buildings will continue to age and deteriorate and the cost to 
correct these deficiencies will continue to escalate in future 
years.
    With regard to safety, it's a priority at the AOC, 
therefore I'm pleased to report that for the fifth year in a 
row, the AOC's injury and illness rate decreased. Last year we 
dropped to 5.65 from a high of 17.9 in fiscal year 2000. This 
is amazing because we're coming down to the level of many white 
collar organizations in the Federal agencies as well as across 
the Government.
    While I'm proud of these accomplishments, I will not be 
satisfied until we achieve our ultimate goal of a workplace 
free of injury and illness. This includes the steam tunnels 
that were the subject of the Office of Compliance's complaint 
you discussed. Over the past several years, in the tunnels, we 
have rebuilt approximately 600 feet of tunnel roof under 
Constitution Avenue, at a cost of approximately $5 million. I 
think you might remember, Mr. Chairman, that for over 1 year 
the street on Constitution Avenue was ripped up. We had to 
replace the roof of that tunnel, that's one of the first items 
identified by our surveys that really needed to be taken care 
of up front.
    We also contracted for the inspection of 19 tunnel egress 
points, developed an egress improvements work plan, replaced 
the South Capitol Street steam line, for another $5.5 million 
and that included making structural repairs to manholes.
    We also implemented the in-house tunnel condition 
monitoring program last October which includes monitoring, 
recording and reviewing tunnel conditions daily. While this 
work was being planned and implemented, we have been working 
each year to remove spalls in areas where the concrete ceiling 
is damaged. We installed a leaky cable communication system in 
the major pathways in the tunnels. We currently have funding to 
install cable in the small stub pathways that come off the main 
tunnels. We are proceeding with that work and will get it done 
within the next months. We also provided our employees with 
confined space and asbestos awareness training.
    Mr. Chairman, we've requested $1.75 million in the 2007 
budget to fund priority projects in the tunnels. We've received 
approvals on a $1.8 million reprogramming to continue 
additional structural repairs, asbestos abatement, and 
emergency egress repairs. Significant additional funding will 
be required and we're working to determine the magnitude of 
that funding now.
    In conclusion, Mr. Chairman, as GAO noted in its February 
2006 report, we have made significant progress in our 
transformation into a more strategic organization. They state 
that the AOC has made progress in developing safety policies 
and establishing a safety training curriculum; has implemented 
a variety of communication methods to convey information to 
employees; has taken important initial steps to address the 
management and structure needed to establish a sound IT 
investment management process; has created a clearly defined, 
well documented and transparent process for evaluating and 
prioritizing projects. We're committed to fulfilling our 
responsibilities over the long term, although that means we 
have to make tough choices, as you indicated Mr. Chairman, with 
regard to how we select and prioritize our projects.
    Our request for funds in 2007 is directly related to our 
responsibility as good stewards to maintain and preserve the 
facilities and national treasures in our care. I'm very proud 
of our 2,000 dedicated AOC professionals and I'm privileged to 
lead this remarkable organization.

                           PREPARED STATEMENT

    I greatly appreciate the subcommittee's support in helping 
us achieve our goals, and once again thank you for this 
opportunity to testify, and I'd be happy to answer any 
questions that you might have.
    [The statement follows:]

              Prepared Statement of Alan M. Hantman, FAIA

    Mr. Chairman, Senator Durbin, members of the Committee, thank you 
for the opportunity to testify today regarding our fiscal year 2007 
budget request. This request is structured to enable us to continue 
supporting the Legislative Branch by ensuring that the Capitol complex 
is safe and well maintained, our national treasures are preserved and 
protected, and we continue to provide high quality, efficient, and 
effective services to our customers.

                 STEWARDSHIP AND PRIORITIZING PROJECTS

    In our role as stewards, the Office of the Architect of the Capitol 
(AOC) is responsible for some 15 million square feet of buildings and 
more than 300 acres of land. The Capitol complex is, in reality, like a 
small city. However, it is a small city with an aging physical 
infrastructure. Our buildings range from 25 years old for the Library's 
Madison Building, to more than 100 years old for the Russell, Cannon, 
and Jefferson buildings, to 200 years old for various parts of the 
Capitol Building. This means that there are many potential projects 
that call for our attention to ensure that these buildings continue to 
serve as functioning working environments for generations to come.
    While it is my responsibility to bring these issues to Congress's 
attention, it is obvious that for practical considerations of 
construction and fiscal restraint, we must spread out the funding and 
physical workload over the course of multiple years. Therefore, we have 
prioritized these projects to determine which are more critical than 
others. In previous budget requests, my focus has been on ensuring that 
fire and life-safety deficiencies were corrected. With your support we 
have devoted significant resources toward protecting the people who 
work and visit Capitol Hill by continually working to improve the 
safety and security of our facilities. Protecting people is, and will 
continue to be, my top priority as evidenced by the number of fire and 
life-safety projects in our current budget request.
    While developing this budget, we reviewed many annual operating and 
capital project requests. We made difficult choices regarding funding 
AOC operations, new programs, and high priority capital projects, while 
at the same time balancing the day-to-day needs of those we serve.
    As a result, before we submitted our current request, we removed 
$44.3 million worth of important projects. The $588.3 million we have 
requested for fiscal year 2007 ($509.4 million without items specific 
to the House) was submitted in our role as responsible stewards of our 
national treasures and in support of the needs of Congress, while 
balancing requests for new initiatives.
    It is important to note that we prioritize our projects based on a 
set of objective criteria that allow us to evaluate the relative merits 
of each of these projects. At Congress's direction, starting in 2004, 
we conducted a series of Facility Condition Assessments (FCAs) in most 
of our jurisdictions. We hope to continue the process with the Library 
of Congress, contingent on the approval of our fiscal year 2007 budget 
request. Our plan would be to survey the Library Buildings, in phases, 
beginning with the Madison Building. By completing FCAs for the Library 
of Congress buildings, we would fully understand their existing 
facility needs and would then be able to appropriately prioritize LOC 
projects with the same criteria used for other jurisdictions. These 
FCAs provide us with a method for measuring the current condition of 
all facilities in a uniform way to assess how much work is necessary to 
maintain or upgrade their conditions to acceptable levels to support 
organizational missions and when this work should occur.
    According to the Government Accountability Office (GAO) in its 
February 2006 report to Congress, ``While the FCAs have enabled AOC to 
develop a comprehensive plan for facility maintenance and building 
renewal, the assessments have also documented the magnitude of AOC's 
deferred maintenance and other projects--$2.6 billion over nine years--
and the challenge of funding these projects.'' What this $2.6 billion 
breaks down into is a total of $886 million for deferred maintenance 
and capital renewal projects as identified in the FCAs (excluding the 
Library of Congress and the Supreme Court), with the remaining balance 
identified for capital improvements ($1.1 billion) and capital 
construction projects ($69 million). Mr. Chairman, GAO's statement 
about ``the challenge of funding these projects'' is right on target. 
In a no-growth budget environment, it is particularly challenging. If 
these facility infrastructure needs are not met in appropriate 
timeframes, the conditions of our buildings will continue to 
deteriorate and the cost to correct these facility maintenance 
deficiencies will continue to rise.
    A very recent example of capital renewal is demonstrated by the 
issuance of a complaint by the Office of Compliance (OOC) regarding the 
utility tunnels which provide steam and chilled water to the Capitol 
complex. We are taking a comprehensive approach to addressing the 
existing issues in the tunnels and are identifying a logical sequence 
to the necessary actions that will be taken. We have presented this 
plan to the OOC. Over the past several years we have completed these 
and other tasks in the utility tunnels: replaced the top of 
approximately 600 feet of the tunnel under Constitution Avenue at a 
cost of approximately $5 million; contracted for inspection of 19 
tunnel egress points and developed an Egress Improvements Work Plan; 
replaced the South Capitol Street steam line and vault for 
approximately $5.5 million which includes making structural repairs to 
manholes. We have also implemented an in-house Tunnel Condition 
Monitoring Program in October 2005 which includes monitoring, 
recording, and reviewing tunnel conditions daily; and we have been 
continually working to remove incipient spalls in areas where the 
concrete ceiling is damaged.
    We have requested $1.75 million in the fiscal year 2007 budget to 
fund priority projects involving the tunnels. We recently received 
approvals from the Senate and House on a $1.8 million reprogramming 
request to continue additional structural repairs, asbestos abatement, 
and emergency egress repairs in the tunnels. Additional significant 
funding will certainly be required and we are working to determine the 
magnitude of that funding now.

                        OVERALL PLANNING PROCESS

    In terms of our overall planning process, when all of the Facility 
Condition Assessments are completed, they are rolled into a five-year 
Capital Improvement Plan (CIP). The CIP, which became fully integrated 
in the fiscal year 2006 budget process, is used to evaluate projects 
based on an objective set of criteria, including:
  --Fire and life safety, code compliance, regulatory compliance, and 
        statutory compliance.
  --Preservation of historic or legacy elements or features of 
        buildings or entire historic structures as a reflection of the 
        importance of stewardship responsibilities.
  --Impact on our mission, including client urgency.
  --Economics, including value, economic payback, life cycle cost 
        considerations, and cost savings.
  --Physical security, including protection of facilities, Members, 
        staff, and the general public.
    The projects are further evaluated based on necessary timeframes 
and on an evaluation of the conditions of the components and sub-
materials. These condition ratings are characterized as one of the 
following: Adequate, sub-standard, and deficient.
    They are then further rated as to the urgency in accomplishing them 
as follows:
  --Priority 1--Immediate: Safety or code violations, as well as 
        critical equipment that is either not functioning or close to 
        failure.
  --Priority 2--High: Items need attention in the near term, as failure 
        would impact the mission. Implemented within two to four years.
  --Priority 3--Medium: Implemented within five to seven years.
  --Priority 4--Low: Low priority projects related to aesthetics or 
        minor performance issues. Implemented within 8 to 10 years.
    All projects with an ``immediate'' urgency are given priority over 
projects for which the urgency is ``high'' and so on. Additionally, 
``deferred maintenance'' projects are generally considered a higher 
priority than ``capital renewal.'' Using the CIP process, once all of 
the FCAs are complete, we will be able to comparatively vet the 
projects to ensure that the most urgent get addressed most quickly. It 
is this multi-step methodology that has been used to produce the fiscal 
year 2007 Capital Improvement Project Priority List that we submitted 
for your consideration. Those projects that can be accommodated within 
the budget level that is ultimately approved will move forward in 
fiscal year 2007.
    There will continue to be refinements to our project development 
process. However with implementation of the prioritization process, 
future program submissions will clearly be based first on the urgency 
of accomplishing the project, followed by consideration as to the type 
of project and its importance; with emphasis placed on deferred 
maintenance projects. These changes will result in an efficient and 
effective process and one that seeks to assure accuracy, responsible 
management of resources, and efficient development of programs.
    Ultimately, the Capitol Complex Master Plan will ensure that we 
continue to be good stewards by establishing a framework that helps us 
prioritize the maintenance, renovation, and construction of Capitol 
Hill facilities over the next 5, 10, and 20 years, while also spreading 
out the costs of that upkeep and construction.
    In addition to these new processes we have made changes to our 
organizational structure to improve how these projects are carried out. 
With Congress's approval, we established the Project Management 
Division which is charged with consolidating project and construction 
management functions to provide ``cradle-to-grave'' oversight of our 
projects. We have developed and implemented new processes that are 
designed to improve project tracking and reporting as well as to hold 
our consultants and contractors accountable for contract compliance. We 
recently reinstated our quarterly report to communicate the budget and 
schedule status of ongoing projects, the latest of which was delivered 
to the Senate and House Appropriations Committees in January and was 
well received by staff.

                        CAPITAL PROJECTS BUDGET

    Our fiscal year 2007 budget is comprised of two major components: 
$232 million for capital projects and $356.3 million for our annual 
operating budget.
    The capital projects budget request consists of $193.4 million for 
capital projects, $22.7 million for studies, designs, and condition 
assessments, and $15.9 million for minor construction. This budget was 
developed by prioritizing our project requirements; including those 
requested by our customers. Using this set of criteria, we were able to 
cut our initial list of 36 projects totaling more than $188 million to 
19 projects worth $143.7 million. However, the projects that did not 
make this current list have not gone away, nor has the need to fund 
them within reasonable timeframes. They will have to be reprioritized 
for another fiscal year where they will again compete with other 
significant, additional projects for available funding.
    The capital projects budget is grouped into the categories listed 
below (also shown in Attachment A). Note that these include a number of 
U.S Senate projects that have been designed to be completed in phases 
that we hope to continue next year. They include public restroom 
upgrades, modular furniture replacement, emergency generator 
installation, and fire alarm system upgrades.

Deferred Maintenance--$30.4 million
    Maintenance or repair work on existing facilities and 
infrastructure that is past due and should not be deferred. This work 
will return a component or system to an acceptable condition. It will 
prevent physical depreciation or loss in the value of a building (this 
does not include preventative or routine maintenance).
    Projects include:
  --$19.43 million--Dirksen Senate Office Building; attic 
        infrastructure improvements;
  --$4 million--Rayburn House Office Building; 480v Switchgear and 
        Transformer Replacement;
  --$2.89 million--Thomas Jefferson Building; air handling unit 
        replacement; and
  --$2.56 million--Thomas Jefferson and James Madison Buildings; 
        elevator modernization projects.

Capital Renewal--$24.3 million
    Correct unacceptable conditions caused by aged building components 
that will exceed their useful life within the next 10 years. If 
deferred for an inordinate amount of time, physical conditions may 
deteriorate and become a deferred maintenance issue. Capital renewal 
may be performed by overhaul, reconstruction, or replacement of 
constituent parts damaged or deteriorated to the point where they 
cannot be maintained.
    Projects include:
  --$15.95 million--Hart Senate Office Building; fire alarm system 
        replacement; and
  --$8.34 million--Longworth House Office Building; kitchen exhaust 
        system upgrade.

Capital Improvement--$41.1 million
    Work done to a building that improves, enhances, or updates a 
building such as an addition, expansion, alteration, or replacement 
including work done to bring a building into compliance with current 
codes.
    Projects include:
  --$6.1 million--Russell Senate Office Building; emergency lighting 
        and power upgrade;
  --$4.96 million--Rayburn House Office Building; emergency lighting 
        upgrade;
  --$3 million--Rayburn House Office Building; Phase I public restrooms 
        upgrade;
  --$3.5 million--U.S. Capitol; security improvements in the House 
        Chamber; and
  --$4.37 million--Thomas Jefferson Building; sprinkler system 
        replacement.

Capital Construction--$63.7 million
    Construction of a new building, facility, or other infrastructure 
where none previously existed.
    Projects include:
  --$54.2 million--Library of Congress Logistics Warehouse, Fort Meade;
  --$5.35 million--Alternate Computer Facility; vehicle storage 
        facility; and
  --$4.1 million--U.S. Capitol Police; kiosks.

Other Projects--$12.3 million
    Projects necessary to sustain and provide for Congressional and 
Legislative Branch Agency mission requirements that do not meet CIP 
criteria (construction projects greater than $250,000).
    Projects include:
  --$5 million--Alternate Computer Facility; land purchase; and
  --$2.1 million--Energy Survey of Congressional Buildings.
Study, Design, and Condition Assessments--$22.7 million
    Activities necessary to plan for future projects.
    Projects include:
  --$1 million--James Madison Building; Facility Condition Assessment;
  --$3 million--FDA; fit out design study;
  --$750,000--Longworth House Office Building; fire alarm system 
        upgrade;
  --$700,000--U.S. Capitol; electrical distribution system replacement 
        design; and
  --$300,000--Cannon House Office Building; egress improvements study.

Minor Construction--$15.9 million
    Minor construction funding for each jurisdiction that provides the 
flexibility for meeting unplanned project requirements generated by 
Committees, Members, staffs, and other AOC clients.

Capitol Visitor Center--$21.6 million
    The fiscal year 2007 budget request includes $20.6 million for CVC 
cost-to-complete. Also included is $1 million for start-up and 
operational costs associated with opening the CVC, including one-time 
costs such as furniture, equipment, computers and other necessary 
items. GAO's ongoing analysis recommends adding $5 million to this 
amount to accommodate risk for further time extension and contingency 
for a total of $25.6 million for project cost-to-complete.
    While recognizing that the cumulative effect of the projects listed 
above represent a significant increase over fiscal year 2006 levels, 
these projects were considered our highest priorities. Although hard 
decisions were made to reduce the amount of our overall request, 
further cuts will likely be necessary to accommodate Federal budget 
limitations. Once again, this means that the projects that are 
eliminated will be deferred to successive years where they will again 
compete with other additional, significant projects for available 
funding.

                        ANNUAL OPERATING BUDGET

    Our fiscal year 2007 annual operating budget request of $356.3 
million reflects the addition of significant mandatory price level 
increases as well as new programs.
    The key drivers of this increase include:
  --Forty percent growth in utility costs over fiscal year 2006 enacted 
        levels due to the recent deregulation of electric power and the 
        increased cost of natural fuels following the devastation in 
        the Gulf Coast caused by Hurricane Katrina last summer.
  --Mandatory payroll increases and the addition of 91 FTEs to support 
        daily operations and maintenance of the Capitol Visitor Center 
        (CVC).
  --One-time CVC operations costs to purchase furniture, equipment, 
        computers, and other necessary items.
  --Re-establishing Information Technology base resources and upgrading 
        systems.
  --Leases and/or maintenance and operations of additional facilities.

Utilities
    With regard to utilities, in an effort to offset cost increases, we 
have initiated a number of energy conservation measures. The first was 
to develop two Energy Savings Performance Contracts to upgrade 
equipment and save energy, at no additional cost to the government. 
Contractors are paid from proven energy savings. Other efforts involve 
developing a five-year plan to conduct energy audit surveys of all 
buildings on the Capitol campus, and publishing a brochure about saving 
energy throughout the Capitol complex to be distributed to Hill staff.
    In addition, the Capitol Power Plant staff has successfully 
completed a number of new maintenance projects to improve the 
performance, safety, and reliability of the boiler house and chilled 
water plants. As part of the West Refrigeration Plant Expansion 
Project, three new chillers became operable in November 2005. With the 
addition of this new equipment, we will experience greater efficiencies 
at the Plant and remove old mechanically and environmentally outdated 
machines.

CVC Day-to-Day Operations
    In anticipation of the start-up and operational costs associated 
with the Capitol Visitor Center, our annual operating budget request 
includes funds to cover day-to-day operational and maintenance 
requirements as well as anticipated one-time costs such as furniture 
and equipment, computers, and other necessary items. Until such time as 
the Congress decides the issue of reporting relationships and 
governance of the CVC, we have included these costs in the AOC's 
budget, including $10.6 million for payroll costs associated with the 
hiring of an additional 91 FTEs.

Information Technology
    Another factor driving our operating budget request for fiscal year 
2007 is an increase in investment in information technology. In our 
fiscal year 2006 budget request, we had cut the base resources in an 
attempt to constrain growth. Our intention was to fund information 
technology program shortfalls with lapses in payroll or other general 
and administrative areas, but that strategy has not worked well in the 
current fiscal environment due to rising costs of utilities and other 
expenses. Therefore, we are requesting $25.7 million to re-establish 
these base resources and to protect our IT systems by installing the 
latest technology security programs as required, preparing for future 
technological needs, and improving internal operations by replacing our 
project information system and upgrading the interface of our inventory 
control system to our financial system.
    The February 2006 GAO Report notes that ``the agency has yet to 
establish and implement key information security practices, such as 
completing risk assessments on all of its major applications, 
documenting the identified risks in system security plans, and 
developing and implementing appropriate security controls to mitigate 
the risks--including developing contingency plans for all systems and 
applications. Until AOC completes and implements plans for improvement 
that are consistent with all our recommendations, it will be challenged 
in its ability to effectively use IT to optimize mission performance.'' 
Updating our IT systems is a crucial part of achieving these tasks as 
outlined by GAO.

                  SENATE OFFICE BUILDING IMPROVEMENTS

    A number of projects that we have requested funding for in next 
year's budget for the Senate Office Buildings focuses on upgrading and 
replacing equipment that has exceeded its useful life expectancy or 
updating the historic buildings to meet modern requirements. For 
example, we are requesting $19.4 million to replace the air handling 
units in the Dirksen Building to improve building ventilation and to 
ensure the system's reliability since the existing equipment is more 
than 40 years old and inefficient. We have also requested $6 million to 
upgrade emergency lighting in the Russell Building; $15 million to 
upgrade the fire alarm system in the Hart Building; and $5.8 million to 
install an emergency generator in the Russell Building to provide 
electrical power in an emergency.

                     CAPITOL VISITOR CENTER BUDGET

    While most of our projects are worked on behind the scenes, 
underneath the East Front of the U.S. Capitol work is proceeding on the 
largest and most complex project in the history of the Capitol--the 
Capitol Visitor Center. Our fiscal year 2007 budget request would fund 
CVC operations, administration, facility maintenance, and construction 
cost-to-complete. The requested funding also would support the required 
activities and programs for transitional and start-up costs, exhibits, 
gift shops, telecommunications, and information technology 
infrastructure support. The Capitol Preservation Commission (CPC) 
supports the AOC's request for operational funding as an interim 
measure until it is determined how, and by whom, the CVC will be 
operated.
    At our February hearing before this Subcommittee, we testified that 
we are now anticipating the CVC to be completed, including 
commissioning of life-safety systems, in March 2007, and available for 
a formal opening in April 2007. We reported the two key issues 
prompting that time extension are the delays in the delivery and 
installation of interior stone due to a court injunction and a longer-
than-expected duration for the fire and life-safety acceptance testing 
process.
    The project schedule extension has impacted the overall project 
cost-to-complete. Last fall, we concurred with GAO's assessment that 
potential risks do exist and that additional funds would be necessary 
should these risks turn into reality; most notably if completion of the 
CVC occurred after December 2006, or if significant additional change 
orders were required. After meetings held the past several months with 
GAO and our construction manager, Gilbane, we anticipated that the 
delay, along with additional change orders and the potential for future 
project risks, could increase the project's cost-to-complete by 
approximately $20.6 million. This is the amount we requested in the 
fiscal year 2007 budget. GAO's ongoing review however, has resulted in 
a revised estimate of the cost-to-complete which adds approximately $5 
million to this amount for risk, further time extension, and 
contingency. Accordingly, Mr. Chairman, if you concur, we will work 
with you to effect this adjustment in order to ensure that there are 
adequate contingencies as we work to complete the CVC.
    Further information on the status of the project and a construction 
update is provided in my testimony specifically addressing the Capitol 
Visitor Center which will be discussed following this portion of the 
hearing (attached).

                            ACCOMPLISHMENTS

    Over the past 10 years, the AOC has been undergoing a 
transformation into a more strategic organization by implementing new 
policies and procedures, while at the same time continuing to meet our 
responsibilities as good stewards. I appreciate the efforts of AOC 
employees in balancing their heavy workloads with implementing these 
important changes to our organization.
    At this time, I would like to highlight some of the major AOC 
accomplishments of the past year. As GAO has noted in its February 2006 
report, we have made significant progress in our transformation 
efforts, we continue to make progress, but the ``transformation is a 
long-term effort.''

Strategic Plan
    A key component in this effort has been the implementation of our 
Strategic Plan in 2003. The Plan has provided us with a blueprint for 
change by defining our mission, vision, and core values and created a 
structure of goals, and objectives through which we focus our efforts. 
As we begin the third year of this five-year plan, it continues to 
evolve. As part of our Strategic Performance Initiative, we are 
developing and implementing meaningful performance measures that will 
be linked to our daily activities and resource requirements. In the 
spirit of the Government Performance and Results Act, we have developed 
an ``AOC dashboard'' document which includes several high-level 
indicators to track performance for each of our strategic goals as well 
as a target goal for each indicator. Our senior leadership team meets 
monthly to monitor these indicators and goals to ensure that we meet 
the milestones we have set in our Performance Plan.

Work Orders
    In fiscal year 2005, we completed nearly 34,200 work orders in the 
Senate Office Buildings. To date, we have completed more than 19,000 
work orders in fiscal year 2006. These are tasks that are requested of 
the AOC rather than programmed by our Agency and the work ranges from 
changing light bulbs, to fixing plumbing, to reconfiguring office space 
and painting. A number of other projects were completed during the past 
fiscal year. For example, we replaced the Rotunda balcony doors and 
installed high voltage switch gear in the Russell Office Building; we 
installed new modular walls and furniture in 10 Hart Building offices, 
and installed new wall sconces in the Dirksen Building. In addition, we 
completed the restoration of three Committee rooms in the Dirksen 
Building and one Committee room in the Russell Building as well as 
upgraded the audio and visual systems in these four rooms.

Special Events
    The U.S. Capitol also was the site of a number of high-profile 
events including the Presidential Inaugural ceremony, which the AOC 
supported by building the platform, contracting for the audio system, 
installing the security fencing and crowd control features, as well as 
removing the snow that fell the night before the event. In October, we 
prepared the Capitol Building for another historic occasion, the lying 
in honor of Ms. Rosa Parks.

National Garden
    This fall, we look forward to the grand opening of the National 
Garden. This project is solely funded by private donations raised by 
the National Fund for the U.S. Botanic Garden. This not-for-profit 
corporation raised the private funds pursuant to Public Law 102-229. It 
the first public-private partnership project for the AOC. Last summer, 
we authorized the third option to be awarded under this contract; the 
construction of the First Ladies Water Garden. Construction on the 
National Garden began in spring 2004 on the base bid which consisted of 
the Rose Garden, Butterfly Garden, Lawn Terrace, and the Hornbeam 
Court. Option one, the landscaped garden path that meanders through the 
site, and option two, the Regional (Mid-Atlantic) Garden were 
subsequently awarded. Construction is scheduled to be completed next 
month and then landscaping and planting will occur on the site through 
the spring and summer. A public opening is scheduled for October.

Decreased Injury and Illness Rate
    For the fifth year in a row, the AOC's Injury and Illness rate 
decreased. We dropped to 5.65 cases per 100 employees in fiscal year 
2005, from a high of 17.9 cases per 100 employees in fiscal year 2000. 
We posted a four percent reduction in our rate while, at the same time, 
we faced the challenges of post-election office moves and an 
Inauguration, in addition to meeting our daily work demands. While I am 
proud of these accomplishments, I will not be satisfied until we 
achieve our ultimate goal of a workplace free of injury and illness. To 
make that goal a reality, we continue to educate and train our 
workforce and assure that our employees have the requisite equipment 
they need to do their jobs safely. We also took action and reduced 
injury and illness rates on the CVC construction site. The rate 
declined from 9.1 in 2003 and 12.2 in 2004, to 5.9 for the first 10 
months of 2005--below the 2003 industry average of 6.1.

Financial Statements
    We have also made great strides in generating more reliable annual 
financial statements. In 2005, we published our first accountability 
report and earned an unqualified opinion for the second consecutive 
year on the AOC balance sheet. Our Office of the Chief Financial 
Officer developed processes and procedures in anticipation of the first 
full audit of the full set of financial statements for fiscal year 
2005.

Employee Feedback Program and Action Plans
    Last year, as part of our strategic planning efforts, we developed 
a comprehensive employee feedback program. As part of that initiative, 
I invited AOC employees to participate in focus groups where they 
identified problems and suggested ways to help us solve them in order 
to improve the organization. Over the past year, we created a series of 
action plans that addressed the issues raised. Specifically, we:
  --Improved internal communication by sharing best practices in 
        customer service AOC-wide.
  --Are establishing basic standards for written communication to make 
        it easier for all employees to read and understand Agency 
        documents. Published a Correspondence Manual and Style Guide 
        for all written documents.
  --Are requiring regular staff meetings and providing training on how 
        to conduct effective staff meetings.
  --Have established AOC-wide Town Hall Meetings.
  --Are including specific training to enhance communications skills in 
        our Leadership Development Program (mandatory for all 
        supervisors).
  --Explained and communicated the Agency mission in an easy to retain 
        slogan: Serving Congress with a Commitment to Excellence.
  --Improved transparency by publishing and explaining approved 
        organization charts and promoting consistency and fairness in 
        workforce classification.
  --Issued AOC policies on Employee Feedback, Performance Evaluation, 
        and Awards and improved general policy knowledge by instituting 
        easy to read one-page summaries explaining these policies.
  --Improved Internal Service Providers' customer orientation, making 
        them more accessible.

Performance Metrics
    Finally, we continue to regularly collect, track, and manage 
operational performance metrics that are linked to our Strategic Plan 
goals through a variety of tools and processes. These tools not only 
help improve communication among AOC managers and staff, but have also 
led to process improvements in several areas. In addition, it has 
helped to improve our communication and outreach to Congressional 
leadership and our oversight committees regarding our performance. We 
continue to work with Congress and GAO to further identify areas for 
improvement while balancing our long-term goals and our day-to-day 
responsibilities.
    I want to thank the Committee for its support without which we 
could not have undertaken these efforts and completed many critical 
projects, continued to provide exemplary services, and assured 
continuity of operations at the Capitol, in the Senate Office 
Buildings, and throughout the Capitol complex.

                               CONCLUSION

    The AOC is dedicated to serving Congress with a commitment to 
excellence.
    In its February 2006 report to Congress, the GAO stated that the 
``AOC has been working for several years to transform itself into a 
more strategic and accountable organization and to improve worker 
safety. This transformation is a long-term effort that involves a 
fundamental change in AOC's culture.'' It also noted that ``AOC 
operates in a challenging environment: the agency must preserve and 
modernize these high-profile, historic buildings while meeting the 
needs of Congress--including its leadership, committees, individual 
members, and staffs--and the visiting public.''
    Since the implementation of our Strategic Plan, GAO writes that:
  --``To strengthen human capital management, AOC had, among other 
        things, linked its employee evaluation system to mission-
        critical goals, established monthly management meetings to 
        share and assess data from employee relations offices, and 
        identified a number of ways to collect, report, and analyze 
        workforce data.''
  --``To improve worker safety, AOC has made progress in developing 
        safety policies, implementing a system to track investigations 
        of incidents and follow up, completing a job hazard analysis 
        process to report hazards, and establishing a safety-training 
        curriculum that fully supports the goals of the safety 
        policies.''
  --``To further improve financial management, AOC is developing an 
        agencywide internal control framework and a cost accounting 
        system, which are essential to improving accountability across 
        all AOC operations.''
  --``To further improve communication with employees, AOC has 
        implemented a variety of communication methods to convey 
        information to employees, including a weekly newsletter on 
        project updates, policy announcements, management and 
        communication tips, and other agencywide messages.''
  --``The AOC recycling program has undergone significant expansion 
        over the past five years, while at the same time becoming more 
        efficient. The program has also been expanded by increasing the 
        number of locations at which recycling is taking place.''
  --``AOC has also taken important initial steps to address the 
        management and structure needed to establish a sound IT 
        investment management process, such as assigning roles, 
        responsibilities, and the authority needed to manage its IT 
        investment portfolio.''
  --``To improve project management, AOC created a clearly defined, 
        well-documented, and transparent process for evaluating and 
        prioritizing projects.''
    Mr. Chairman, my team and I are committed to fulfilling our 
responsibilities over the long-term, although that it means, at times, 
we have to make tough choices with regard to how we prioritize our 
projects or how we manage our clients' expectations. Our request for 
funds for fiscal year 2007 is in direct response to our responsibility 
as good stewards to maintain and preserve the facilities and national 
treasures under our care. In addition, we continue to strive to achieve 
a high level of safety, security, preservation, and cleanliness 
expected across the Capitol complex.
    I am very proud of the dedicated professionals who make up the AOC 
team and I am privileged to lead this remarkable organization. I 
greatly appreciate the Committee's support in helping us achieve our 
goals.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    FISCAL YEAR 2007 BUDGET INCREASE

    Senator Allard. If it's all right, Senator Durbin, I'm 
going to run the time clock on this, I'll take 5 minutes and 
then you can have 5 minutes and I'll do my best to abide by 
that.
    Mr. Hantman, I guess I've had a couple of shocks this 
morning. The first one was somewhat expected, that's the huge 
increase in your budget request. How do you justify an increase 
of this magnitude?
    Mr. Hantman. Mr. Chairman, as I indicated in my statement, 
I really didn't prepare this budget in a vacuum. I recognized 
the difficult financial conditions that the entire Government 
has. When I quoted the direction that I received from this 
subcommittee several years ago, to take a look at the condition 
assessments, I really had to evaluate what my role was as 
steward of these buildings and these treasures here on Capitol 
Hill. What we did is we went through a prioritization process 
which originally included something like 36 projects or so. We 
prioritized them in accordance with the methodology that I 
included in my testimony here. The methodology is an overall 
planning process that takes into account fire and life safety 
codes, preservation of historic and legacy elements, impact on 
our mission, including client urgency, economics, and physical 
security. All of these issues were evaluated. We then looked 
into the issue of rating these projects, whether the condition 
of these projects and the areas that they were meant to serve 
``adequate'', ``substandard'' or ``deficient''. We then further 
rated them as to urgency and accomplishing them in terms of 
immediate, high, medium, et cetera. In coming up with the list 
of 19 projects that survived that list of 36, Mr. Chairman, we 
eliminated some $43 million worth of projects. What we wanted 
to do was actually discuss the criteria, the methodology we 
went through to select these projects.
    I recognize that we have to cut back on the numbers that we 
have over here. But in the spirit of the report that this 
subcommittee directed us to do years ago, to do the 
assessments; I thought it was important to bring forward to the 
subcommittee, the nature, the magnitude of the issues that we 
have building up here on Capitol Hill.
    The more projects we put off, the more projects we have to 
plan for in future budgets. And there are more projects that 
keep coming up in terms of the age of the infrastructure and 
the buildings we have here.
    So I don't presume, Mr. Chairman, to ask more than other 
Federal agencies. I don't presume to go over whatever budget 
cap is realistic in this. I just wanted to make the point that 
basically, if we're going to be good stewards, and fulfill, in 
fact, the mission that this subcommittee gave us years ago, 
that we bring to the attention of the Congress what needs to be 
done and work together to find out how best to do this, how to 
spread it out over the years, and make sure that these 
facilities are good for future generations and that the fire 
and life safety standards are in fact met.

                       UTILITY TUNNEL CONDITIONS

    Senator Allard. I appreciate you laying this all out for 
us. We're just going to have to do some tough priority setting 
as we move forward in this subcommittee.
    The other shock I had was the condition of the utility 
tunnels. I have some pictures here that were taken, apparently 
the inside of the tunnel in some areas, and I'm shocked at the 
amount of crumbling of the structure and the rusting that's 
going on in some of the old pipes. It seems to me we really 
have to get after this. Why isn't this your highest priority? 
And can you give us a better idea of what we may be looking at, 
are we tearing up streets? I'm concerned about safety 
considerations, when we have cement walls that are crumbling, 
asbestos is okay, as long as it's not in a state where it's 
moving, and it's moving. Walls are crumbling. I'm worried about 
the potential of risk to the workers and everyone that happen 
to use that tunnel. I wish you'd comment on that please.
    Mr. Hantman. Thank you Mr. Chairman. Clearly that is an 
issue and there's no doubt that more work is necessary within 
the tunnels. When we first started looking at this, and this 
was well before the citation back in the year 2000. We 
recognized that there were two issues that we needed to deal 
with. One of them was the immediate issue of the condition of 
the tunnel and the workmen who go down there on a daily basis 
to maintain the condition. We recognized that it was a long-
term solution, that we could not rip up all the streets around 
the Capitol complex, we have some 12,000 lineal feet of tunnel 
here. And, in fact, as I indicated before 600 feet of that was 
ripped up on Constitution Avenue as the first priority that was 
identified in this project because of not only the needs in the 
tunnel itself, but also because of the traffic that goes on top 
of that tunnel. Every time we look at the major issues, we 
recognize that there's an awful lot of inconvenience that will 
occur to the Congress, to the Capitol, to our community as we 
rip up streets. Part of the $1.8 million we have in the 
reprogramming will be going toward a design for the next 
section which was almost in as bad shape as the section under 
Constitution Avenue, in front of the Senate Office buildings. 
This is on Second Street, to the south of the Madison Library 
of Congress office building. We're doing a study on it. We 
fully expect that we're going to have disruptions, major 
concerns from the community, from ourselves. We don't control 
the streets under which our steam lines run over there. And 
that would be our next focus as identified in the original 
report. But while we recognize that the major ripping up of 
streets where we've got so many going on right now, as you 
know, East Capitol Street, we have this new steam tunnel going 
in for the Capitol Visitor Center, on South Capitol Street, we 
ripped it up for other steam and infrastructure utility lines. 
We're nearing the completion of that, we're still doing it on E 
Street in front of the Power Plant. How much construction 
fatigue can the Congress take? How much disruption can the 
community take at one time? That's what we have to work out 
with respect to the major projects. And we fully expect as we 
get through our studies on this next section of the ``R'' 
tunnel, as it's called, past the Madison Building, will cost us 
millions of dollars and we'll have to be talking to the 
subcommittee about how that gets funded.
    But the immediate priority was the Constitution Avenue 
tunnel, while these things were being phased over multiple 
years. The plan was never to finish all of this work by the 
year 2002. Past budget requests will indicate that we showed 
tens of millions of dollars in out-years to solve all of these 
problems. Our immediate problem was to make it as safe as we 
could for the people who work there on a day-to-day basis.
    So as we went through the years, each--we installed a leaky 
cable communication system in the tunnels, through the main 
tunnel system as I indicated before. By this summer, we should 
have the small stub tunnels, leading from those main 
communication cables to each building, taken care of as well. 
We implemented emergency shoring and repairs to the tunnels and 
we've done so every year since the year 2000 when this came 
about.
    So people have been going into those tunnels, looking out 
for spalls, taking care of those spalls, so that it is less 
dangerous for the people who go in there. We've also initiated 
three person work teams where one person would stay outside of 
the manhole and two people using their radio communications, 
would go inside the manhole and they would be able to talk 
about things. I met with the tunnel crew last week Mr. 
Chairman, listened to all of the issues that they had, to the 
concerns that they had, and the highest priorities they saw 
which basically amounted to the ``Y'' tunnel, which is where a 
lot of our focus and studies are going into at this point as 
well.
    So we have been trying to move forward on the day-to-day 
life safety while we're planning the long term projects which 
require greater funding and have a greater impact on the 
community.
    Senator Allard. Let me call on my colleague, Senator 
Durbin. I know he is shocked as I am at the condition of those 
tunnels and I think he's got some questions he wants to ask in 
that regard.

                     OFFICE OF COMPLIANCE COMPLAINT

    Senator Durbin. Thank you very much. Mr. Hantman, this is 
unprecedented is it not, that the Office of Compliance would 
file a complaint against the Architect's Office?
    Mr. Hantman. That's my understanding, sir.
    Senator Durbin. And it's been noted now for 6 years or more 
that there were problems, hazards and dangers to employees in 
these tunnels, is that not true?
    Mr. Hantman. That is true, sir.
    Senator Durbin. I understand budgets because I've served on 
the Appropriations Committee on the House and Senate, and been 
on this subcommittee for some time. But I cannot believe that 
if you felt that this was a life threatening situation and came 
to Congress that we wouldn't have responded. Did you feel this 
was a life threatening situation?
    Mr. Hantman. We felt that there was certainly conditions 
down there that needed to be ameliorated so that it would not 
be a life safety situation.
    Senator Durbin. I think you said yes, that you felt it was 
a life threatening situation.
    Mr. Hantman. Certainly with spalling concrete coming off, 
that could be certainly a life safety situation, yes.
    Senator Durbin. And I have to ask you why you didn't make 
this plea to Congress, saying the lives of workman are at stake 
here. When I look at this, it's a lengthy survey done by the 
Office of Compliance, the conclusions at one part say, 
``neither the conditions, nor the protective measures for 
either asbestos or heat stress have improved for tunnel shop 
employees between the OOC report of August 24, 1999 and the 
inspection made for this report.'' And they have cited in here 
as I'm sure you've read ample evidence that the workers whether 
they knew it or not, were exposed to asbestos hazard during 5 
or 6 years while they were working in these conditions. Were 
you aware of that exposure?
    Mr. Hantman. We have worked in--we have five tunnels sir. 
One of them is the ``V'' tunnel for instance. We completed 
abating the asbestos in that tunnel last year. We have money in 
the project loop right now, in procurement for the ``B'' tunnel 
to abate the--we are--one of the comments that the chairman 
made before in terms of encapsulating asbestos, we recognize 
that we have asbestos in all of our buildings and all of our 
tunnels around the campus. As long as it's encapsulated and 
safe we will be replacing that as we can, as we go down the 
road with various projects.
    Most of these tunnels have had encapsulated work 
accomplished. The ``B'' tunnel, for instance, had new jacketing 
put on it. That jacketing is now wearing out. We have a 
$200,000 project to abate the work in that tunnel.

                     EMPLOYEE SAFETY IN THE TUNNELS

    Senator Durbin. Mr. Hantman, did you warn the workers that 
they were going to expose themselves to inhalation of asbestos 
if they worked in the tunnels that were not protected?
    Mr. Hantman. The workers were aware of these asbestos 
issues. We worked to repair problems when they saw an asbestos 
issue, or we had the construction management division go in to 
inspect, we would go in and repair those particular sections 
and make sure that they were encapsulated.
    Senator Durbin. Did the workers wear any protective 
breathing device working around this asbestos?
    Mr. Hantman. They are now, sir.
    Senator Durbin. When did that start?
    Mr. Hantman. This is just starting.
    Senator Durbin. Why did we wait so long to protect these 
workers?
    Mr. Hantman. We were working in those tunnels, we had 
constant inspections going on in those tunnels. We recognized 
that we needed to do full tunnel work as we did on Constitution 
Avenue to make sure that--and as we did on the ``V'' tunnel 
that we can take care of it as a total project while we were 
encapsulating segments as we went along.
    Senator Durbin. Mr. Hantman, I would have to tell you that 
perhaps I have a heightened interest in this with the debate we 
just went through on the asbestos issue. And having met scores 
of widows and widowers of people suffering--who suffered from 
mesothelioma and asbestosis. There's not a single one of us in 
this room who knows for sure that we haven't been exposed to 
asbestos that will kill us. In this circumstance, we knew that 
there was asbestos, we knew that it was a hazard to workers, 
and literally waited years before we provided safety devices 
for these workers to protect them. How could we possibly 
explain that to the workers or their families?
    Mr. Hantman. We had ongoing inspections but clearly they 
were not adequate. Senator Durbin.
    Senator Durbin. Well that's cold comfort. I appreciate your 
admission, but I think it tells that we have done a great 
disservice to these workers and their families. And I hope of 
all the priorities which we face on Capitol Hill, that the 
first priority will be the safety of the men and women who work 
here and visit here. And if that is the case, I want to say to 
you point blank. If you do not come forward with requests for 
life safety measures and protective devices to protect these 
workers then you're not doing your duty.
    You need to call on us, and if we fail then it's on our 
shoulders but knowing this for 5 or 6 years, and not responding 
to it, and exposing workers to these potential life threatening 
situations that's entirely unacceptable. And to think that it 
would happen on Capitol Hill, the seat of our Government, the 
symbol of who we are as a people, makes it even worse. Thank 
you, Mr. Chairman.
    Senator Allard. Well I'd like to agree with Senator Durbin 
on his comments. I do think that we have to get moving quickly 
on this, we need to get it taken care of. I understand your 
concerns about disrupting traffic, part of it's on Constitution 
Avenue. But I think that we need to get a plan in place quickly 
as to how we can deal with this, and somehow or other find the 
resources to begin to get this situation rectified as much as 
possible, and get the city to understand that this is a serious 
problem and it needs to be dealt with. I know it's going to 
create some travel inconveniences, but I just think it has to 
be done.
    Senator Durbin. Mr. Chairman if I might add to that. Mr. 
Hantman said how much construction fatigue can Congress take, 
he went onto talk about how much disruption of traffic can the 
community take. Well I'm prepared to face both of those 
challenges but I'm not prepared to face the families of these 
workers and tell them we didn't do everything humanly possible 
to protect them in the workplace.

                          TUNNEL REPAIR PLANS

    Mr. Hantman. We have requested $1.75 million in this budget 
to do further studies and work on that, in addition to the $1.8 
million that we've recently reprogrammed. We will certainly get 
back to you in terms of what those studies are showing and the 
priorities in terms of those dollars.
    Senator Allard. I don't know what kind of time line you 
were thinking about, but we need to expedite this. I hope that 
you can come back with an expedited plan. Give us a better idea 
of what this total thing is going to cost, so we can deal with 
it, and begin to plan for it. We've got a lot of things that 
are on that list, but in my view this needs to be toward the 
top of the list. We need to somehow begin to address it right 
away. You now have the feeling of this subcommittee that we 
think this is important, and we need to expedite it. I hope 
that you would look at the budget request that you've made and 
see what we can do now to begin to address these problems. I 
agree with Senator Durbin, the traffic and inconvenience to 
Members of Congress and our staff, that's a minor issue 
relative to the seriousness of what we have here. We need to 
deal with it.

                TRACKING OFFICE OF COMPLIANCE CITATIONS

    Are you keeping a list of possible problems that are 
erupting so that we don't get to this problem in some future 
time? Where the Office of Compliance has pointed out a problem 
or potential problem, is it being catalogued so that we can see 
what might be coming down the pike so that we can begin to meet 
these challenges as they face the committee?
    Mr. Ayers. Yes, Mr. Chairman, we do meet regularly with the 
Office of Compliance and they have over the years, since 1999, 
issued a variety of citations. We work to abate those and 
request funding as necessary to abate those. We meet with them 
on a regular basis to update them on the status of the 
abatement of those citations.

  CAPITAL PROJECTS AND THE LIBRARY LOGISTICS WAREHOUSE PRIORITIZATION

    Senator Allard. Let me move onto capital projects. Your 
budget includes 19 major capital projects, totaling about 
$143.7 million. Could you describe the process, referred to as 
the line item construction program, you went through to come 
with this list of projects?
    The projects are ranked based on their urgency and the type 
of project, now how is a library storage facility ranked number 
nine on this list?
    Mr. Hantman. As I indicated Mr. Chairman, when we 
originally started looking at projects, and the importance and 
the ranking on the list, we had some 36 projects there. The 
library logistics warehouse was number 35 on that list, because 
we ranked it as a high need, but not an immediate need. What 
happens when you get to all of the fire and life safety, the 
preservation, the economics, the physical security issues and 
you rank that, and you look at the current condition of various 
projects, you'll note that's one of the few projects on our 
request which is a new project as opposed to something that 
needs to be repaired and maintained. Originally that was not 
ranked high on the list, it was number 35 as opposed to where 
it is right now, in number 9. The Librarian expressed very 
strong need and concern that it was an ``immediate'' priority. 
We have not done facility condition assessments for the Library 
as of yet. We hope to get that funding in here so we can 
actually do the type of analysis we talked about before. So in 
terms of the final overview, once you go through all the fire 
and life safety, the physical security, the deficiencies, and 
things like that, the urgency of the project is the element 
that is the last overlay on that. So our priority was 
originally ``high'', the Librarian indicated that was an 
``immediate'' project, very important. And so it was on that 
basis that it was raised to--it's the lowest of the 
``immediate'' projects on our list which is number nine. We 
have eight ``immediate'' above it, all the rest below it are 
``high''.
    If it had not been ranked as ``immediate'' at the 
Librarian's request it would have been number 35 in the project 
list and would not have been requested.

               DIRKSEN INFRASTRUCTURE IMPROVEMENT PROJECT

    Senator Allard. The Dirksen infrastructure improvements 
total somewhere about $19.4 million, can you describe these 
improvements and tell us where the project can be broken down 
into phases so as to lessen the price tag in fiscal year 2007.
    Mr. Hantman. This again Mr. Chairman, is an important 
project. Basically what we're looking at over here, is we think 
that this project could be phased in multiple years. As far as 
the Dirksen project is concerned, the current situation is that 
it's calling for the replacement of air handling units in the 
Dirksen Office Building. They're an integrated piece of 
equipment, they consist of fans, heating units, coils, et 
cetera, and we currently have 21 air handling units serving the 
building right now. There are 12 of them on the seventh floor 
of the Dirksen Senate Office Building that have to be replaced. 
These are air handlers that are over 40 years old. They've 
exceeded their useful life, and they're very inefficient.
    So this project would replace those 12 air handler units 
with new units that have replaceable filters, steam preheat 
coils, clean steam humidifiers, variable frequency drive 
motors, direct digital control systems. The work would include 
reconnecting the main units, et cetera. If not funded, the 
building ventilation will gradually worsen and the units will 
fail in the near future. Just when in the near future, we 
wouldn't know exactly but in terms of good process and 
procedure, this could happen.
    We've taken a look at this project Mr. Chairman, and we 
think it could be phased by stack especially. Specifically on 
the north stack, there's a center stack, and a south stack in 
the Dirksen Building. Phasing would require increased project 
coordination, some increased administrative costs, and 
contractor overhead, things like this. But we think it could be 
phased into three pieces.
    Senator Allard. Do you have an idea about how that would 
affect the cost of the project?
    Mr. Hantman. Yes, in the--we think that for this first 
year, we could do the south wing for three air handling units 
for $6.5 million, next year we could do the center wing for 
$8.4 million, and the north wing in the following year for some 
$6 million. This would add about a $1.5 million in additional 
costs to the project, but it could be spread out over 3 years.

                      CONSTRUCTION OVERHEAD COSTS

    Senator Allard. Thank you. The Architect of the Capitol's 
construction overhead costs include more than 10 percent for 
contract administration and construction management. Other 
agencies such as the Corps of Engineers and the naval 
facilities engineering command include costs in the range of 6 
to 8 percent. What do AOC's overhead costs support and why are 
your overhead costs higher than these other ones mentioned?
    Mr. Hantman. We can certainly respond to the record for 
that if we could Mr. Chairman.
    Senator Allard. Okay. If you would please.
    [The information follows:]

    The AOC's overhead costs consists of the following:
    Construction Contingency Cost.--This is added to the total 
Estimated Construction Contract Cost (ECCC) to allow for change 
orders. The percentage typically ranges between 5 percent to 10 
percent for new construction and 10 percent to 15 percent for 
renovation work. The higher contingency percentage for 
renovation work is due to the greater likelihood that during 
renovation unknown or unforeseen conditions may be encountered.
    Implementation Cost.--These are administrative costs added 
to the Estimated Construction Project Cost (the accumulated 
ECCC plus Contingency) to support the AOC's costs during 
project execution. These include: (1) Construction 
Administration, (2.5 percent)--this is usually a contract with 
the A/E firm performing the design, or the A/E firm who 
performed the design, to account for shop drawing submittal 
reviews, answering Requests for Information (RFIs), and any 
additional technical services related to interpretation of the 
drawings and specifications during construction, and the 
percentage applied is an industry-accepted standard; (2) AOC 
Construction Management, (8 percent)--this amount is set aside 
to pay for Term AOC employees hired as Construction Managers, 
who are the COTRs during construction, and Construction 
Inspectors, who provide daily quality assurance during 
construction execution; (3) Government Testing, Inspection and 
Quality Control, (2.5 percent)--this amount is provided to 
allow for independent testing, inspections services, or quality 
control services that may be required. Such instances include 
specialized testing or field verification that specified design 
parameters have been met, and independent validation of 
information necessary to resolve contractor disputes.
    Project Management Cost.--This amount provides for 
professional associate (contract) or temporary in-house project 
management staff when execution of a specific project or group 
of projects cannot be met with internal resources. At the 
present time, temporary project management staff are funded by 
the LOC Fort Meade projects to provide for overall program 
execution at that location. Previously, this allocation was 
used to execute portions of the Emergency Response Fund 
projects because at that time there was an inadequate dedicated 
project management staff to support that program. This 
percentage--currently set at 5 percent--was inadvertently 
applied to some of the fiscal year 2007 project requests. 
Specific estimating guidance has since been issued to clarify 
that it is to be applied only under the circumstances noted 
above.
    The AOC has not analyzed other agency overhead cost 
structures. The AOC is undertaking a series of processes to 
determine how its overhead costs are spent, and over time will 
be in a much better position to support its actual cost 
requirements based on financial history matched to project 
performance. In addition, the Government Accountability Office 
has offered to provide the AOC with technical advice in this 
specific area.

                    WEST REFRIGERATION PLANT PROJECT

    Senator Allard. On the west refrigeration plant, this $100 
million project is behind schedule by 5 or 6 months, and over 
budget. What is the current schedule for completion?
    Mr. Hantman. The current schedule is by July of this year, 
we should have the units up and running, with a combination of 
controls, as well as manual controls so that we could be 
producing the chilled water that we need throughout the campus. 
By the end of the year all those controls should be in place, 
so that the manual operation would no longer be needed.
    Senator Allard. Can you assure us that no additional funds 
are going to be needed?
    Mr. Hantman. We are reprogramming dollars in this year's 
budget as you know Mr. Chairman, to the tune of about $4.7 
million. The main reason that these funds were needed is that 
there were two unforeseen conditions at the Power Plant. One of 
them was the extent of the contaminated soil under the existing 
coal pile. We needed to remediate that. Another was a gas main 
that was on Virginia Avenue in the way of the relocated sewer 
line that we had to take care of. With those two projects, that 
basically took the full reprogramming value and we would have 
been pretty much on budget, without having to reprogram, 
without those two elements.
    So, yes, we're expecting that this reprogramming should be 
able to get us to home base.

              WEST REFRIGERATION PLANT PROJECT CHALLENGES

    Senator Allard. What are the biggest challenges you've 
confronted with a project, and what are some lessons learned?
    Mr. Hantman. Well, the two project elements that I 
mentioned were the biggest challenges, and that is true Mr. 
Chairman, of any project we do here on Capitol Hill. The 
documentation is just not very good in terms of existing 
drawings and all. That was certainly the case with the gas line 
on Virginia Avenue. It wasn't shown in the right place, in 
terms of where it really was. Another challenge that we faced 
on the Power Plant, was the reason that project was initiated 
in the first place. This goes back to the type of issues that 
we have with facility conditions throughout the campus. How do 
you know something's going to fail? Do you replace a roof 
before it fails, or do you do it because its life expectancy 
has really been achieved. So when we looked at the east 
refrigeration plant, it actually has EPA, noncompliant elements 
in it. We wanted to replace it. It was over 40 years old. It 
wasn't performing efficiently. We had planned on essentially 
using it long enough to be able to take down the existing west 
refrigeration plant units, put them online, hook them up and 
have the east plant run through the winter so that we could do 
that, and the full load would be on that. Unfortunately, we had 
two of those units fail. Their life expectancy certainly was 
there, we knew that was happening, and the same issue is, when 
will something fail?
    So we had to essentially, while the west refrigeration 
plant was up and running, make those changes. So that was 
something that cost us time and it cost us money, Mr. Chairman.

    GOVERNMENT ACCOUNTABILITY OFFICE REPORTS ON POWER PLANT STAFFING

    Senator Allard. Now, GAO recently reported that the 
Architect of the Capitol hasn't made sufficient progress in 
planning to staff the modernized Power Plant efficiently and 
ensure plant personnel are trained to operate it safely. 
According to the GAO, the plant has about twice as many 
employees as are needed for efficient operation and has since 
at least 1996. What are your plans for right-sizing the Power 
Plant while ensuring equity to all employees?
    Mr. Hantman. We have a consultant--Ross is doing a detailed 
functional analysis, regarding staffing reductions. We think 
they are possible. We are at the process, Mr. Chairman, we 
don't have the new equipment up and all the controls in place 
at this point in time. So we need to take a look at training 
the people in--on our staff, for automation of the plant, and 
cross train those people to make sure that they can do multiple 
jobs efficiently. We believe this can happen, once we have the 
new plant online. We are concurrently working on doing training 
right now, so that we can essentially right size and cross 
train people to bring it more in line with the ultimate 
staffing that's necessary. And our new director certainly will 
have his eyes and ears on that and make sure that we do it the 
right way.

                        PERFORMANCE-BASED BUDGET

    Senator Allard. You've been listening to some of my 
concerns in the past hearings on performance-based budgets and 
I understand you're taking some action to develop a 
performance-based budget to measure outcomes. I'd like to know 
how you're coming along on that initiative?
    Mr. Ayers. Sure, thank you Mr. Chairman. We do have several 
strategic performance initiatives underway, and performance-
based budgeting is one of them. If I could just step back for a 
moment though. All of these refer back to our strategic plan 
that we developed in 2003. That strategic plan is centered 
around four goal areas: facilities management, project 
management, human capital, and organizational excellence. And 
to implement that plan, it's accompanied by a performance plan 
that includes 16 objectives, 175 specific milestones, as well 
as over 300 individual activities necessary to achieve those 
goals. In addition to simply measuring our progress against 
achieving those milestones, we've developed a series of 
performance indicators that enable us to track the health of 
the organization on an ongoing basis. We call this our 
dashboard. We've developed some 25 different performance 
metrics, that we review on a monthly basis, myself and Mr. 
Hantman, with a team of senior managers.
    To take that strategic plan to the next level, we believe 
requires the implementation of a cost accounting system as well 
as a performance-based budgeting system, those--both of those 
processes are underway now. We believe that's a year long 
effort, we've recently added staff to our cost accounting 
division to begin the full implementation of that program and 
we look forward to presenting to you in 2008 our first 
performance-based budget.

                    INTERNAL CONTROLS IMPLEMENTATION

    Senator Allard. I'm looking forward to that, and thank you 
for your efforts. According to GAO, it's critical the Architect 
of the Capitol develop strong internal controls, including a 
reliable cost accounting system and sound procurement 
practices, can you tell us what you've done in this area, and 
identify the resources you've requested in your budget to 
address these needs.
    Mr. Ayers. Certainly Mr. Chairman, thank you. We have begun 
the roll out of a comprehensive internal controls program. This 
has been, in fact, in our strategic plan since 2003. The first 
phase of that, as we've selected three of the--what we feel 
most important functions of our organization. Our procure to 
pay, or how we purchase materials, as well as our payroll and 
project management systems. As part of this internal controls 
program, we'll take each of those systems and break them down 
to each of their individual components, review them to 
determine what specific financial and managerial controls need 
to be in place to be able to achieve the end result. We're well 
in process on the first three of those. Once those are 
complete, we'll bring in another handful of our business 
processes and run them through the same process. Ultimately 
we'll have gone through all of our strategic business 
processes; run them all through this program to develop a sound 
internal controls program. We do have two FTEs requested in our 
2007 budget to enable us to continue that, and expand that 
internal controls as well as the cost accounting program.

                    CONTRACT MANAGEMENT IMPROVEMENTS

    Senator Allard. Your contract management has been subject 
to some criticism. What are you doing to try and improve it?
    Mr. Ayers. I think one of the most important initiatives 
we've undertaken, is the development of a comprehensive core 
competency program, both for our project managers as well as 
for our procurement employees. That's a terrific program, and 
our employees are run through an appropriations law class, a 
contract management class, I think that's been our most 
important initiative in that area.

       ARCHITECT OF THE CAPITOL CHIEF FINANCIAL OFFICER SELECTION

    Senator Allard. Okay. Let me ask you Mr. Hantman, about the 
position of Chief Financial Officer. This seems to me like a 
critical position to get filled. How are we doing on filling 
this position?
    Mr. Hantman. I think we're going well Mr. Chairman, we 
empaneled--a panel essentially last week, which includes 
Stephen Ayers, it includes the CFOs of the Government 
Accountability Office and the Government Printing Office. Some 
53 resumes are being reviewed right now. Clearly that's a 
critically important position and the process is moving along.
    Senator Allard. That's all the questions that the 
subcommittee has. I would like to thank you for your 
participation.

                          SUBCOMMITTEE RECESS

    The subcommittee on legislative branch will stand in 
recess, until Wednesday, April 5, 2006 when it will hear 
testimony from the Sergeant at Arms and Capitol Police Board. 
Thank you.
    [Whereupon at 11:15 a.m., Wednesday, March 15, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 5.]

</pre></body></html>
